i
APPENDIX INDEX
210315 Order Denying Petition for Review 10th
Cir. 20-9510 & 20-9524 .................................... App. 1
200305 FCC Second Order on Reconsideration
and Order FCC 20-28..................................... App. 48
171208 FCC Memorandum Opinion and Order
FCC 17-162..................................................... App. 93
160602 FCC Summary Order and Demand Letter ................................................................. App. 153
210506 Order Denying Rehearing 10th Cir. 209510 & 20-9524 ............................................ App. 174
47 U.S.C. § 503 Forfeitures .............................. App. 176
47 C.F.R. § 1.1910 Effect of insufficient fee payment, delinquent debts, or debarment ........ App. 183
31 U.S.C. § 3712 Time limitations for presenting
certain claims of the Government ............... App. 187
28 U.S.C. § 2462 Time for commencing proceedings ............................................................... App. 189

App. 1
PUBLISH
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
-----------------------------------------------------------------------

BLANCA TELEPHONE
COMPANY,
Petitioner,
v.
FEDERAL COMMUNICATIONS
COMMISSION; UNITED
STATES OF AMERICA,

Nos. 20-9510
and 20-9524

Respondents.
-----------------------------------------------------------------------

PETITION FOR REVIEW FROM THE
FEDERAL COMMUNICATIONS COMMISSION
(NOS. FCC 17-162 and FCC 20-28)
-----------------------------------------------------------------------

(Filed Mar. 15, 2021)
Timothy E. Welch, Hill and Welch, Silver Springs,
Maryland, for Petitioner.
Scott Noveck, Counsel (Thomas M. Johnson, Jr., General Counsel, Ashley S. Boizelle, Deputy General Counsel, Richard K. Welch, Deputy Associate General
Counsel, Federal Communications Commission, and
Makan Delrahim, Assistant Attorney General, Michael
F. Murray, Deputy Assistant Attorney General, and

App. 2
Robert B. Nicholson and Adam D. Chandler, Attorneys,
United States Department of Justice, with him on the
brief ), Federal Communications Commission, Washington, D.C., for Respondents.
-----------------------------------------------------------------------

Before TYMKOVICH, Chief Judge, BRISCOE, and
BACHARACH, Circuit Judges.
-----------------------------------------------------------------------

TYMKOVICH, Chief Judge.
-----------------------------------------------------------------------

Blanca Telephone Company is a rural telecommunications carrier based in Alamosa, Colorado. Its business ensures its customers have access to a basic level
of telephone services in rural Colorado. To make this
business profitable, Blanca must rely in part upon subsidies from the Universal Service Fund (USF), a source
of financial support governed by federal law and
funded through fees on telephone customers. And in order to receive subsidies from the USF, Blanca must
abide by a complex set of rules governing telecommunications carriers.
The Federal Communications Commission1 administers and enforces the rules governing distribution of USF support. Through an investigation begun
in 2008 by the FCC’s Office of Inspector General into
Blanca’s accounting practices, the FCC identified
1

We also refer to the FCC as the “agency” throughout the
opinion.

App. 3
overpayments Blanca had received from the USF between 2005 and 2010. According to the FCC, Blanca
improperly claimed roughly $6.75 million in USF support during this period for expenses related to providing mobile cellular services both within and outside
Blanca’s designated service area. As we describe in
more detail below, Blanca was entitled only to support
for “plain old telephone service,” namely land lines, and
not for mobile telephone services. Following the investigation, the FCC issued a demand letter to Blanca
seeking repayment. The agency eventually used administrative offsets of payments owed to Blanca for
new subsidies to begin collection of the debt.
Blanca objected to the FCC’s demand letter and
sought agency review of the debt collection determination. During agency proceedings, the FCC considered
and rejected Blanca’s objections. Now, in its petition for
review before this court, Blanca challenges the FCC’s
demand letter and subsequent orders on a number of
grounds. Blanca claims the FCC’s decision should be
set aside for three reasons: (1) it was barred by the relevant statute of limitations, (2) it violated due process,
and (3) it was arbitrary and capricious.
On review of the agency’s record, we AFFIRM the
FCC’s decision. We conclude the FCC’s debt collection
was not barred by any statute of limitations, Blanca
was apprised of the relevant law and afforded adequate opportunity to respond to the FCC’s decision,
and the FCC was not arbitrary and capricious in its
justifications for the debt collection.

App. 4
I.

Background

A. Factual Background
1. The Regime Governing Blanca
In this appeal we must decide whether Blanca, a
local exchange carrier (LEC) under federal law, could
receive USF support for costs associated with providing mobile telephone services.2 In order to proceed, we
first describe the laws governing Blanca as of 2005.
Blanca and other telecommunications carriers are
governed by a vast regulatory scheme. As telecommunications technology has become more advanced and
complex, the laws and regulations governing such
technology have tried to keep pace. And as the country’s population has shifted geographically, with many
trading rural for urban living, the laws and regulations
have tried to account for these demographic changes
as well.
Throughout the latter-half of the twentieth century, it became less economically feasible for traditional phone companies to provide services to rural
customers. Faced with rugged terrain across open expanses, telecommunications carriers were wary to invest in and maintain expensive infrastructure. And
given the sparse populations of many of these areas,
the limited economies of scale also weighed against
such investments.

2

Throughout the opinion, we interchangeably use the terms
“mobile,” “cellular,” and “wireless” to describe this type of service.

App. 5
The Telecommunications Act of 1996 was passed
to address this shortage of quality telecommunications
services in rural parts of the country. 47 U.S.C.
§ 254(b)(3) (“Consumers in all regions of the Nation,
including low-income consumers and those in rural,
insular, and high cost areas, should have access to telecommunications and information services . . . reasonably comparable to those services provided in
urban areas and that are available at rates that are
reasonably comparable to rates charged for similar
services in urban areas.”). The Act sought to ensure
that “universal service” was available to customers, regardless of where they lived. Id. Under the Act, Congress intended to incentivize carriers to serve rural
customers by providing subsidies from the USF for
services provided and infrastructure built in such
high-cost areas. See generally WWC Holding Co., Inc. v.
Sopkin, 488 F.3d 1262, 1267 (10th Cir. 2007) (discussing why the USF was created).
The USF is overseen by the FCC and administered
by two private organizations. It is funded by mandatory contributions from carriers. 47 U.S.C. § 254(d);
47 C.F.R. § 54.706(a). The FCC sets the rules for distributing the funds. 47 U.S.C. § 254(k). The Universal
Service Administrative Company (USAC) is an independent, non-profit corporation that is responsible for
establishing the procedures for monitoring and distributing funds. See generally United States ex rel. Shupe
v. Cisco Sys., Inc., 759 F.3d 379, 381 (5th Cir. 2014) (describing the structure and function of USAC). USAC
is also responsible for auditing carriers and providing

App. 6
reports to the FCC. 47 C.F.R. §§ 54.707(a), (c). The National Exchange Carriers Association (NECA) is a
membership organization of telecommunications carriers that collects and audits accounting reports from
carriers. See generally Farmers Tel. Co., Inc. v. FCC, 184
F.3d 1241, 1246–45 (10th Cir. 1999) (describing the
structure and function of NECA). USAC can obtain
any reports submitted to NECA. 47 C.F.R. § 54.707(b).
As of 2005, USF funds could be distributed to eligible telecommunications carriers (ETCs) for certain
types of expenses. See 47 U.S.C. § 254(e) (2002). States
were given the authority to designate which carriers
qualified as ETCs. 47 U.S.C. § 214(e)(2) (1997). And
states also designated a service area for each carrier.
Id. at § 214(e)(5).3 The service area was used to determine a carrier’s universal service obligations and support. Id.
Within each service area, a state could designate
one eligible carrier as the incumbent LEC. 47 C.F.R.
§ 51.5 (2005); see also 47 U.S.C. § 153(26) (1997) (defining LECs as companies “engaged in the provision of
telephone exchange service or exchange access,” but
not “engaged in the provision of commercial mobile service . . . except to the extent that the Commission finds
that such service should be included in the definition
of such term”). Other carriers designated as ETCs by
the state, but allowed to operate in an incumbent’s
3

The area in which a rural carrier operates is also referred
to as a “study area.” 47 U.S.C. § 214(e)(5). We use the two terms,
service area and study area, interchangeably when discussing
Blanca.

App. 7
service area, were considered competitive ETCs. Id. at
§ 54.5 (2005).
Congress did not intend for the USF to act as an
unrestricted fund for eligible carriers to be distributed
for any conceivable expense incurred while providing
telecommunications services. Rather, “[a] carrier that
receives such support shall use that support only for
the provision, maintenance, and upgrading of facilities
and services for which the support is intended.” 47
U.S.C. § 254(e) (2002). For instance, “[a] telecommunications carrier may not use services that are not
competitive to subsidize services that are subject
to competition.” Id. at § 254(k); see also 47 C.F.R.
§ 64.901(c) (2002) (reiterating the same prohibition on
cross-subsidization specifically for incumbent LECs).
To ensure USF support was only used for its intended
purposes, the FCC implemented accounting rules for
the various types of eligible carriers. 47 U.S.C. § 254(k)
(2002) (“The Commission . . . and the States . . . shall
establish any necessary cost allocation rules, accounting safeguards, and guidelines to ensure that services
included in the definition of universal service bear no
more than a reasonable share of the joint and common
costs of facilities used to provide those services.”).
The FCC implemented one set of accounting rules
for incumbent LECs. Under these rules, incumbent
carriers had to differentiate between expenses related
to regulated and unregulated activities in their accounting. See 47 C.F.R. § 32.14 (2002). Regulated accounts would include expenses incurred for providing
services to which a tariff filing requirement applied. Id.

App. 8
at § 32.14(a). And nonregulated accounts were for
“[p]reemptively deregulated activities and activities
. . . never subject to regulation.” Id. at § 32.23(a)
(1999). When an expense involved both regulated and
nonregulated activities, the carrier still had to allocate
the costs attributable to each for accounting purposes.
Id. at § 32.23(c); see also id. at § 64.901(a) (describing
method for separating regulated from nonregulated
costs). The incumbent carrier’s expenses were then reported to NECA, detailing what services it provided.
Id. at § 36.611 (2001); id. at § 69.601(c) (1995) (requiring all incumbent carriers to certify the accuracy of
their reports to NECA); see also In re Jurisdictional
Separations and Referral to the Federal-State Joint
Bd., 16 FCC Rcd. 11382, 11384–85 (2001) (describing
the accounting process for incumbent carriers). From
the outset, the FCC made clear that these “cost allocation rules are designed to prevent cross-subsidization
of non-regulated activities.” In the Matter of Implementation of the Telecomms. Act of 1996: Accounting Safeguards Under the Telecomms. Act of 1996, 11 FCC Rcd.
17539, 17565 (1996).
By contrast, competitive ETCs were governed by
different accounting rules. 47 C.F.R. § 54.307(b) (2005).
These carriers could receive identical support to the local incumbent for services provided in an incumbent
carrier’s service area. And this included funding for
both fixed and cellular services. Id. at § 54.307(a); see
also In re Federal-State Joint Bd. on Universal Serv.,
16 FCC Rcd. 11244, 11314 (2001) (clarifying that competitive eligible telecommunications carriers providing

App. 9
mobile services could use a subscriber’s billing address
for purposes of determining USF support); In the Matter of High-Cost Universal Serv. Support, 23 FCC Rcd.
8834, 8843–44 (2008) (explaining that the FCC never
intended identical support to be used to subsidize wireless services, although that was how most competitive
carriers used it). To receive USF support, competitive
carriers needed to report to USAC the number of customers they served in an incumbent LEC’s service
area. 47 C.F.R. § 54.307(b) (2005). They did not need to
allocate costs between regulated and nonregulated activities.
As of 2005, cellular services were considered nonregulated for accounting purposes. See In the Matter of
Amendment of the Comm’n Rule to Establish Competitive Serv. Safeguards for Local Exchange Carrier Provision of Com. Mobile Radio Servs., 12 FCC Rcd. 15668,
15691 (1997) (“The cost allocation rules, included in
parts 32 and 64 of the Commission’s rules, provide a
basic framework for separating costs between LEC’s
regulated activities (such as provision of local exchange service) and nonregulated activities (such as
provision of wireless service).”); see id. at 15691 n.102
(“The Commission has chosen to forbear from rate regulation of wireless services.”).4 As a result, incumbent
4

Blanca insists cellular services were regulated because
they were subject to mandatory tariff requirements under Colorado law. The Colorado law Blanca cites to, 4 CCR 723-2-2122,
does not transform cellular services into a regulated service for
federal accounting purposes. To be sure, the federal regulations
say state tariff requirements can cause an account to be treated
as regulated. 47 C.F.R. § 32.14(b) (2002). But such accounts will

App. 10
LECs had to treat expenses associated with cellular
services as nonregulated for accounting purposes.5
Incumbent LECs could receive USF support for
one category of cellular services: basic exchange telecommunications radio services (BETRS). BETRS was
a type of mobile radio service intended as a gap-filler
for areas with particularly rough terrains. See 12 FCC
Rcd. at 15710–11 (“We also believe that rural LECs
may find it economical to use [commercial mobile radio
services] licenses to provide fixed wireless services in
remote areas as an alternative means of extending the
local exchange network to unserved or hard to serve
areas.”). Rather than having a wired connection, the
company would use BETRS to provide a customer with
basic telephone service. The FCC’s order made clear
not be treated as regulated “where such treatment is proscribed
or otherwise excluded from the requirements pertaining to regulated telecommunications products and services by this Commission.” Id. Federal law explicitly preempts state rate-regulation of
cellular services. See 47 U.S.C. § 332(c) (1996). And, as the cited
orders make clear, the FCC intended cellular services to be
treated as nonregulated. 12 FCC Rcd. at 15691.
5
The prohibition on USF support for cellular services for incumbent LECs was more explicit for a subset of these carriers.
Some incumbent LECs had to establish subsidiaries to handle
their commercial mobile radio services. 12 FCC Rcd. at 15672.
This subsidiary requirements was intended to further protect
against cross-subsidization. Id. at 15689 (“Improper cost allocation occurs when a LEC subsidiary shifts costs from its [commercial mobile radio services] to its regulated local exchange
service.”). Blanca, as a rural carrier, was exempt from the subsidiary requirement. Id. at n.11. But Blanca was not exempt from
the reporting requirements intended to prevent against such
cross-subsidization.

App. 11
that BETRS was considered a fixed service and distinct from other cellular services. See In the Matter of
Amendment of the Comm’n Rules to Permit Flexible
Serv. Offerings in the Commercial Mobile Radio Servs.,
11 FCC Rcd. 8965, 8987 (1996) (“[W]e have determined
that BETRS is a fixed service, rather than mobile service, and therefore BETRS providers are not subject
to [commercial mobile radio services] regulations under Section 332.”). As a result, costs associated with
BETRS were considered regulated for accounting purposes.
2. Blanca’s Conduct
Blanca is a telecommunications provider based in
Alamosa, Colorado. It was originally incorporated in
1926. In 1997, Colorado designated Blanca as an incumbent LEC for parts of Alamosa and Costilla counties. Neither the FCC nor the state ever designated
Blanca as a competitive ETC. And Blanca never submitted any of the reports required of a competitive
ETC to claim identical support from the USF.
Starting in 2005, Blanca claimed USF support for
all of its services, both fixed and cellular. And Blanca
claimed USF support for expenses incurred both
within and outside its study area.6

6

There is some inconsistency regarding whether Blanca’s
services were BETRS. In its petition for reconsideration to the
FCC, Blanca insisted that the FCC previously “authorized
Blanca’s BETRS service using cellular technology by rule.” R.,
Vol. II at 334–35 (citing In the Matter of Revision of Part 22 of the

App. 12
Blanca submitted its costs studies from 2005 onward to NECA. In 2012, NECA conducted a review of
Blanca’s 2011 cost study. And in 2013, NECA concluded that Blanca had impermissibly received USF
support for costs incurred while providing nonregulated
services, i.e., cellular service. NECA advised Blanca to
revise the 2011 cost study and any subsequent studies
in which Blanca had failed to allocate its costs. Blanca
then hired a cost consultant to review and revise
Blanca’s submissions from 2011 and 2012. Blanca
eventually reached a settlement with NECA in 2013
based on overpayments identified in the revised cost
studies.7

Commission’s Rules Governing the Mobile Servs., Report and Order, 9 FCC Rcd. 6513, 6571 (1994)). But in its initial petition for
agency review, Blanca claimed that it updated its previous BETRS system to new cellular technology and only continued using
the term BETRS out of convenience. See R., Vol. I at 26 (explaining that, for its accounting, “Blanca continued use of the BETRS
name merely for continuity purposes.”). It also argued that “the
BETRS discussion is a red herring” because “USF funding is
available for mobile cellular services.” Id.
Blanca misunderstands the FCC’s position on BETRS. The
FCC maintains it never authorized Blanca to treat all its cellular
services as BETRS. It explains that Blanca improperly relied on
an order that “only adopted a proposal to eliminate a prohibition
on the offering of non-BETRS fixed service in cellular bands.” R.,
Vol. II at 405. Leading up to 2005, the FCC’s position was that
BETRS was strictly a fixed service. See 11 FCC Rcd. at 8987.
7
This settlement only covered a 24-month period from 2011
to 2012. By contract with its members, NECA is only authorized
to conduct “true-up” processes for up to a 24-month window.

App. 13
3. The FCC’s Investigation into Blanca
The FCC first began investigating Blanca’s accounting practices in 2008. The following year, the
FCC’s Office of Inspector General issued subpoenas to
Blanca for reports, filings, and correspondence that
Blanca filed with NECA and USAC regarding USF
support. After Blanca’s settlement with NECA, the
FCC eventually concluded Blanca had improperly reported and received overpayments from the USF from
2005 to 2010.8 In particular, Blanca claimed and received USF support for nonregulated services both
within and outside of Blanca’s study area. The FCC relied on the same methodology employed by Blanca’s
cost consultant in the NECA settlement to identify the
amount of the overpayments.
In 2016,9 the FCC’s Office of Managing Director
issued a demand letter to Blanca, identifying the overpayments and requesting repayment. In particular, it
faulted Blanca for “charateriz[ing] its cellular stations
as Basic Exchange Telephone Relay Service (BETRS)
facilities in its [cost studies]” and, by including cellular
8

At one point, the FCC turned the case over to the Department of Justice to consider a possible claim under the False
Claims Act. The Department never acted on this referral.
9
While we affirm the FCC’s decision, the agency has been
far from exemplary throughout its investigation of and proceedings involving Blanca. For instance, the agency’s commissioners
acknowledged this action came far later than it should have. Commissioner O’Reilly said of the action against Blanca, “I am concerned . . . that the troubling conduct at issue here occurred
between 2005 and 2010, was not discovered until 2012, and is only
now being remedied. We must do better.” R., Vol. II at 317.

App. 14
service costs in its reports, “fail[ing] to comply with
Parts 64, 36 and 69 of the FCC’s rules.” R., Vol. I at 2.
These accounting practices “resulted in inflated disbursements to Blanca from [the USF].” Id. Reviewing
books and records obtained through the earlier subpoenas, the FCC determined Blanca owed $6,748,280 from
USF overpayments. The letter also indicated that
Blanca could challenge the finding by submitting evidence to the FCC within 14 days of receiving the letter.
B. Procedural Background
Blanca petitioned the FCC for review of the Managing Director’s demand letter. It challenged the letter’s findings on multiple grounds. Most significantly,
Blanca argued the FCC’s demand letter did not afford
it the due process required under law. In 2017, the FCC
issued an order in response to Blanca’s petition, rejecting Blanca’s claims and affirming the demand letter.
Following this order, the FCC initiated collection of the
debt from Blanca through administrative offsets, withholding USF support to which Blanca was otherwise
entitled.
At the end of 2017, Blanca petitioned the FCC
again, this time for a reconsideration of the agency’s
order.10 In January of 2020, Blanca brought a petition
10

The current petition is not the first time Blanca has sought
review from a federal court on this issue. In 2016, Blanca went to
the D.C. Circuit, seeking a Writ of Prohibition. The D.C. Circuit
denied Blanca’s petition and did not retain jurisdiction. Blanca
then sought a mandamus order and injunction from this court in
2017 to stop the FCC’s debt collection through administrative

App. 15
for review of the FCC’s order to this court.11 In March
of 2020, the FCC affirmed the demand letter and order.
Blanca then filed a new petition for review and a motion to supplement the record based on the FCC’s final
order.12

offset. Both the mandamus order and injunction were denied. In
2018, Blanca then petitioned this court for review of the FCC’s
first order. A panel of this court dismissed the petition on jurisdictional grounds, concluding that because the FCC was still considering Blanca’s petition on reconsideration, there was no final
agency action to review. Later in 2018, the FCC petitioned this
court for review again and the petition was again dismissed on
jurisdictional grounds.
11
We had asked Blanca and the FCC to brief the jurisdictional issues for Blanca’s January 2020 petition, 20-9510. The
parties completed briefing prior to the FCC’s final order. Most of
the issues raised in 20-9510 were mooted by the FCC’s final order
on reconsideration. See N.M. Health Connections v. U.S. Health
and Human Servs., 946 F.3d 1138, 1158 (10th Cir. 2019) (explaining that when an agency eliminates the issues on which petition
for review is based, those issues are rendered moot). In particular,
Blanca had sought to compel the FCC to act (issue the final order)
and sought review of whether the FCC acted within its statutory
authority in its collection efforts. With the FCC’s final order and
Blanca’s new petition, 20-9524, we now have a final agency action
and a full record to evaluate.
12
We deny Blanca’s motion to supplement the record. We
presume the agency’s record is complete absent clear evidence to
the contrary. See Citizens for Alts. to Radioactive Dumping v. U.S.
Dep’t of Energy, 485 F.3d 1091, 1097 (10th Cir. 2007). We will allow extra-record evidence that the agency did not consider during
proceedings in very limited circumstances, including where a
party’s standing is at issue. U.S. Magnesium, LLC v. EPA, 690
F.3d 1157, 1165 (10th Cir. 2012). The FCC has conceded Blanca’s
standing, so it is unnecessary to consider Blanca’s extra-record
evidence.

App. 16
II.

Standard of Review

In evaluating the FCC’s actions, we must bear in
mind two different standards of review.
A. Arbitrary and Capricious Standard
In acting, the FCC must comply with the Administrative Procedure Act (APA). And the APA authorizes
courts to review agency action. 5 U.S.C. § 704.
In particular, the APA directs courts to “set aside
agency actions, findings and conclusions found to be
arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with the law.” Id. at § 706(2)(A).
Arbitrary and capricious review by this court is narrow. In re FCC 11-161, 753 F.3d 1015, 1041 (10th Cir.
2014) (citing Motor Vehicle Mfrs. Ass’n of the U.S.,
Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43
(1983)). We will not set aside the agency’s action if it
“is rational, based on consideration of the relevant factors and within the scope of the authority delegated to
the agency by the statute.” In re FCC 11-161, 753 F.3d
at 1041(internal quotation marks omitted). We must
uphold the agency’s decision as long as the agency’s
path may “reasonably be discerned.” Id. (internal quotation marks omitted).
B. De Novo Standard
Blanca also contends the FCC violated its due process rights.

App. 17
The APA requires us to “set aside agency actions,
findings, and conclusions found to be . . . contrary to
constitutional right.” 5 U.S.C. § 706(2)(B). We review de
novo any constitutional issues. In re FCC 11-161, 753
F.3d at 1041.
III.

Analysis

Blanca suggests that we can reverse the FCC on
any one of three grounds: (1) the agency did not act
within the relevant statutes of limitations, (2) it violated Blanca’s procedural rights established by statute
and the Constitution, and (3) its orders were arbitrary
and capricious. We address each issue in turn.
A. Did the FCC act within the applicable
statute of limitations?
Blanca insists the FCC’s action is time-barred. It
points to two statutes that would preclude the FCC’s
action: 47 U.S.C. § 503 and 28 U.S.C. § 2462. According
to Blanca, one of these statutes governs the FCC’s action here and either statute would prevent the FCC
from taking punitive actions against Blanca over a decade after the alleged violations occurred.
We do not agree. Rather, because the FCC’s action
is most properly characterized as debt collection, not
punishment, the FCC had to comply with all requirements of the Debt Collection Improvement Act (DCIA),
codified at 31 U.S.C. §§ 3711–17. The DCIA authorizes
agencies to collect debts owed to the United States and

App. 18
contains no limitations period preventing the FCC’s
debt collection.
1. Legal Standard
Our default rule is that the government claim will
not be time-barred. United States v. Telluride Co., 146
F.3d 1241, 1244 (10th Cir. 1998). Congress must expressly set a statute of limitations to overcome this default rule. Id. When a party argues a government claim
is barred by a statute of limitations, we must construe
the statute in favor of the government. Id. at 1245.
The FCC and Blanca disagree about what statute
should govern the agency’s action. The FCC suggests
its interpretation of the relevant statutes, and the applicability of those statutes to its decision, should control based on the deference owed to agencies under
Chevron, U.S.A. v. Natural Resources Defense Council,
467 U.S. 837 (1984).
To determine whether an agency’s interpretation
of a statute is entitled to deference, we first determine
whether the statute is ambiguous. Chevron, 467 U.S. at
842. If the statute is clear, we do not defer to the
agency’s interpretation. Id. at 842–43; see also New
Mexico v. U.S. Dep’t of Interior, 854 F.3d 1207, 1231
(10th Cir. 2017) (finding a statute clear, so declining to
move to step two of the Chevron analysis). But if it is
ambiguous or silent about the relevant issue, we defer
to the agency’s interpretation unless it is arbitrary, capricious, or manifestly opposed to the plain meaning of

App. 19
the statute. In re FCC 11-161, 753 F.3d at 1041 (citing
Chevron, 467 U.S. at 844).
We also do not give any Chevron deference to an
agency’s interpretation of statutes that are outside of
the agency’s expertise. Hydro Res., Inc. v. EPA, 608 F.3d
1131, 1145 (10th Cir. 2010) (“Courts do not . . . afford
the same deference to an agency’s interpretation of a
statute lying outside the compass of its particular expertise and special charge to administer.”). We review
such statutes de novo. Id.
2. Application
Here, Blanca and the FCC each point to different
statutes that they argue should apply here. Blanca insists the FCC must have acted under either 47 U.S.C.
§ 503 or 28 U.S.C. § 2462 in issuing the demand letter
and initiating debt collection. The statutes require certain types of government actions to be brought either
within one year, see 47 U.S.C. § 503(b)(6), or five years,
see 28 U.S.C. § 2462, respectively—both of which would
bar the FCC’s actions toward Blanca. The FCC, though,
says that its actions are authorized by the DCIA. And
the DCIA contains no statute of limitations for administrative offsets. 31 U.S.C. § 3716(e)(1) (“Notwithstanding any other provision of law, regulation, or
administrative limitation, no limitation on the period
within which an offset may be initiated or taken pursuant to this section shall be effective.”).
In its orders, the FCC interpreted each statute as
it relates to recovering overpayments from Blanca. The

App. 20
FCC argued it was not acting under 47 U.S.C. § 503.
Rather, according to the orders, “[t]he commission or
USAC has consistently sought recovery of USF funds
outside of section 503 proceedings.” R., Vol. II at 310.
This is because “[n]either the plain language of section
503 of the Act nor its legislative history indicates that
Congress intended that section to govern debt determinations.” Id. The FCC also insists the collection is not
pursuant to 28 U.S.C. § 2462, which governs penalties,
not debt collection.
We do not afford the FCC any deference in interpreting the DCIA or 28 U.S.C. § 2462, because neither
statute was specifically entrusted to the FCC to administer. Hydro Res., Inc., 608 F.3d at 1146. Also, because
47 U.S.C. § 503 is not ambiguous about the type of
agency action it covers, we do not afford the FCC’s interpretation of it any deference. New Mexico v. U.S.
Dep’t of Interior, 854 F.3d at 1231. We review the statutes de novo.
Both 47 U.S.C. § 503 and 28 U.S.C. § 2462 authorize agencies to impose penalties against regulated entities that violate the law. Section 503 states that a
person who willfully and repeatedly fails to comply
with the FCC’s rules or regulations “shall be liable to
the United States for a forfeiture penalty.” 47 U.S.C.
§ 503(b). Section 503 further clarifies that “[a] forfeiture penalty under this subsection shall be in addition
to any other penalty provided for by this chapter.” Id.
(emphasis added). Section 503 is used to penalize
above and beyond other remedies.

App. 21
Section 2462 is not specific to any agency. It authorizes suits or proceedings by the United States to
enforce civil fines, penalties, or forfeitures. 28 U.S.C.
§ 2462. The Supreme Court has made clear that § 2462
governs only actions that penalize. Fines, penalties,
and forfeitures each “refer to something imposed in a
punitive way for an infraction of public law.” Kokesh v.
SEC, 137 S. Ct. 1635, 1643 (2017) (internal quotation
marks omitted).
The DCIA, by contrast, is aimed at pure debt collection. It authorizes agencies to collect “a claim of the
United States government for money or property arising out of the activities of, or referred to, the agency.”
See 31 U.S.C. § 3711(a)(1). A claim is “any amount of
funds or property that has been determined by an appropriate official of the Federal Government to be
owed to the United States.” Id. at § 3701(b)(1). This
includes overpayments, specifically “payments disallowed by audits performed by the Inspector General
of the agency administering the program.” Id. at
§ 3701(b)(1)(C). If the head of an agency attempts to
collect a claim through the methods described in
§ 3711 to no avail, the agency may collect the debt
through administrative offset. Id. at § 3716(a).
These statutes are not ambiguous. Sections 503
and 2462 apply to punitive agency action; the DCIA
applies to debt collection of funds owed to the United
States. In that light, we must answer two questions to
determine which statute governs the FCC’s collection
efforts and which statute of limitations applies. First,
do the FCC’s actions constitute a penalty? Second, if

App. 22
the action is not a penalty, are the overpayments from
the USF “owed to the United States”?
a. Penalty or Debt Collection
The Supreme Court recently provided a framework for determining whether an agency action constitutes a penalty in Kokesh. See 137 S. Ct. 1635. The SEC
had sought a disgorgement judgment against Kokesh
for violations of federal law that occurred over an almost fifteen-year period. The district court ordered disgorgement of money illegally obtained during this
time. On appeal, Kokesh argued the disgorgement operated as a penalty, so it should have been barred in
part by the five-year statute of limitations in 28 U.S.C.
§ 2462. To decide whether the statute of limitations applied, the Court had to determine whether an SEC disgorgement was a penalty within the purview of § 2462.
To determine whether the SEC’s disgorgement
was punitive, the Court considered two guiding principles: (1) whether the agency’s action is redressing a
wrong to the public or to a private party and (2)
whether the agency’s action is taken for punitive purposes, e.g., to deter others from committing a similar
violation. Id. at 1642. The Court concluded the disgorgement was a penalty. The disgorgement was enforced against Kokesh for a violation of public laws,
intended to deter future violators, and not strictly compensatory. Id. at 1643–44. Because the disgorgement
carried the hallmark traits of a penalty, the SEC’s

App. 23
disgorgement was partially barred by the five-year
statute of limitations in § 2462.
Blanca argues the FCC’s action here is like the
disgorgement in Kokesh. It asserts the collection effort
is punitive because the violation was of a public accounting law and the FCC’s ultimate purpose is deterrence. Blanca points to the demand letter and
subsequent orders as proof of the action’s true nature.
The FCC identifies a goal of rooting out “fraud, waste,
and abuse” throughout its orders. Opening Br. at 48.
And the FCC identified the harms Blanca’s actions
caused the public and the marketplace.13 The FCC also
described the collection effort as “enforcement activity”
in a later order. Reply Br. at 15 (citing Memorandum
and Opinion Order, 34 FCC Rcd. 2590, 2600 (2019)).
In response, the FCC contends that it is not punishing Blanca. Rather, the debt collection is intended
to do nothing more than return Blanca to “the status
quo.” Resp. Br. at 47. The FCC insists the mere “belief
the sanction is costly or painful does not make it punitive.” Id. (quoting Telluride, 146 F.3d at 1247).
We agree with the FCC that Kokesh does not compel us to conclude the reimbursements are a penalty.
First, we have previously concluded that just because a party violated a public law and because an
13

Blanca also argues that the FCC’s referral of the matter to
the Department of Justice in 2014 makes the action punitive. We
do not agree. Simply because the FCC referred the matter to the
Department to explore the possibility of an enforcement action
does not make the debt collection punitive.

App. 24
agency wants to protect the public through a subsequent action does not necessarily make that action a
penalty. See Telluride, 146 F.3d at 1246 (“[W]e see no
reason to include all wrongs to the public as penalties.”). The Supreme Court’s decision in Kokesh did not
change that. The identity of the wronged party is just
one guiding principle when deciding whether government action is punitive. The fact that Blanca’s accounting violations wronged the public as opposed to a
discrete private party does not decide the issue for us.
Looking to the second principle—the purposes underlying the FCC’s actions—convinces us the collection
efforts are not a penalty. The FCC’s purpose was compensation for the overpayment. Kokesh, 137 S. Ct. at
1642 (“[A] pecuniary sanction operates as a penalty
only if it is sought for the purpose of punishment . . .
as opposed to compensating a victim for his loss.”) (internal quotation marks omitted). In the orders, the
FCC sought only repayment of the amount overpaid
out of the USF to Blanca.14 The fact that it also identified how its action might protect the public or marketplace from harm does not transform the underlying
nature of the action. See Bennett v. Ky. Dep’t of Educ.,
470 U.S. 656, 662–63 (1985) (“Although recovery of
14

Blanca has drawn our attention to the fact that the FCC
has increased the amount owed since litigation began, adding
$3.5 million to the original $6.75 million debt. Blanca says this
amount is made up of “explicit penalties.” Opening Br. at 49. We
do not think late fees or the inclusion of interest transforms the
FCC’s action into a penalty. The fact that the government assesses a late fee does not alter the underlying purpose of the
FCC’s action. It is simply a recognition of the time-value of money.

App. 25
misused . . . funds clearly is intended to promote compliance with the requirements of the grant program, a
demand for repayment is more in the nature of an effort to collect upon a debt than a penal sanction.”).
Blanca’s arguments about the FCC’s self-description
of the collection efforts as “enforcement activity” and
as aimed at rooting out “waste, fraud, and abuse” are
unavailing. A single, passing reference to the collection
as an “enforcement activity” does not transform it into
a penalty. And while the FCC used the phrase “waste,
fraud, or abuse” at times to describe its justification for
undertaking audits and investigations, it also stressed
that the present action was solely to recover USF support improperly disbursed, not to punish for waste,
fraud, or abuse. See, e.g., R., Vol. II at 311 (“Here the
Commission is merely seeking to recover sums improperly paid.”).
b. Funds Owed to the United States
Even if the collection effort is not a penalty, we
must ensure the FCC is collecting “funds . . . owed to
the United States.” 31 U.S.C. § 3701(b)(1).
The FCC has interpreted the DCIA to cover overpayments from the USF. See 47 C.F.R. § 1.1901(b). But
the FCC has no particular experience in interpreting
the DCIA, so we do not defer to the FCC’s interpretation. Rather, we review de novo whether overpayments
from the USF fall within the DCIA.

App. 26
Blanca contends USF overpayments are not funds
owed to the United States. According to Blanca, the
DCIA does not apply here because the USF is funded
by contributions from carriers. So, any overpayments
out of the fund would be owed directly to the USF, not
to the United States.
Blanca points to an out-of-circuit case to bolster its
argument. See United States ex rel. Shupe v. Cisco Sys.,
759 F.3d 379 (5th Cir. 2014). In Shupe, the Fifth Circuit
had to determine whether a party had violated a previous version of the False Claims Act, 31 U.S.C. § 3729
(2008), by lying on applications for USF support. A
person violated the False Claims Act if he “knowingly
ma[de], use[d], or cause[d] to be made or use[d], a false
record or statement to get a false or fraudulent claim
paid or approved by the government.” 31 U.S.C.
§ 3729(a)(2) (2008). And it defined “claim” as “any request . . . for money . . . if the United States Government provides any portion of the money.” Id. at
§ 3729(b) (2008).
In Shupe, the Fifth Circuit determined the United
States government did not provide any portion of the
money for the USF, so the defendant could not be prosecuted under the False Claims Act. In coming to this
conclusion, the court emphasized the control USAC exercises over the USF and the fact that the statute did
not extend to funds overseen by such private parties.
759 F.3d at 387–88. The FCC’s regulatory supervision
of the USF was insufficient to consider payments made
from it as “provided by the United States.” Id. at 388.

App. 27
Shupe does not dictate our decision here. We face
a different statutory scheme with different language.
While the False Claims Act limited a claim to money
that the United States provides any portion of, the
DCIA defines claim more expansively. It expressly includes overpayments “disallowed by audits performed
by the Inspector General of the agency administering
the program.” 31 U.S.C. § 3701(b)(1)(c). The overpayments at issue fall within that description.
Blanca asserts the DCIA does not apply because
the FCC’s Inspector General did not produce a formal
audit or adverse finding. It faults the FCC for issuing
the demand letter through the Managing Director rather than the Inspector General. But in both the demand letter and orders, the FCC claimed to be acting
on an audit by the Office of Inspector General. See R.,
Vol. I at 1–2 (“Our determination follows an investigation by the FCC’s Office of Inspector General.”); see also
R., Vol. II at 299 (“Based on its investigation and review of documentation provided by Blanca, [the Office
of Inspector General] concluded that Blanca had misallocated costs between its CMRS and wireline services.”). Here, the FCC’s Office of Inspector General
conducted an investigation and concluded Blanca had
misallocated costs. This is enough to bring the overpayments within the scope of the DCIA.
***
The FCC’s action is not barred by a statute of limitations. While Blanca argues the FCC was statutorily
barred from collecting the overpayments, the statutes

App. 28
on which it relies do not apply. Rather, the overpayments are covered by the DCIA, which has no statute
of limitations for administrative offsets.
B. Did the FCC violate Blanca’s due process rights?
Blanca also claims the FCC did not comply with
statutory and constitutional procedural requirements
in initiating the debt collection. Specifically, Blanca argues the FCC engaged in a summary adjudication that
gave Blanca insufficient notice and no meaningful opportunity to respond. In addition, Blanca insists that
the laws, regulations, and orders in place as of 2005
failed to give it fair notice that its conduct was prohibited.
Blanca fails to establish a due process violation.
Although the underlying regime governing USF distributions is complex, Blanca had adequate notice that it
could not receive USF funding for providing cellular
services. Furthermore, in identifying the rules violated
and starting the debt collection process, the FCC provided all the process required by statutes and the Constitution.
1. Legal Standard
a. Statutory Process
The APA “expressly provides for two categories of
administrative hearing and decision: rulemaking and
adjudication.” Phillips Petroleum Co. v. Federal Power

App. 29
Comm’n, 475 F.2d 842, 851 (10th Cir. 1973). And it
identifies procedures agencies must provide for each
type of action.
Here, the FCC acted through an informal adjudication. It has very broad discretion to decide whether
to proceed through adjudication or rulemaking when
“interpreting and administering its statutory obligations under the [Telecommunications Act].” Conf. Grp.,
LLC v. FCC, 720 F.3d 957, 965 (D.C. Cir. 2013). It is
appropriate for an agency to use informal adjudications in making individualized determinations. See
Sinclair Wyo. Refining Co. v. EPA, 887 F.3d 986, 992
(10th Cir. 2017); see also Nat’l Biodiesel Bd. v. EPA, 843
F.3d 1010, 1017–18 (D.C. Cir. 2017) (stating that adjudications characteristically are “highly fact-specific,
case-by-case” proceedings).
Procedurally, the APA imposes “minimal requirements” on informal adjudications. Pension Benefit
Guar. Corp. v. LTV Corp., 496 U.S. 633, 655 (1990). The
agency must only notify a party that it is denying a
petition and provide the grounds for denial. 5 U.S.C.
§ 555(e); see also Kobach v. U.S. Election Assistance
Comm’n, 772 F.3d. 1183, 1197 (10th Cir. 2014) (“When
an agency undertakes an informal adjudication, we require only that the grounds upon which the agency
acted be clearly disclosed in, and sustained by, the record.”) (internal quotation marks omitted and alterations incorporated).

App. 30
Beyond the APA, the DCIA also has its own procedural requirements.15 In order to use administrative
offsets to recover debt, the agency must give the
debtor: (1) written notice of the type and amount of the
claim, the intention to collect the claim by administrative offset, and an explanation of the debtor’s rights; (2)
an opportunity to inspect and copy the agency’s records
regarding the claim; (3) an opportunity for review by
the agency of the claim decision; and (4) an opportunity
to make a written agreement with the agency head to
repay the claim. 31 U.S.C. § 3716(a). If an agency “previously has given a debtor any of the required notice
and review opportunities with respect to a particular
debt, the agency need not duplicate such notice and

15

Blanca also insists that the FCC failed to comply with the
procedural requirements of 47 U.S.C. § 503(b)(4). Section 503 requires the FCC to provide notice of apparent liability prior to imposing a forfeiture penalty. This requirement is inapplicable here.
As previously discussed, see supra, III.A, we believe Blanca’s actions are governed by the DCIA, not § 503.
This also resolves another of Blanca’s arguments: that the
FCC treated it differently than similarly-situated telecommunications carriers, who received notices of apparent liability prior to
FCC proceedings. Blanca is comparing apples and oranges. The
other carriers were treated differently because they were subject
to forfeiture proceedings under 47 U.S.C. § 503. The FCC has
made clear that in the proceedings Blanca references, the FCC
“invoked the forfeiture process only to seek penalties in addition
to, and separate from, seeking repayment (and indeed after the
companies at issue had already returned the improper payments).” Resp. Br. at 39. The differential treatment was appropriate.

App. 31
review opportunities before administrative offset may
be initiated.” 31 C.F.R. § 901.3(b)(4)(iv).16
b. Constitutional Due Process
The Fifth Amendment also requires the federal
government to provide a baseline level of due process
when depriving a person of life, liberty, or property. U.S.
Const. amend V. Procedural due process requires fair
notice that conduct is prohibited and, prior to a deprivation, meaningful notice and opportunity to be heard.
We discuss the contours of each aspect of due process
below.
First, due process requires the government to
“give a person of ordinary intelligence fair notice that
his contemplated conduct is forbidden” before withdrawing a benefit. United States v. Richter, 796 F.3d
1173, 1188 (10th Cir. 2015) (internal quotation marks
omitted). “A fundamental principle in our legal system
16

We note that Blanca made brief reference to another alleged procedural deficiency through a one-line footnote in its
opening brief. Specifically, Blanca insists the FCC violated its
own rules by beginning debt collection prior to the end of litigation. See Opening Br. at 34 (citing 47 C.F.R. § 1.1910(b)(3)(i)). But
Blanca does not explain why, on its theory, § 1.1910(b)(3)(I)
should even apply in this case. This regulation applies only to
debt collection made under the DCIA. And Blanca has specifically
maintained throughout litigation that the FCC did not act pursuant to the DCIA. Blanca has not argued before us, even in the
alternative, that the DCIA applies here. Therefore, we conclude
that Blanca has waived this argument. See Fuerschbach v. Sw.
Airlines Co., 439 F.3d 1197, 1209–10 (10th Cir. 2006) (inadequately briefed and underdeveloped theories are waived).

App. 32
is that laws which regulate persons or entities must
give fair notice of conduct that is forbidden or required.” FCC v. Fox Television Stations, Inc., 567 U.S.
239, 253 (2012). Due process requires fair notice for
two reasons. First, regulated parties need to know
what is required of them so they may act accordingly.
Id. Second, it prevents officers or agencies who enforce
the law from acting in an arbitrary or discriminatory
manner. Id.
Fair notice concerns will arise “when an agency
advances a novel interpretation of its own regulation
in the course of a civil enforcement action.” United
States v. Magnesium Corp. of America, 616 F.3d 1129,
1144 (10th Cir. 2010). It would be inappropriate for an
agency, having long acquiesced in practice to one interpretation, to manufacture liability by retroactively
applying a new interpretation. See Christopher v.
SmithKline Beecham Corp., 567 U.S. 142, 156 (2012)
(“To defer to the agency’s interpretation in this circumstance would seriously undermine the principle that
agencies should provide regulated parties fair warning
of the conduct a regulation prohibits or requires.”) (internal quotation marks and brackets omitted).
That being said, fair notice does not require an
agency to publish an easily digestible, abridged version
of its rules. Technical and complex regulations are often necessary to govern the conduct of parties involved
in complex affairs. Thus, the requirements of due process are understood through the lens of parties with
special knowledge because we refer to “the common
understanding of that group” to measure whether the

App. 33
party had fair notice. Richter, 796 F.3d at 1189. When
regulations are addressed to such groups, “the standard is lowered and a court may uphold a statute
which uses words or phrases having a technical or
other special meaning, well enough known to enable
those within its reach to correctly apply them.” Id. No
one doubts the complexity of telecommunications regulations and the famously detailed rules that apply to
carriers operating in that environment.
Second, due process requires the government to
provide “notice and opportunity for hearing appropriate to the nature of the case” prior to deprivation.
Riggins v. Goodman, 572 F.3d 1101, 1108 (10th Cir.
2009) (internal quotation marks omitted). Notice and
the opportunity to be heard “must be granted at a
meaningful time and in a meaningful manner.”
Fuentes v. Shevin, 407 U.S. 67, 80 (1972). “If the right
to notice and a hearing is to serve its full purpose . . .
it must be granted at a time when the deprivation can
still be prevented.” Id. at 81. But this does not mean a
hearing must be held before the agency’s decision to
deprive. See Riggins, 572 F.3d at 1111 (“[D]ue process
is required not before the initial decision or recommendation to terminate is made, but instead before the termination actually occurs.”).
2. Application
a. Statutory Process
The FCC complied with the relevant procedural
requirements of both the APA and the DCIA.

App. 34
First, the FCC fulfilled the requirements for an informal adjudication by providing Blanca with notice of
its intention to collect the repayments and grounds for
that decision. The initial demand letter satisfied the
APA by identifying the FCC’s decision and the reasons
for that decision. The demand letter pointed to the relevant accounting regulations and described Blanca’s
conduct that had violated those regulations. The FCC’s
subsequent orders did the same.
The FCC also fulfilled the procedural requirements of the DCIA. In the demand letter, the FCC informed Blanca of the type and amount of the debt and
its intention to collect. It gave Blanca an opportunity
for review and to make an agreement with the agency’s
head on repaying the claim. While the FCC did not give
Blanca an opportunity to review the agency record in
the FCC’s possession, it informed Blanca it had relied
only on documents Blanca itself had submitted. Blanca
already had the entire record in its possession. Because these documents were in Blanca’s possession,
the FCC did not need to give Blanca an additional opportunity to review them.
b. Constitutional Due Process
Blanca also claims it did not have fair notice that
its conduct was prohibited. And it insists the demand
letter and subsequent orders did not provide the meaningful notice and opportunity to be heard that due process requires.

App. 35
According to Blanca, the rules, orders, and regulations in place as of 2005 did not make clear that cellular services were ineligible for USF support. Rather,
Blanca argues the demand letter and FCC orders were
the first time the FCC interpreted the regulations in
such a way to make Blanca’s conduct illicit. As far as
Blanca is concerned, the FCC’s 2016 demand letter
was a summary adjudication that in one fell swoop
told Blanca its accounting practices were unlawful
and that it was being punished for those practices.
If Blanca’s characterization was accurate, it would
squarely implicate fair notice concerns.
But Blanca misconstrues the state of the law in
2005. The FCC’s rules and orders were clear about limits on USF support for cellular services. As an incumbent LEC, Blanca had to allocate its costs between
regulated and nonregulated accounts. 47 C.F.R. § 32.14
(2002). Cellular services were considered nonregulated, see 12 FCC Rcd. at 15691, so Blanca had to separate these costs from its other expenses. The FCC had
previously explained that these accounting rules were
intended to prevent carriers from using USF support
to subsidize their nonregulated services. 11 FCC Rcd.
at 17565. Yet Blanca failed to properly allocate its regulated and nonregulated expenses.
Furthermore, Blanca could only receive USF support for services provided in its designated service
area. 47 U.S.C. § 214(e)(5) (2002). Competitive ETCs
could receive identical support from the USF for
providing services beyond a single study area. 47
C.F.R. § 54.307(a) (2005). But Blanca never separately

App. 36
made the reports required of a competitive ETC and
neither the FCC nor Colorado ever certified Blanca as
a competitive ETC. See R., Vol. II at 306.
The statutes, regulations, and orders at issue here
do not trigger fair notice concerns. It is undoubtedly
inappropriate for agencies to create liability by advancing novel interpretations during administrative
proceedings. See Magnesium Corp. of America, 616
F.3d at 1144. But, despite Blanca’s contentions, the
FCC did not engage in summary rule adjudication
here. The demand letter and orders did not interpret
any regulations for the first time. Rather, through the
demand letter and proceedings, the FCC indicated why
debt collection was appropriate under the relevant
rules. The FCC’s synthesis of the law to explain its decision to collect from Blanca does not require a separate adjudication or rulemaking.
The FCC’s rules are, admittedly, labyrinthine and
technical. But we attribute to Blanca the specialized
knowledge of a telecommunications carrier. Blanca
should have known cellular services were considered
nonregulated under the FCC’s orders. It should have
known that the accounting guidelines had been put
into place to prevent carriers from using support for
noncompetitive services to support competitive services. And it should have known that it never submitted the reports required of a competitive ETC to
receive identical support. Between the statutes governing the USF, the FCC’s regulations, and previous
FCC orders, Blanca had adequate notice that it could

App. 37
not receive USF support for expenses related to cellular service either within or outside its study area.
Blanca also argues that the demand letter and
subsequent FCC review did not provide meaningful
notice and opportunity to be heard. First, Blanca insists the demand letter provided inadequate notice. It
suggests the demand letter identified a regulatory
“framework” Blanca had violated without identifying
an actual rule violation. But the FCC did identify both
the legal and factual underpinnings of its action. It
identified three sections of accounting regulations
Blanca had violated and thoroughly described what
conduct it considered improper—claiming USF support for cellular services as an incumbent carrier.17
This notice was sufficient.
Blanca also argues the post-decision, pre-deprivation
review the FCC provided Blanca was deficient. According to Blanca, the FCC should have held a hearing before the demand letter was issued. But our cases are
clear: due process requires only a pre-deprivation hearing. See Riggins, 572 F.3d at 1110. And Blanca received
such a hearing from the FCC.

17

Admittedly, the three sections of accounting regulations
are extensive and the FCC could have identified particular provisions of the accounting rules Blanca violated. But due process imposes a floor, not a ceiling. The notice provided in the demand
letter was adequate, if not exemplary. This is aside from the fact
that Blanca had recently reached a settlement with NECA over
similar issues. The demand letter identified the precise issues
dealt with in the settlement. The FCC provided Blanca adequate
notice of the violations.

App. 38
Blanca also points to the FCC’s subsequent initiation of administrative offsets as evidence that the postdecision review was constitutionally inadequate.18 But
by seeking to forestall any deprivation until the end of
litigation, Blanca asks more than the Constitution requires. The administrative offsets began after the FCC
provided Blanca with a hearing and considered all its
objections. Such agency action satisfies due process.
***
The FCC did not deprive Blanca of either the statutory or constitutional process it was entitled to. The
agency followed the procedures required for informal
adjudications under the APA and for initiating administrative offsets under the DCIA. The law as of 2005
apprised Blanca that its conduct was prohibited. And
the FCC’s demand letter and subsequent procedure afforded Blanca notice and a meaningful opportunity to
be heard.
C. Did the FCC act arbitrarily and capriciously?
Finally, Blanca argues the FCC’s decision to collect
debt was arbitrary and capricious. It insists the FCC’s
18

The FCC did begin collections prior to the end of litigation.
Blanca claims this was contrary to the FCC’s own regulations.
But even if the FCC’s initiation of debt collection action was contrary to the FCC’s own regulations, an issue we take no position
on, this does not make the FCC’s collection practices constitutionally suspect. See United States v. Caceres, 440 U.S. 741, 749–750
(1979) (an agency’s failure to follow its own rules does not necessarily raise constitutional issues).

App. 39
demand letter and orders were inadequate in several
ways. First, Blanca argues the FCC’s decision to initiate debt collection deprived it of the benefits of its 2013
settlement with NECA. Second, Blanca argues the
FCC ignored statutory provisions that allowed it to receive USF support for cellular service. And third,
Blanca argues the record as a whole lacked substantial
evidence to support the FCC’s decision.
We do not consider the FCC’s decisions on any of
these issues to be arbitrary and capricious. Rather, the
FCC’s analysis is “reasoned and reasonable.” In re FCC
11-161, 753 F.3d at 1071.
1. Legal Standard
Review under the arbitrary and capricious standard is narrow. Id. at 1041. In making its decision, the
agency must “examine the relevant data and articulate
a satisfactory explanation for its action including a rational connection between the facts found and the
choice made.” Renewable Fuels Ass’n v. EPA, 948 F.3d
1206, 1254 (10th Cir. 2020) (internal quotation marks
omitted), cert. granted, HollyFrontier Cheyenne v. Renewable Fuels Ass’n, ___ S. Ct. ___, 2021 WL 77244
(2021). The agency cannot rely on factors deemed irrelevant by Congress, fail to consider important aspects
of a problem, or present an explanation that is either
implausible or contrary to the evidence. Renewable
Fuels, 948 F.3d at 1206. We will not set aside agency
decisions that meet this baseline level of reasoning.

App. 40
Beyond the agency’s reasons for the decision, we
are also authorized to evaluate the adequacy of the
record supporting the decision. If the agency’s decision
is not supported by substantial evidence in the record,
we must set it aside as arbitrary and capricious. See
Olenhouse v. Commodity Credit Corp., 42 F.3d 1560,
1575 (10th Cir. 1994). For the evidence to be “substantial,” the agency’s record must contain enough facts
supporting the decision that a “reasonable mind” could
accept it as “adequate to support [the] conclusion.” Id.
at 1581. The evidence is inadequate if it is overwhelmed by other evidence or constitutes a mere conclusion. Id.
When determining whether the agency’s decision
was arbitrary and capricious, review is “generally
based on the full administrative record that was before
all decision makers.” Bar MK Ranches v. Yuetter, 994
F.2d 735, 739 (10th Cir. 1993). We assume the agency
properly designated the record absent clear evidence
to the contrary. Id. at 740. Even if the record is incomplete, “[t]he harmless error rule applies to judicial review of agency proceedings.” Id. So, “errors in such
administrative proceedings will not require reversal
unless [the petitioners] can show they were prejudiced.” Id.
2. Application
a. The 2013 NECA Settlement
Blanca asserts that the FCC’s decision to pursue
debt collection is arbitrary and capricious because it

App. 41
failed to consider one of Blanca’s arguments: the FCC’s
actions deprived Blanca of the benefit of its 2013 settlement with NECA. Blanca argues that it explicitly
entered the settlement with NECA to “avoid protracted litigation.” Opening Br. at 30. The FCC’s orders,
though, have resulted in just such costly and protracted litigation.
But the FCC did address the 2013 NECA settlement in its orders. There, the FCC explained that
“NECA is a private association of wireline carriers, not
a government entity, and accordingly has no authority
to compromise or waive any claims on behalf of the
government.” R., Vol. II at 404. And the FCC noted that
under Blanca’s settlement with NECA, Blanca still
had an obligation to make any repayments from funds
received outside of NECA’s 24-month settlement window.
In its orders, the FCC pointed to one of our cases,
Farmers Tel. Co. v. FCC, 184 F.3d 1241, 1250 (10th Cir.
1999), as support for this conclusion. In Farmers, we
needed to determine whether NECA’s interpretation of
a regulation bound the FCC. We concluded that NECA
“has no authority to perform any adjudicatory or governmental functions.” Id. at 1246. Rather, “NECA is an
agent of its members and has no authority to issue
binding interpretations of FCC regulations.” Id. at
1250. The FCC reasoned that if NECA’s interpretations of regulations could not control the FCC, NECA’s
settlements were not binding on the FCC either.

App. 42
We cannot say the FCC’s decision to pursue debt
collection after Blanca’s 2013 settlement with NECA
was arbitrary and capricious. In its orders, the FCC described NECA as a private entity, discussed the terms
of the 2013 settlement between Blanca and NECA, and
identified relevant precedent supporting its decision to
pursue collection despite the settlement. The FCC’s
reasons are clear and cogent.
b. Regulations Concerning Cellular Service
Blanca also argues the FCC ignored numerous
regulations supporting Blanca’s position. In particular,
Blanca points to a score of regulations and orders dealing with treatment of cellular services. See, e.g., Opening Br. at 24–25 (citing 47 C.F.R. § 54.5 (2005) (defining
“telecommunications carrier” to include those who provide wireless services); id. at § 54.101 (1998) (designating support for voice grade access to “public switched
networks” with no reference to delivery method); id. at
§ 54.307(b) (2005) (fixing the service location of a wireless subscriber as the subscriber’s billing address)). According to Blanca, these references to cellular services
indicate that USF support was available for such services. If the FCC had ignored these various regulations
in its orders, this would be grounds to set aside its decision as arbitrary and capricious.
In its orders and briefing, the FCC does not dispute that numerous regulations and orders make USF
support available for certain cellular services. For

App. 43
instance, competitive ETCs could receive identical support, regardless of the technology used. And BETRS, as
a regulated cellular service, was also eligible for USF
support.
But the fact that some carriers could claim USF
support for some cellular services did not mean all
carriers could claim support for all cellular services.
In its orders, the FCC explained that the regulations
and orders about cellular services did not pertain to
Blanca, an incumbent LEC. See R., Vol. II at 405 n.103
(“Blanca’s many citations to rules and related orders
referring to cellular service as an eligible service does
not pertain to rate-of-return high-cost universal service support, the kind of support Blanca received between 2005 and 2010.”). So, according to the FCC,
Blanca’s reliance on these various regulations and orders is misplaced.
The FCC’s treatment of these various regulations
dealing with cellular service was not arbitrary and capricious.19 It did not ignore the regulations and orders
Blanca cited. Rather, the FCC considered the regulations but found them inapplicable.

19

Blanca also argues “[t]he FCC’s ‘regulated v. unregulated’
distinction in the context of ‘mobile services’ is unreasoned.”
Opening Br. at 27. In its orders, the FCC did distinguish regulated and unregulated activities. But in doing so it cited a number
of regulations and previous orders that explain the significance of
the distinction. See, e.g., R., Vol. II at 305 (citing 11 FCC Rcd. at
17572). This distinction was not unreasoned.

App. 44
c. The Adequacy of the Record
Finally, Blanca argues the FCC’s record is incomplete, making the agency’s reliance upon it arbitrary
and capricious.20 It identifies various documents not
included in the record, including the subpoenas from
the FCC’s Inspector General, Blanca’s responses to
those subpoenas, reports and papers from NECA, and
Blanca’s accounting records.
Blanca has presented clear and convincing evidence that the record before us is not the full administrative record the FCC had before it throughout the
proceedings. The FCC references documents throughout the demand letter and subsequent orders that it
did not include in the record presented to this court. To
be sure, the FCC erred by depriving this court of the
full administrative record.

20

We construe Blanca’s aside in its opening brief as a separate arbitrary and capricious argument. While discussing the inadequacy of the record, Blanca argues that the FCC’s refusal to
give it access to the Office of Inspector General subpoenas of
NECA records that Blanca requested “is the epitome of arbitrariness.” Opening Br. at 23. The FCC acknowledged this request in
its orders. In responding to Blanca, the FCC pointed out that
“Blanca did have access to the underlying cost data because [the
Office of the Managing Director] explicitly based its financial accounting on the cost studies Blanca itself commissioned.” R., Vol.
II at 313. And the FCC further noted that “Blanca does not state
that such records request has any bearing on its ability to challenge the Commission’s [demand] Letter.” Id. at 314 n.152. Given
that Blanca already had access to any of the underlying records,
we cannot say that the FCC’s refusal was arbitrary and capricious.

App. 45
Blanca raises only one argument regarding prejudice, though, contending “[t]here is nothing in the record to support the FCC’s Orders.” Opening Br. at 23.
We disagree.
First, the record provides an adequate factual basis for the FCC’s decision. The record includes evidence
that Blanca claimed USF support for cellular services
both within and beyond its designated study area. It
reflects that Blanca did not distinguish between regulated and nonregulated activities in its accounting.
And the record establishes that Blanca was never designated as a competitive ETC and never submitted
the reports necessary to receive identical support as a
competitive ETC. Blanca does not deny these facts. The
subpoenas, Blanca’s responses, and Blanca’s underlying accounting reports21 would tell us little more than
the record already does.
Second, the record provides an adequate legal basis for the decision. Blanca insists “[t]he FCC Orders
21

Blanca also insists the FCC’s record is deficient because it
does not include all the underlying accounting reports it relied on
in reaching its decision. But Blanca has never argued the FCC
miscalculated the overpayments. See R., Vol. II at 304 (“In reaching these conclusions, we emphasize that Blanca has conceded
that it offered CMRS services and it has not challenged the accuracy of OMD’s accounting of the aggregate high-cost support
attributable to Blanca’s inclusion of CMRS-related costs in regulated accounts between 2005 and 2010.”). In fact, during oral arguments, Blanca’s counsel conceded that it was not challenging
the FCC’s calculated debt amount. Blanca contests only the fact
that any debt exists. Because Blanca does not dispute the FCC’s
calculations, Blanca has not convinced us that the failure to include the cost data is prejudicial.

App. 46
rely upon a single, non-binding, non-record NECA cost
allocation manual to support its view that Blanca’s
BETRS service is not eligible for USF funding.” Id. at
29. But Blanca’s characterization of the record is incorrect. Throughout the proceedings, the FCC provided
much more than a single “NECA cost allocation manual” to support its view that Blanca had improperly received USF payments. See, e.g., R., Vol. II at 304–07
(describing the regulations and orders that require
proper cost allocation in order to determine USF support). Given that the FCC provided an adequate legal
basis for its decision, any further NECA documents
that the FCC relied on for its reasoning are not necessary. Inclusion of such documents in the record would
not change our understanding of the underlying regulatory scheme or our decision.
Given that the administrative record supports the
FCC’s decision, the FCC’s failure to include documents
referred to in the record is harmless.
The foregoing analysis also leads us to conclude
that the FCC’s reliance on the record was supported by
substantial evidence. The record contains undisputed
facts about Blanca’s conduct and accounting practices
between 2005 and 2010. And these facts establish that
Blanca requested USF support for cellular services
during this time, that the cellular services were not
fixed-BETRS, and that Blanca never submitted the reports necessary to claim USF support as a competitive
ETC. A reasonable mind could accept this undisputed
evidence in the record as adequate to support the
FCC’s decision.

App. 47
***
The FCC did not act arbitrarily and capriciously.
The FCC supported its decision to initiate debt collection with an explanation of the rules Blanca had violated and a calculation of the overpayments Blanca
had received. And the record, though incomplete, is adequate to support the FCC’s actions.
IV.

Conclusion

We DENY Blanca’s Motion to Supplement the
Record. And we AFFIRM the FCC’s decision to collect
USF overpayments to Blanca through administrative
offsets. We remand to the FCC for any further proceedings.

App. 48
Federal Communications
FCC 20-28
Commission
Before the
Federal Communications Commission
Washington, D.C. 20554
In the Matter of

)
)
Federal-State Joint Board
)
on Universal Service
)
Blanca Telephone Company
)
Seeking Relief from the
)
June 22, 2016 Letter Issued
)
by the Office of the Managing )
Director Demanding Repayment )
of a Universal Service Fund
)
Debt Pursuant to the Debt
)
Collection Improvement Act
)

CC Docket 96-45

SECOND ORDER ON
RECONSIDERATION AND ORDER
(Filed Mar. 6, 2020)
Adopted: March 4, 2020

Released: March 5, 2020

By the Commission:
I.

INTRODUCTION

1. The Universal Service Fund’s (USF) high-cost
program supports the deployment of communications
networks in high-cost, rural areas. As a rate-of-return
incumbent local exchange carrier (incumbent LEC),
Blanca Telephone Company (Blanca) is eligible to

App. 49
receive high-cost support based on the costs it incurred
in providing rate-regulated local exchange telephone
service in its designated study area. From 2005 to
2010, however, Blanca sought universal service support to cover not only such costs but also costs for
providing non-regulated commercial mobile radio
service (CMRS) both within and outside its study
area. In 2012, the National Exchange Carrier Association (NECA) discovered Blanca’s improper inclusion in its rate base of nonregulated costs and directed
Blanca to correct its cost accounting. In 2016, the Commission’s Office of the Managing Director (OMD) demanded that Blanca repay $6,748,280 in high-cost
universal service to which it was not entitled.1 Blanca
applied for review of that decision,2 which the Commission upheld in the Blanca Order.3
2. In the Second Petition and Second Petition
Supplement now before us (collectively, Amended Second Petition), Blanca seeks reconsideration of the
Blanca Order as well as emergency relief from any
withholding of universal service support payments

1

Letter from Dana Shaffer, Deputy Managing Director, FCC
Office of Managing Director to Alan Wehe, General Manager,
Blanca Telephone Company (June 2, 2016) (Demand Letter).
2
Emergency Application for Review, CC Docket No. 96-45
(filed June 16, 2016) (Application); Petition for Reconsideration,
CC Docket No. 96-45 (filed June 24, 2016) (First Petition).
3
Blanca Telephone Company, Memorandum Opinion and
Order and Order on Reconsideration, 32 FCC Rcd 10594 (2017)
(Blanca Order).

App. 50
otherwise payable to Blanca.4 We dismiss the Amended
Second Petition as procedurally defective and, in the
alternative, independently deny it on the merits. Accordingly, Blanca must repay $6,748,280, and Commission staff should pursue collection of that amount from
Blanca, whether by offset, recoupment, referral of the
debt to the United States Department of Treasury for
further collection efforts, or by any other means authorized by law.5
II.

BACKGROUND

3. In 1997, pursuant to Section 254 of the Communications Act of 1934, as amended (Act),6 the
4

Petition for Reconsideration and Emergency Request for
Immediate 1.1910(b)(3)(i) Relief, CC Docket 96-45 (filed Dec. 29,
2017, erratum Jan. 5, 2018, erratum Jan. 8, 2018) (Second Petition), as amended, Motion for Leave to Supplement December 29,
2017 Petition for Reconsideration and Emergency Request for Immediate § 1.1910(b)(3)(i) Relief, CC Docket 96-45 (filed Jan. 8,
2018) (Second Petition Supplement). Although Blanca moved to
have this supplement accepted, it was timely filed and accordingly, we will treat this supplement as an amendment to the Second Petition rather than as a separate filing.
5
See Blanca Order, 32 FCC Rcd at 10615-16, para. 54; Letter
from Mark Stephens, Managing Director, Office of Managing Director, FCC, to Alan Wehe, General Manager, Blanca Telephone
Company (Jan. 10, 2018) (Blanca Administrative Offset Notice)
(notifying Blanca that the Commission “will pursue collection . . .
by offset/recoupment of amounts otherwise payable to you,” and
that “as from the date of the [Blanca Order], . . . Blanca’s monthly
support from the Universal Service Fund will be offset/recouped
against the Debt[ ] until the Debt is satisfied or until you have
made acceptable arrangements for its satisfaction.”).
6
47 U.S.C. § 254.

App. 51
Colorado Public Utilities Commission (PUC) designated Blanca as an Eligible Telecommunications
Carrier (ETC) in a study area comprised of parts of
Alamosa and Costilla counties.7 As a result, Blanca became eligible to receive high-cost USF support for
providing local exchange telephone service in its designated study area.8
4. Pursuant to the Commission’s rules in effect
at the time, rate-of-return incumbent LECs designated
as ETCs, like Blanca, received high-cost support based
on their embedded costs in providing local exchange
service to fixed locations in their high-cost areas.9 Such
support was intended to ensure the availability of

7

See Commission Order Granting Application for Designation as an Eligible Telecommunications Carrier, Docket No. 97A506T, Decision No. C97-1389, at 3, para. 2 (Colo. Utilities Comm’n
Dec. 17, 1997); 47 U.S.C. § 254(e).
8
A study area is a geographic segment in which an incumbent local exchange carrier is designated as an ETC. Such segment generally corresponds to the carrier’s “entire service territory
within a state.” See Petitions for Waivers Filed by San Carlos
Apache Telecommunications Utility, Inc., & U S W. Communications, Inc., Memorandum Opinion and Order, 11 FCC Rcd 14591,
14592, para. 4 (AAD 1996).
9
Federal-State Joint Board on Universal Service, Multi-Association Group (MAG) Plan for Regulation of Interstate Services
of Non-Price Cap Incumbent Local Exchange Carriers and
Interexchange Carriers, CC Docket Nos. 9645, 00-256, Report and
Order, 16 FCC Rcd 11244, 11248-49, paras. 8-10 (2001); see also
Special Access for Price Cap Local Exchange Carriers Order, WC
Docket No. 05-25, Report and Order, 27 FCC Rcd 10557, 10562,
para. 8 (2012).

App. 52
basic telephone service at reasonable rates.10 To that
end, the Commission’s accounting and cost allocation
rules worked to ensure that incumbent LECs received
a reasonable return on investment in the deployment
and offering of supported services in high-cost areas
within their respective study areas.11 By limiting the
availability of such support to a rate-of-return incumbent LEC’s regulated costs within its study area, the
accounting and cost allocation methods countered the
incentive to engage in anticompetitive practices, such
as predatory cross-subsidization, that might dampen
competitive markets for other forms of communication technology.12 As the Commission has explained,
10

47 U.S.C. § 254(b)(3); see also, e.g., Connect America Fund
et al., WC Docket Nos. 10-90 et al., Notice of Proposed Rulemaking and Further Notice of Proposed Rulemaking, 26 FCC Rcd
4554, 4572, para 46 (2011).
11
See 2000 Biennial Regulatory Review – Comprehensive Review of the Accounting Requirements and ARMIS Reporting Requirements for Incumbent Local Exchange Carriers, CC Docket
Nos. 00-199 et al., Report and Order and Further Notice of Proposed Rulemaking, 16 FCC Rcd 19913, 19960-61, paras. 126-27
(2001) (modifying section 32.11 of the Commission’s rules to make
explicit that Part 32 accounting rules applied only to incumbent
LECs, as that term is defined in section 251(h)(1) of the Act, and
any other company deemed dominant); see also Policy and Rules
Concerning Rates for Competitive Common Carrier Services and
Facilities Authorizations Therefor, First Report and Order, 85
FCC 2d 1, 4, para. 15 (1980) (explaining that dominant carriers
have “substantial opportunity and incentive to subsidize the rates
for [their] more competitive services with revenues obtained from
[their] monopoly or near-monopoly services”).
12
See Implementation of the Telecommunications Act of
1996: Accounting Safeguards Under the Telecommunications Act
of 1996, CC Docket No. 96-150, Report and Order, 11 FCC Rcd
17539, 17550-51, para. 25 (1996) (explaining that the safeguards

App. 53
“[t]hese rules ensure that carriers compete fairly in
nonregulated markets and that regulated ratepayers
do not bear the risks and burdens of the carriers’ competitive, or nonregulated, ventures.”13
5. As a member of NECA, a membership organization of incumbent LECs, Blanca submits its cost information to NECA.14 Pursuant to our rules, NECA is
responsible for collecting its members’ cost study data
and filer certifications of that data, and any other information necessary for NECA to calculate the amount
“were designed to keep incumbent local exchange carriers from
imposing the costs and risks of their competitive ventures on interstate telephone ratepayers, and to ensure that interstate ratepayers share in the economies of scope realized by incumbent
local exchange carriers”); see also Policy & Rules Concerning
Rates for Dominant Carriers, CC Docket No. 87-313, Report and
Order and Second Further Notice of Proposed Rulemaking, 4 FCC
Rcd 2873, 2934, para. 117 (1989) (explaining that a “natural tension . . . exists between competition and rate of return, which surfaces in the practice of cost shifting, [and that] can be avoided
through the use of incentive regulation, which blunts the incentives to shift costs from more competitive services to less competitive services”); Verizon Commc’ns, Inc. v. Fed. Commc’ns
Comm’n, 535 U.S. 467, 487 (2002) (reciting history of various
methods of regulating telecommunications rates and services and
the sometimes perverse incentives arising therefrom).
13
Wireline Competition Bureau Biennial Regulatory Review, WC Docket No. 04-179, Staff Report, 20 FCC Rcd 263, 318
(2005); See Sandwich Isles Communications, Inc., WC Docket No.
10-90, Order, 31 FCC Rcd 12999, 13002, para. 8 (2016) (Sandwich
Isles Order).
14
Demand Letter at 2 (specifying that NECA initiated a
“Loop” and “Non-Reg Review” focused on the underlying records
for Blanca’s 2011 Cost Study in the area of non-regulated operations).

App. 54
of High-Cost Loop Support (HCLS), a subset of highcost support, which its members are eligible to receive.15 NECA submits the results of its calculations
to the Universal Service Administrative Company
(USAC), which is responsible for day-to-day administration of the high-cost support program.16 In addition to the information it received from NECA, USAC
collects carrier data and information relevant to the
calculation of other forms of high-cost support.17
6. In addition to offering regulated wireline service within its study area, Blanca also offered CMRS,
a nonregulated service, both within and outside its
study area.18 At least as of 2005, Blanca included the
costs of this nonregulated service in the regulated cost
15

See Connect America Fund et al., WC Docket No. 10-90 et
al., Notice of Proposed Rulemaking and Further Notice of Proposed Rulemaking, 26 FCC Rcd 4554, 4796, para. 476 (2011) (explaining that NECA collects data necessary for the calculation of
HCLS while USAC administers other aspects of the fund, including identical support); 47 CFR §§ 36.611-613, 54.1305-1306 (detailing incumbent LEC submission of cost data to NECA), 54.1307
(detailing NECA’s submission of cost data to USAC); 54.707(b)
(establishing USAC’s authority obtain all carrier submissions,
and underlying information from NECA); see also id. § 69.601 et
seq.
16
See Changes to the Board of Directors of the National Exchange Carrier Association, Inc., Federal State Board on Universal Service, CC Docket Nos. 97-21 and 96-45, Report and Order
and Second Order on Reconsideration, 12 FCC Rcd 18400, 18412,
para. 18 (1997).
17
See 47 CFR §§ 36.611, 36.612, 54.307, 54.903; High-Cost
Universal Service Support et al., WC Docket No. 05337 et al., Order, 23 FCC Rcd 8834, 8846, paras. 27-28 (2008).
18
Demand Letter at 2.

App. 55
accounts it submitted to NECA with respect to its designated study area.19 By recording costs associated
with both services as regulated costs between 2005 and
2010, Blanca received inflated amounts of high-cost
support from the USF during this time frame.20
7. In 2008, the Commission’s Office of Inspector
General (OIG) began an investigation into Blanca’s receipt of high-cost support beginning with 2004. In
2012, during the pendency of the OIG investigation,
and pursuant to its data reconciliation policies, NECA
conducted a review of Blanca’s 2011 Cost Study, and
concluded that Blanca improperly included costs,
loops, and revenues associated with providing CMRS
in its 2011 Cost Study.21 NECA directed Blanca to revise its 2011 Cost Study and all ensuing studies to
remove such costs.22 Meanwhile, based on its investigation and review of documentation provided by
Blanca, OIG concluded that Blanca had misallocated
costs and began working with USAC to identify the resulting USF losses in earlier years.23

19

Id. at 3.
See Blanca Order, 32 FCC Rcd at 10600, para. 14.
21
See id.; see also Letter from Brandon Gardner, Manager,
Member Services, NECA to Alan Wehe, Blanca Telephone Company (Jan. 28, 2013) (NECA True Up Notice) (citing NECA Cost
Issue 4.9).
22
See NECA True Up Notice.
23
See Demand Letter at 1; see also 5 U.S.C. § App. 3 App.;
Adair v. Rose Law Firm, 867 F. Supp. 1111, 1116 (D.D.C. 1994)
(concluding that, based on the legislative history of the Inspector
General Act of 1978, “Congress understood the Act to give the
20

App. 56
8. Based on its analysis of information obtained
during the OIG investigation and Blanca’s own revisions to its cost studies and other filings, on June 2,
2016, OMD notified Blanca by letter that Blanca had
violated Parts 36, 64, and 69 of the Commission’s
rules by incorrectly including in its calculation of
costs eligible for high-cost support, costs of providing
nonregulated cellular mobile telephone service and
demanded immediate repayment of the $6,748,280
that Blanca had improperly received.24 On June 16,
2016, Blanca filed an Emergency Application for Review of the Demand Letter.25 On June 24, 2016, Blanca
filed a Petition for Reconsideration of the Demand Letter.26 Blanca later filed four separate motions for leave
to supplement its Application and Petition.27
9. In the Blanca Order, the Commission upheld
OMD’s determination that Blanca improperly received $6,748,280 from the USF high-cost program
between 2005-2010 by improperly including costs
Inspector General the authority to investigate the recipients of
federal funds”).
24
Demand Letter.
25
Application.
26
First Petition.
27
Motion for Leave to Supplement Emergency Application
for Review, CC Docket No. 96-45 (filed Dec. 19, 2016) (First Supplement); Second Motion for Leave to Supplement Emergency Application for Review, CC Docket No. 96-45 (filed Mar. 30, 2017)
(Second Supplement); Third Motion for Leave to Supplement
Emergency Application for Review, CC Docket No. 96-45 (filed
Apr. 10, 2017) (Third Supplement); Fourth Motion for Leave to
Supplement Emergency Application for Review, CC Docket No.
96-45 (filed July 5, 2017) (Fourth Supplement).

App. 57
associated with its provision of an unregulated service,
i.e., CMRS, in its regulated accounts.28 The Commission also upheld OMD’s separate and independent determination that Blanca improperly included costs for
service outside of its study area.29 The Commission
made clear that Blanca’s nonregulated costs are not eligible for high-cost support provided to an incumbent
LEC nor was Blanca eligible for support for its CMRS
offerings as a competitive ETC either inside or outside
its study area.30 The Commission also fully considered
and rejected Blanca’s arguments that the Commission
does not have authority to seek repayment of improperly disbursed universal service funds31 and that the
question of whether Blanca intentionally misrepresented its costs or had “clean hands” was irrelevant to
the issue of whether the Commission should seek to
collect overpayments of USF support.32 The Commission also rejected Blanca’s claims that it was not afforded due process.33 The Commission further found
that it has authority under the Debt Collection Improvement Act to collect a claim or to delegate authority to collect a claim to our managing director. In
addition, the Commission granted Blanca’s motion to
accept two of four late-filed supplements (Second and
Fourth Supplements) to the extent they raised new facts
28
29
30
31
32
33

See Blanca Order, 32 FCC Rcd at 10605-06, paras. 33-35.
See id. at 10606-08, paras. 36-39.
Id.
Id. at 10609, para. 40.
Id at 10609, para. 41.
Id at 10613-10614, paras. 47-50.

App. 58
and arguments occurring after Blanca’s deadline for
appealing OMD’s Demand Letter.34 The Commission
denied Blanca’s motions to accept two other late-filed
supplements (First and Third Supplements) for failing
to demonstrate good cause for waiving the filing deadline.35
10. On December 29, 2017, Blanca filed its Second Petition. In this filing, Blanca argues that Blanca
offered CMRS as a supported service;36 that the Commission’s efforts to recover high-cost universal service
support Blanca improperly received is inequitable because Blanca purportedly had clean hands;37 that the
recovery effort is a penalty that the Commission can
impose only pursuant to its forfeiture authority in Section 503 of the Act;38 that the Commission is retroactively applying new rule interpretations and new
recovery procedures in a way that interferes with
Blanca’s reasonable reliance interests;39 that the
34

Id. at 10603, para. 27; Second Motion for Leave to Supplement Emergency Application for Review, CC Docket No. 96-45
(filed Mar. 30, 2017) (Second Supplement); Fourth Motion for
Leave to Supplement Emergency Application for Review, CC
Docket No. 96-45 at 32 (filed July 5, 2017) (Fourth Supplement).
35
See Blanca Order, 32 FCC Rcd at 10604, paras. 28-29; Motion for Leave to Supplement Emergency Application for Review,
CC Docket No. 96-45 (filed Dec. 19, 2016) (First Supplement);
Third Motion for Leave to Supplement Emergency Application for
Review, CC Docket No. 96-45 (filed Apr. 10, 2017) (Third Supplement).
36
Second Petition at 10-11, 12-13, 16.
37
Id. at 8, 10, 20-22.
38
Id. at 4-10.
39
Id. at 1-2, 4, 6, 10-17, 19-20.

App. 59
Commission’s recovery efforts deprive Blanca of due
process by denying Blanca notice and a reasonable
opportunity to contest the Commission’s findings;40
that the Commission lacks authority under the Debt
Collection Improvement Act of 1996 to recover support
wrongfully or erroneously paid;41 and that the Commission has denied Blanca access to the records upon
which it based its determination.42
11. Blanca also challenges the Commission’s denial of its motion to submit its First Supplement.43
Blanca claims that this denial amounts to a denial of
its right to address “relevant Commission statements
and rulings in ‘real time,’ as the Commission makes
them” and requires Blanca to “divin[e]” how the Commission will apply precedent in future cases.44 Blanca
also asserts that the Commission’s ordering clause dismissing its Second and Fourth Supplements is inconsistent with the acceptance of Blanca’s Second and
Fourth Supplements in the text.45
12. Blanca also seeks emergency relief from any
change in its “red light status” and any withholding of
support payments after the issuance of the Blanca
40

Id. at 6 n.5, 9.
Id. at 17-19.
42
Id. at 11 n.8.
43
Id. at 3-4, 5, 23.
44
Id. at 3-4, 5; see also Blanca Order, 32 FCC Rcd at 10604,
para. 29.
45
Id. at 22-23; Blanca Order, 32 FCC Rcd at 10603-04,
10616, paras. 27, 57.
41

App. 60
Order.46 Specifically, Blanca contends that under the
Commission’s rules, the Commission cannot place
Blanca in red light status or collect the outstanding
debt pending resolution of its pending Second Petition
and related appeals before the 10th Circuit Court of
Appeals.47 Accordingly, Blanca requests that it remain
in green light status (and thus, be permitted to engage
in business before the Commission); that the Commission grant its pending license assignment application;
that the Commission direct USAC to make all USF
payments pending appeal of its debt liability; and that
the Commission direct USAC to pay any sums withheld as a consequence of the Blanca Order.48
13. On January 8, 2018, Blanca filed its Second
Petition Supplement amending its Second Petition
(together the Amended Second Petition).49 In this filing, Blanca contends that the Commission uses more
lenient procedures when investigating and recovering USF from larger corporations than when doing
46

Second Petition at 6-7, 24 (Emergency Request). Delinquent
debt owed to the Commission triggers the “red light rule,” which
places a hold on the processing of pending applications, fee offsets,
and pending disbursement payments. 47 CFR §§ 1.1910, 1.1911,
1.1912; see also Amendment of Parts 0 and 1 of the Commission’s
Rules, MD Docket No. 02-339, Report and Order, 19 FCC Rcd
6540 (2004) (implementing Pub. L. No. 104-134, 110 Stat. 1321,
1358 (1996)).
47
Second Petition at 24 (citing 47 CFR § 1.1910(b)(3)(i)).
48
Id.
49
Because it was filed within 30 days of public notice of the
Blanca Order, the Second Petition Supplement was timely filed.
See 47 CFR § 1.106(f).

App. 61
so from smaller corporations.50 To support its argument, Blanca relies on five orders adopting negotiated
settlements of forfeiture liability for violation of the
Commission’s Lifeline program rules (Lifeline consent
decree orders) that the Commission released after
Blanca’s deadline for appealing the Demand Letter.51
Blanca asserts that that the Commission’s actions in
its case constitute disparate treatment that violates its
“constitutional right to equal protection” and its “administrative right to similar treatment.”52 Blanca asserts that such disparate treatment is evidenced by the
Commission’s investigation of Blanca’s reporting practices for a longer period of time; the failure of the Commission to issue a Notice of Apparent Liability for
50

Second Petition Supplement at 1-5.
Id. at 1 (citing Cintex Wireless, LLC, Order, 32 FCC Rcd
10920 (2017) (Cintex Consent Decree); Easy Telephone Services,
Order, 32 FCC Rcd 10932 (2017) (Easy Telephone Consent Decree); Global Connection Inc. of America, Order, 32 FCC 10946
(2017) (Global Connection Consent Decree); i-wireless, LLC, Order
and Consent Decree, 32 FCC Rcd 10960, 10960, para. 2 (2017) (iwireless Consent Decree); Telrite Corp., Order, 32 FCC Rcd 10974
(2017) (Easy Telephone Consent Decree)). Specifically, Blanca relies heavily on the separate opinions of then-Commissioner Clybum, dissenting in part, in these decisions, in which she argues
these orders represent an apparent bias in forfeiture prosecutions
and related settlements in favor of “large, well-known corporations.” See id.; see, e.g., Cintex Consent Decree, 32 FCC Rcd at
10931 (separate Statement of Commissioner Mignon L. Clybum,
Approving in Part and Dissenting in Part) (expressing concern
that Enforcement Bureau bias in favor of large, well-known corporations has resulted in forfeitures and negotiated settlements
that are a mere “slap on the wrist” and stressing the importance
of having Commission rules “vigorously and fairly enforced”).
52
Second Petition Supplement at 1.
51

App. 62
Forfeiture giving rise to an opportunity to settle liability; and the Commission’s selective referral of Blanca’s
case to the Department of Justice for possible prosecution under the False Claims Act.53
14. Blanca further asserts that the Commission
committed material error when it failed to consider an
argument that the Commission’s recovery efforts violate the terms of a 2013 settlement agreement it
reached with NECA to resolve “accounting issues” pursuant to the NECA true-up process.54 Blanca contends
that the Commission may recover improperly paid universal service funds only through one of two avenues:
(1) pursuant to a forfeiture action where the overpayments result from rule violations, or (2) pursuant to
the audit process, which is time-limited and “closes”
upon settlement.55
15. On January 10, 2018, OMD issued a letter
notifying Blanca that the Commission would begin recouping monies from Blanca’s monthly universal service support against the debt specified in the Demand
Letter and upheld in the Blanca Order, until the
debt is satisfied or until Blanca made acceptable

53

Id. at 2-5.
Id. at 5-6 (citing First Petition at 13 n.12, 15 & n.16).
55
Id. at 5-6, n.4 (asserting that “[t]here are no rule violation
findings entered after an audit is settled,” that audit time frames
and Commission review of audits are time limited and that “the
auditing procedure the FCC discusses was concluded for Blanca
years ago and the [Blanca Order] is unreasoned for failing to discuss this fact”).
54

App. 63
arrangements for its satisfaction.56 On January 12, 2018,
Blanca responded to the Commission’s administrative offset notice, including in its response several arguments that are essentially identical to those raised
in the Emergency Request.57
III. DISCUSSION
16. In 2016, the Commission determined that
Blanca received $6,748,280 in high-cost universal service support between 2005 and 2010 to which it was
not entitled and demanded that Blanca repay this
sum.58 In the intervening years, Blanca has made numerous filings, raising a myriad of procedural and substantive arguments. To date, while we have granted
certain procedural requests, we have not found merit
in any of Blanca’s substantive arguments. Today’s Order is no exception. In this Second Order, we dismiss
56

Letter from Mark Stephens, Managing Director, Office
of Managing Director, FCC, to Alan Wehe, General Manager,
Blanca Telephone Company (Jan. 10, 2018) (Administrative Offset Notice).
57
Letter from Timothy E. Welch, Counsel for Blanca Telephone Company to Mark Stephens, Managing Director, FCC Office of Managing Director, CC Docket 96-45 (filed Jan. 12, 2018)
(responding to the Commission’s administrative offset notice) (asserting that in changing Blanca’s red light status to green, the
Commission acknowledged that Blanca’s debt was not delinquent
and therefore, under section 1.1910(b)(3)(i) of the Commission’s
rules, 47 CFR 1.1910(b)(3)(i), could not begin recoupment or otherwise begin collections toward satisfaction of such debt) (Administrative Offset Notice Response).
58
See Demand Letter; Blanca Order at 10596, 1060508, paras. 2, 33-39.

App. 64
as defective, and, in the alternative, we independently
deny on the merits, Blanca’s Amended Second Petition.
17. Blanca seeks reconsideration of the Blanca
Order, in which the Commission denied in part and
dismissed in part Blanca’s Application and Petition (and
four supplements). We find that Blanca’s Amended
Second Petition is procedurally defective insofar as it
fails to raise any arguments cognizable in a petition for
reconsideration of the Commission’s prior order denying Blanca’s application for review. Namely, Blanca
fails to show that the Commission made a material error or omission in the Blanca Order and has not raised
additional material facts warranting reconsideration
of the Commission’s findings. As an alternative and independent basis for our decision, we find the Amended
Second Petition to be meritless.
A. The Amended Second Petition is Procedurally Defective
18. We dismiss Blanca’s Amended Second Petition as procedurally defective. Under section 405 of
the Act, reconsideration of Commission orders is limited to “newly discovered evidence, evidence which
has become available only since the original taking
of evidence, or evidence which the Commission or
designated authority within the Commission believes should have been taken in the original proceeding.”59 In turn, the Commission’s rules state that the
59

47 U.S.C. § 405.

App. 65
Commission will entertain a petition for reconsideration of an order denying an application for review only
if the petition relies on “facts or arguments which relate to events which have occurred or circumstances
which have changed since the last opportunity to present such matters to the Commission” or on facts or
arguments unknown to the petitioner until after his
last opportunity to present them to the Commission
and that the petitioner “could not, through the exercise
of ordinary diligence, have learned of the facts or arguments in question prior to such opportunity.”60 These
procedural requirements ensure that appealing parties will not use the reconsideration process to rehash
and relitigate legal issues already raised (or that
should have been raised) earlier in the same proceeding.61
19. The Amended Second Petition contains no
facts or arguments that meet these requirements.
60

See 47 CFR §§ 1.106(b)(2), 1.115(g) (slight variation in
wording).
61
See Scott Malcolm Dsm Supply, LLC Somaticare, LLC, Order on Reconsideration, 33 FCC Rcd 2410, 2412, para. 8 (2018)
(explaining that “[n]either the Act nor Rules require the Commission to be administratively burdened by petitions for reconsideration that reargue issues that were already addressed, or that
rely on facts or arguments that the petitioner could have – but did
not – present to the Commission at an earlier stage”); Holy Family
Communications, Inc., Memorandum Opinion and Order, 28 FCC
Rcd 15687, 15689-90, para. 6 (MB 2013) (“It is settled Commission policy that petitions for reconsideration are not to be used for
the mere reargument of points previously advanced and rejected,
and reconsideration will not be granted merely for the purpose of
again debating matters on which the Commission has already deliberated and decided.”).

App. 66
Legal determinations and factual conclusions previously reached by the Commission in the same proceeding are not changed circumstances satisfying the
requirements for appeal.62 This is true even where
the petitioner has embellished or expanded upon its
original arguments by presenting additional supporting evidence in an attempt to reinforce its original
contentions.63 As the Commission has previously explained, “[n]ew facts that are not materially or significantly different from facts already before the
Commission when it denied review raise matters that
have already been fully considered.”64
20. Yet, much of Blanca’s Amended Second Petition is devoted to such claims. For example, the Blanca
Order rejected Blanca’s argument that the adjudication and collection of this debt is a penalty – and yet
62

See Shaw Communications, Inc., Order on Reconsideration, 27 FCC Rcd 6995, 6996, para. 4 (MB 2012) (“[T]he Commission’s rejection of a previously raised argument” does not satisfy
the requirements of section 1.106(b)(2), “since of necessity the
Commission’s order in any case will have been released after the
aggrieved party was last able to present its arguments in pleadings.”); M&M Communications, Inc., Memorandum Opinion and
Order, 2 FCC Rcd 5100, 5100, para. 6 (CCB 1987) (“The Commission’s disposition in a Review Order, of arguments raised in an
Application for Review, does not constitute ‘changed circumstances’ pursuant to section 1.106(b)(2).”).
63
See Carolyn Hagedorn, Memorandum Opinion and Order,
11 FCC Rcd 1695, 1696, para. 11 (1996) (finding that staff did not
err in refusing to consider new facts in applicant’s petition for reconsideration, even when such facts arguably were an “expansion” of matters raised in initial application).
64
Skybridge Spectrum Foundation, Memorandum Opinion
and Order, 27 FCC Rcd 7701, 7703 & n.15 (2012).

App. 67
Blanca tries to resuscitate it by pointing to a routine
collection form issued after the release of the Blanca
Order.65 Notably, Blanca fails to explain the legal relevancy of the revised form given the information known
to Blanca regarding the Commission’s practice of imposing administrative fees and penalties for delinquent
debt payments.66 As another example, the Blanca Order rejected Blanca’s argument that the debt collection
was inequitable and a retroactive change in policy –
and yet Blanca tries to vivify that claim by referencing
questions in a 2009 subpoena issued by the FCC’s Inspector General.67 Similarly, the Blanca Order rejected
the claim that Blanca was entitled to receive identical
support based on its CMRS offerings both within and
outside of its study area – and yet Blanca tries to resurrect such claim (and more generally, its claim that it
is entitled to the support received because its interpretation of its eligibility for support is reasonable) by
making a series of arguments about some regulations
applying to CMRS services and about Blanca being a

65

See Second Petition at 7, 19; Blanca Order, 32 FCC Rcd at
10611-13, para. 44-46.
66
Compare, e.g., OMD Demand Letter at 7 (explaining that
in the event of delinquency, the Commission may impose “administrative charges, interest, and penalties,” and a “penalty of six
percent per annum”) with Second Petition, Attachment 00001,
FCC Form 159-B (indicating penalty and administrative fee due).
67
Second Petition at 20; Blanca Order, 32 FCC Rcd at 10607608, paras. 38-39.

App. 68
carrier of last resort.68 We dismiss these and similar
arguments as procedurally defective.
21. In its Amended Second Petition, Blanca also
asserts that the Commission’s ordering clause dismissing its Second and Fourth Supplements is inconsistent
with the acceptance of Blanca’s Second and Fourth
Supplements in the text.69 We disagree. The Commission made clear in its ordering clause that it was accepting Blanca motions to submit these supplemental
pleadings only to the extent that they raised new facts
and legal arguments not otherwise available to Blanca
when its pleadings were originally due and otherwise
denying these supplements.70
22. Blanca’s attempts to revive the First and
Third supplements are equally without merit. As the
Commission explained, the Commission documents
that Blanca sought to rely on in those supplements
were based on long standing principles and precedent
that “Blanca had ample opportunity to review and incorporate into its timely filed Application and Petition.71 Blanca cannot escape dismissal by claiming (as
it now does) that it should be allowed to address “relevant Commission statements and rulings in ‘real
time,’ as the Commission makes them,” regardless of
whether the filing deadline for submitting an appeal
68

Second Petition at 10-16; Blanca Order, 32 FCC Rcd at
10606-607, paras. 36-37.
69
Second Petition at 22-23; Blanca Order, 32 FCC Rcd at
10603-04, para. 28.
70
Blanca Order, 32 FCC Rcd at 10616, para. 57.
71
Id. at 10604,10604-05, para. 29 and 30-32.

App. 69
has passed and regardless of whether such statements
and rulings are derivative of prior precedent released
before the filing deadline.72
23. Blanca also attempts to mischaracterize the
Commission’s procedural dismissal of its First Supplement as a substantive statement regarding the due
process Blanca received and then to reintroduce dismissed arguments ostensibly as a rebuttal of the Commission’s “conclusions?”73 Blanca asserts that in the
Blanca Order, the Commission cited precedent that
was either too old, i.e., “70-80 year old Supreme Court
cases,” or too recent, i.e., “FCC determinations made in
2011 & 2014 which were released after Blanca’s 2005
to 2010 challenged conduct,” to support its conclusion
that Blanca had adequate notice, in 2005, of the Commission’s position on whether a debt collection was a
forfeiture action subject to a statute of limitations.74
72

Second Petition at 3.
See id. at 1-2 (arguing that in denying Blanca’s motion to
submit these filings after the 30 day deadline, the Commission
“retroactively imposes the burden on Blanca in 2005 to guess
what the FCC was going to say in 2016/2017 regarding USF rule
violation proceedings based on what the FCC might subsequently
view as ‘longstanding’ Supreme Court precedent”); id. at 4 (“The
FCC tries to justify the lack of notice by asserting that prior to
the release of the [Blanca First Order], there existed precedent
from which Blanca could have understood what the Commission
would do”); id. at 9 (asserting that the Commission’s rejection of
its late-filed First Supplement was an attempt to “explain what
[the Commission] is doing to Blanca, but that explanation merely
serves to highlight that the FCC is weaving a novel, generally applicable USF enforcement procedures out of whole cloth, on the
fly and without notice”).
74
Id. at 4.
73

App. 70
But the Commission had only cited such precedent indirectly, noting that such precedent was cited in Commission orders that Blanca itself had cited, to refute
Blanca’s contention that these orders introduced a
novel interpretation of Commission collection authority that Blanca could not have reasonably challenged
before its July 5, 2016 filing deadline.75 The Commission did not make a substantive determination in this
context as to the notice that Blanca received based on
this precedent.
24. Blanca introduces, for the first time in its
Amended Second Petition, a new equal protection argument that attempts to rely on five recently released
consent decrees with five carriers that received improper USF payments in connection with their provision of Lifeline services, a separate universal service
program.76 Blanca asserts it was treated with disfavor

75

Blanca Order, 32 FCC Rcd at 10604, para. 29 (citing Network Services NAL, 31 FCC Rcd at 12284, para. 144 & n.334 (citing Holmberg v. Armbrecht, 327 U.S. 392, 396 (1946); United
States v. Wurts, 303 U.S. 414, 415-16 (1938)); BellSouth, 31 FCC
Rcd at 8525, para. 71 & n. 150 (citing Review of Decisions of the
Universal Service Administrator by Joseph M Hill Trustee in
Bankruptcy for Lakehills Consulting, LP et al., CC Docket No. 026, Order, 26 FCC Rcd 16586, 16600-01, para. 28 (2011); Request
for Waiver or Review of a Decision of the Universal Service Administrator by Premio Computer, Inc., CC Docket No. 02-6, Order, 29
FCC Rcd 8185, 8186, para. 6 & n.16 (WCB 2014)).
76
See Second Petition Supplement at 1 (referencing Cintex
Consent Decree, 32 FCC Rcd 10920; Easy Telephone Consent Decree, 32 FCC Rcd 10932; Global Connection Consent Decree, 32
FCC 10946; i-Wireless Consent Decree, 32 FCC Rcd 10960; Telrite
Consent Decree, 32 FCC Rcd 10974).

App. 71
in comparison to these Lifeline carriers because of certain procedural differences in the investigation and
collection of its debt and the pursuit of forfeiture liability against these Lifeline carriers. No doubt there
were differences in how the Commission dealt with different carriers with different conduct in a different
program and dealing with a different issue (the imposition of a penalty on top of the collection of improperly
disbursed funds, which had already been recovered)—
and all of these differences were readily apparent
when the Commission in 2013 released the underlying
notices of apparent liability against these carriers and
the DOJ issued a Civil Investigation Demand indicating that the Commission had referred Blanca’s case for
possible prosecution under the False Claims Act.77
While new orders can represent new or changed circumstances or reveal heretofore unknowable facts,
these consent decrees do neither; and, to the extent the
dissent to the consent decrees to which Blanca cites
identifies disparate treatment between those five carriers and unidentified other carriers as a potential legal argument, Blanca has failed to even allege that it
was unable to discover any such disparate treatment
77

Cintex Wireless, LLC, Notice of Apparent Liability for Forfeiture, 28 FCC Rcd 17124 (2013); Easy Telephone Services d/b/a
Easy Wireless, Notice of Apparent Liability, 28 FCC Rcd 14433,
14436, para. 8 (2013); Global Connection Inc., of America d/b/a
Stand Up Wireless, Notice of Apparent Liability, 28 FCC Rcd
17116 (2013); i-wireless, LLC, Notice of Apparent Liability for
Forfeiture and Order, 28 FCC Rcd 15381 (2013); Telrite Corporation d/b/a Life Wireless, Notice of Apparent Liability for Forfeiture, 28 FCC Rcd 17108 (2013); First Petition at 38-39, Attach. 4
(DOJ Civil Investigation Demand, No. 14-57 (Jan. 30, 2014)).

App. 72
prior to the release of the consent orders.78 In the absence of such contention, this argument fails to meet
our procedural rules and must be dismissed.
25. Nor can Blanca avoid dismissal by claiming
(as it now does) that the Commission should have inferred alternative legal arguments from its prior filings. In making such contentions, Blanca is attempting
to use its Amended Second Petition to introduce potential arguments that it abandoned or failed to articulate
in its early pleadings, or that at best were contradicted
by other arguments. With respect to the latter category,
the Commission cannot be expected to parse through
inconsistent positions that are not clearly pleaded in
the alternative.79 To constitute new facts under our
procedural rules, “the failure to have the evidence
placed before the agency in the original proceeding
must be of ‘no fault’ of the petitioner.”80 In circumstances where, as here, the petitioner has failed to
clearly articulate its claims in the Application or First
Petition, the petitioner assumes the risk that such
78

See M & M Communications, Inc., Memorandum Opinion
and Order, 2 FCC Rcd 5100, n.5 (CCB 1987) (dismissing newly
raised equal protection argument as noncompliant with section
1.106(b)(2), where petitioner failed to argue that the facts underlying the assertion are a recent occurrence or newly discovered
factpreviously unknowable with reasonable due diligence).
79
Busse Broad. Corp. v. FCC, 87 F.3d 1456, 1461 (D.C. Cir.
1996) (finding that the party seeking review “seem[s] to abandon
its argument . . . by taking inconsistent positions”).
80
AT&T Corp. v. FCC, 363 F.3d 504, 509-10 (D.C. Cir. 2004)
(quoting ICC v. Bhd. of Locomotive Engineers, 482 U.S. 270, 279
(1987)).

App. 73
claims will be precluded under the Commission’s
administrative finality rules.81 The Commission is
not compelled—as Blanca now demands through its
Amended Second Petition—to infer legal arguments
that cannot be readily adduced or to marshal remote
facts not specifically alleged in the Application or First
Petition to support broad legal contentions.82 Or to put
it differently, the Commission is not required to make
Blanca’s case on its behalf.
26. For example, Blanca now points to language
in the First Petition, claiming that the Commission
should have ruled on whether Blanca’s cellular offering should have been treated as a regulated service
for cost-accounting purposes and should not have
81

Time Warner Entertainment Center, LP v. FCC, 144 F.3d
75, 79 (D.C. Cir. 1998) (where issue is raised “in a less than complete way,” the Commission is not afforded a fair opportunity to
pass).
82
See FiberTower Spectrum Holdings, LLC v. FCC, 782 F.3d
692, 696 (D.C. Cir. 2015); Bartholdi Cable Co., Inc. v. FCC, 114
F.3d 274, 279 (D.C. Cir. 1997); Nw. Ind. Tel. Co. v. FCC, 824 F.2d
1205, 1210, n.8 (D.C. Cir. 1987) (no fair opportunity to pass on
argument where appellant “point[ed] out” a circumstance but did
not make an argument based on such circumstance); see also, e.g.,
Tama Radio Licenses of Tampa, Florida, Inc., Memorandum
Opinion and Order, 25 FCC Rcd 7588, 7589, para. 2 (2010) (“The
Commission is not required to sift through an applicant’s prior
pleadings to supply the reasoning that our rules require to be provided in the application for review.”); Red Hot Radio, Inc., Memorandum Opinion and Order, 19 FCC Rcd 6737, 6745, n.63 (2004)
(“Our rules do not allow for a ‘kitchen sink’ approach to an application for review, rather the burden is on the Applicant to set
forth fully its argument and all underlying relevant facts in the
application for review.”).

App. 74
“abandon[ed]” the distinction drawn in the OMD Demand Letter between mobile and fixed service.83 But
that language did not argue that Blanca’s wireless offering should be treated as regulated for cost accounting purposes. Instead, Blanca characterized its service
as a mobile service (CMRS),84 said that any analogy
between its wireless offering and traditional local exchange service was a “red herring,” and invited the
Commission to discount any such analogy.85 In other
words, the Blanca Order correctly concluded, consistent with OMD’s findings and Blanca’s own characterization of its service, that Blanca’s service was
CMRS, a non-rate-regulated mobile service.86
27. For another example, in its Amended Second
Petition, Blanca now claims that the Commission
should have ruled on whether Blanca’s 2013 true-up
with NECA covering payments in the 2011-2013 period should have foreclosed collection of overpayments
for earlier years (2005-2010) relating to the same flaws
83

See Second Petition at 10-11 (citing First Petition at 1, 3,
5, 11, n.10).
84
Blanca Order, 32 FCC Rcd at 10605, n.83.
85
See Application at 12 (explaining that Blanca retained the
use of the “BETRS name merely for continuity purposes” and “at
the end of the day the BETRS discussion is a red herring because
USF funding is available for mobile cellular services—Blanca’s
description of the mobile cellular service is irrelevant and
Blanca’s use of the mobile system is irrelevant”) & n.9 (asserting
that “even if the Commission completely discounts” the analogy
between its service and [Plain Old Telephone Service (POTS)], the
Act and the Commission’s rules specifically permit “USF recovery
for mobile cellular systems”).
86
Blanca Order, 32 FCC Rcd at 10605, para. 34.

App. 75
in reporting.87 But in its First Petition, Blanca never
made such an argument; instead, it discusses the
NECA true up process only to argue that it was not an
admission or concession of wrongdoing or debt liability.88 As explained in the Blanca Order, NECA did not
seek to recover past high-cost distributions from
Blanca for the 2005-2010 period because NECA’s cost
pools operate within a 24-month settlement window.89
And so this is a new argument that Blanca failed to
timely raise and that the Commission must accordingly dismiss.90
28. In sum, Blanca has failed to meet the Commission’s procedural requirements for reconsideration
of the Blanca Order. None of the arguments that
Blanca raises in its Amended Second Petition constitutes new facts or legal arguments that could not
have been raised on or before the deadline for filing
its First Petition. These arguments merely reiterate
what Blanca originally asserted or contended in its
87

See Second Petition Supplement at 2, 5-6 (citing First Petition at 13 n.12, 15 n.16).
88
First Petition at 13 n.12, 15 n.16.
89
Thus, this true-up process was limited, per a contractual
arrangement with its members, to payments starting in 2011. See
Blanca Order, 32 FCC Rcd at 10599-10600, n.37.
90
See GLH Communications, Inc., Order on Reconsideration,
33 FCC Rcd 5926, 5928-29, para. 8 & nn.27-28 (2018) (“We cannot
allow [a party] to sit back and hope that a decision will be in its
favor and then, when it isn’t, to parry with an offer of more evidence. No judging process in any branch of government could
operate efficiently or accurately if such a procedure were allowed.”) (quoting Colorado Radio Corp. v. FCC, 118 F.2d 24, 26
(D.C. Cir. 1941))), aff ’d, 930 F.3d 449 (D.C. Cir. 2019).

App. 76
First Petition, arguments that the Commission fully
considered and rejected, or consist of arguments that
could have been timely raised but were not. Accordingly, we dismiss Blanca’s Amended Second Petition.
B. The Amended Second Petition Is Meritless
29. As an alternative and independent basis for
rejecting Blanca’s Amended Second Petition, we also
find that Blanca’s new arguments—like those previously raised and addressed in the Blanca Order—are
meritless.
30. For example, and contrary to Blanca’s contentions, its true-up with NECA in 2013 was not and
could not be reasonably construed as a settlement of
all potential liability to the government arising from
cost accounting errors.91 NECA is a private association
of wireline carriers, not a government entity, and accordingly has no authority to compromise or waive any
claims on behalf of the government.92 Furthermore,
NECA’s direction to Blanca to revise its 2011 and 2012
91

See Second Petition at 5-6 (stating that “Blanca settled its
audit years ago”) (citing First Petition at 13 n. 12, 15 & n.16) (all
citations refer to the NECA true-up process); Second Petition
Supplement at 5 (asserting that “Blanca settled its accounting
matter with USAC years ago and the FCC’s instant enforcement
action breaches that settlement”).
92
Cf. Farmers Tel. Co. v. FCC, 184 F.3d 1241, 1250 (10th Cir.
1999) (NECA “has no authority” to interpret FCC regulations because it “is neither an independent federal agency nor a subagency of the FCC.”).

App. 77
cost studies does not speak to Blanca’s responsibility
for improper payments it obtained in earlier years or
absolve Blanca of liability for those payments. In fact,
when Blanca revised its cost studies, its contractual
agreement with NECA specifically advised Blanca that
Blanca remained responsible for any support adjustments outside NECA’s two-year window.93 In addition,
the argument is foreclosed by the decision of the U.S.
Court of Appeals for the 10th Circuit in Farmers Telephone v. FCC, which held that companies’ reliance on
NECA rules does not preclude the Commission from
recovering all improper payments,94 including payments outside NECA’s two-year settlement window.95

93

Blanca Order, 32 FCC Rcd at 10559 & n.37 (2017); see
NECA Pool Administration Procedures § 1.6.1, at 1-8 (2012)
(“Any support adjustments accepted and processed by USAC corresponding to a company’s data corrections outside of the 24month settlement window become the obligation of the company.”); id. § 2.1.4, at 2-3 (“While all data entry . . . is prohibited
for months that have fallen out of the 24 month settlement window, adjustments to these months for other purposes (e.g. support
fund true-ups) are performed to company settlements by NECA
in order to comply with FCC rules.”).
94
Farmers Tel. Co. v. FCC, 184 F.3d 1241, 1250-52 (10th Cir.
1999).
95
The case involved a 1997 order which found that NECA
had misinterpreted an FCC regulation that took effect in 1993.
See id. at 1243-47. NECA directed its members to correct their
cost data, but only for a two-year window. Id. at 1246 & n.1. Yet
the Commission went further and “required NECA to calculate
and submit corrected data for each year in which NECA required
its members to follow its faulty calculation.” Id. at 1250 & n.6
(emphasis added). The 10th Circuit Court upheld the Commission’s order in full.

App. 78
31. Further, Blanca mischaracterizes the “history of cellular licensing” to support its contentions
that its cellular service was both a “regulated” and/or
“fixed” service and, therefore, that Blanca was entitled
to the support it received.96 Blanca asserts that, in its
1994 Part 22 Rewrite Order, the Commission adopted
a proposal to eliminate the fixed service requirement
for Basic Exchange Telephone Service (BETRS) (a regulated cellular service) in light of the Commission’s
history of routine waiver of such requirement, and
therefore, a mobile cellular service can be treated as
a regulated service for cost accounting purposes.97
Blanca further contends that the Commission “fixed”
the service location of cellular mobile subscribers at
the subscriber’s billing address.98 Contrary to Blanca’s
contentions, however, the Part 22 Rewrite Order only
adopted a proposal to eliminate a prohibition on the
offering of non-BETRS fixed service in cellular bands
based in part, on the routine waiver of this prohibition
in the past.99 Likewise, the fact that the Commission
96

See Second Petition at 13.
Id. (citing Revision of Part 22 of the Commissioner’s Rules
Governing the Public Mobile Services et al., Report and Order, 9
FCC Rcd 6513, 6571 (1994) (Part 22 Rewrite Order); Revision of
Part 22 of the Commission’s Rules Governing the Public Mobile
Services et al., Notice of Proposed Rulemaking, 7 FCC Rcd 3658,
3672 (1992) (Part 22 Rewrite NPRM)).
98
Id. at 12-13, 14 (citing 47 CFR § 54.307(b)).
99
Id. at 13 (quoting Revision of Part 22 of the Commission’s
Rules Governing the Public Mobile Services et al., Notice of Proposed Rulemaking, 7 FCC Rcd 3658, 3672 (1992)); see Revision of
Part 22 of the Commissioner’s Rules Governing the Public Mobile
Services et al., Report and Order, 9 FCC Rcd 6513, 6571 (1994)
97

App. 79
defines a service location for CMRS providers offering
competitive service in a LEC’s study area for purposes
of the now defunct identical support program is irrelevant to the determination of whether a service is fixed
and subject to rate regulation for purposes of cost accounting and the recovery of rate regulated support by
an incumbent LEC within its study area. Despite
Blanca’s arguments and as previously made clear in
the Blanca Order, by definition, BETRS is a fixed service and CMRS is not.100 BETRS is subject to Commission rate regulation and CMRS is not.101
32. Blanca also attempts to challenge these truisms by asserting that its CMRS resembles a fixed telecommunications service because Blanca offered its
service as a common carrier subject to carrier of last
resort obligations, charged prices for its service at
rates equivalent to those set for wireline service under
(eliminating restriction on the provision of incidental fixed service
in cellular bands).
100
See Blanca Order, 32 FCC Rcd at 10605 & n.84; see also,
e.g., Implementation of Sections 3(n) and 332 of the Communications Act, Regulatory Treatment of Mobile Services, GN Docket
No. 93-252, Second Report and Order, 9 FCC Rcd 1411, 1425,
para. 38 (1994) (generally distinguishing mobile service “provided
through dual-use equipment . . . capable of transmitting while the
platform is moving” from services “provided to or from a transportable platform that cannot move when the communications
service is offered,” and concluding that BETRS is not a mobile
service) (CMRS Second Report and Order); id. at 1455, para.102
(finding that the Rural Radio Service, including BETRS, is a fixed
service).
101
See OMD Demand Letter at 3; Blanca Order, 32 FCC Rcd
at 10605 & n.84.

App. 80
its tariff, and reported costs only from those subscribers that chose CMRS in lieu of landline service.102 But,
a carrier’s voluntary decision to offer CMRS service on
terms defined by a tariff does not transform a mobile
service into BETRS.103 While Blanca acknowledges
that states are preempted from setting rates for cellular service, Blanca alleges that it “regulated its own
rates by offering cellular service under its state tariff ’
and notes that states may petition the FCC for rate
regulation authority.104 Blanca also alleges that it provides its service under NECA tariffs.105 But CMRS is
not eligible for inclusion under either state or federal
tariffs, and thus, these tariffs have no bearing on
whether a service is regulated for cost accounting purposes.106 Moreover, the fact that cellular service is
102

Second Petition at 11 (citing First Petition at 1-3, 5, 11, &
nn.7, 10), 12 (citing First Petition at 4-5, 6-7, 17), 15.
103
Blanca’s many citations to rules and related orders referring to cellular service as an eligible service do not pertain to rateof-return high-cost universal service support, the kind of support
Blanca received between 2005 and 2010. See Second Petition at
11-13.
104
See id. at 11 n.7, 12 (citing 47 U.S.C. § 201, 202, Part 20,
Part 22). In many ways, this contention is merely a different reiteration of its previously raised and rejected argument that wireless services are regulated services.
105
See id.
106
47 U.S.C. § 332(c)(3) (preempting state and local rate and
entry regulation of CMRS unless certain conditions, not applicable here, are met); CMRS Second Report and Order, 9 FCC Red
at 1478, 1479, paras. 173, 177 (finding that tariffs are “not essential to our ability to ensure that non-dominant carriers do not unjustly discriminate in their rates,” and forbearing from imposing
section 203 tariff filing obligations on CMRS); 47 CFR § 20.15(c).

App. 81
subject to regulations other than federal rate regulation has no bearing on whether the service is considered to be a rate-regulated service for cost accounting
purposes.
33. Blanca also asserts that it was eligible to receive support for services provided outside of its designated study area because the Colorado Public Utility
Commission (PUC) did not “strictly regulate telephone
exchange service boundaries.”107 Blanca suggests that
because the Colorado PUC had not, prior to 2011, required an incumbent LEC to use a separate subsidiary
to offer mobile service as a condition of receiving a
competitive ETC designation, “Blanca’s service offering was properly structured.”108 The issue of whether
the Colorado PUC would have permitted Blanca to offer service outside of its designated service area as a
competitive ETC had Blanca given the Colorado PUC
the opportunity to evaluate its service offerings and
certify Blanca as a competitive ETC, however, has
nothing to do with Blanca’s eligibility under the Act
107

Second Petition at 15-16 (arguing that “formal expansion
of the Study Area is not required, because the goal is provision of
service to rural, hard to serve subscribers . . . ”) (citing 47 CFR
§ 54.201(d)). See Revision of Part 22 of the Commission’s Rules
Governing the Public Mobile Services et al., Notice of Proposed
Rulemaking, 7 FCC Rcd 3658, 3672 (1992).
108
Second Petition at 15, n.10; see Application of Union Telephone Company, dba Union Wireless, for Designation as an Eligible Telecommunications Carrier in Colorado, Order Granting
Exceptions, in Part, and Remanding with Directions, Colorado
Public Utilities Commission, DA No. 09A-771T, at 13, paras. 2930 (Colo. Pub. Utilities Comm’n rel. Apr. 26, 2011) (Union Telephone Exceptions Order).

App. 82
and Commission’s rules as a designated ETC to receive
USF support for such areas.109 As explained in the
Blanca Order, Blanca was required under the Act and
the Commission’s rules to have been certified as an
ETC in the relevant area in order to receive any support for such areas,110 and Blanca does not challenge
the Commission’s conclusion that it did not obtain such
a certification.111 Similarly, even if the Colorado PUC
had designated Blanca as a competitive ETC in these
areas and permitted Blanca to offer CMRS without use
of a separate subsidiary, and even if Blanca had used
shared infrastructure to provide both fixed wireless
109

Second Petition at 15. Blanca quotes section 54.201(d) of
the Commission’s rules as support for this contention, but we note
that the quoted section merely requires ETCs to meet certain service obligations in their designated area. It does not create, as
Blanca appears to argue, an open-ended eligibility for support in
any area. 47 CFR § 54.201(d); 47 U.S.C. § 214(e)(5) (defining “service area” as a “geographic area established by a State commission (or the Commission under [section 214(e)(6)] for the purpose
of determining universal service obligations and support mechanisms”).
110
47 U.S.C. §§ 214, 254; 47 CFR § 54.201.
111
See Blanca Order, 32 FCC Rcd at 10607, paras. 36-37. We
note that Blanca offers no evidence that the Colorado PUC had
any opportunity to evaluate Blanca’s mobile offering as a separate
and competitive service potentially eligible to receive service under the (now-defunct) identical support rule. The Commission
had cited the 2011 Colorado PUC decision in the Blanca Order to
illustrate the kinds of conditions the PUC might have imposed
had it been properly informed that Blanca was offering a competitive CMRS offering. Blanca Order, 32 FCC Rcd at 10607 & n.94.
For this reason, the decision further underscores the importance
of preventing this kind of “comingling across regulated, unregulated, and deregulated operations.” Union Telephone Exceptions
Order at 13, paras. 29-30.

App. 83
and mobile services—despite the Commission’s finding
that “Blanca was providing only mobile cellular service” over its wireless infrastructure—Blanca would
have been required by our accounting rules to divide
shared costs between these services in order to determine how much support it was entitled to for offering
regulated services as incumbent LEC and what it
could receive as a competitive ETC.112
34. Blanca is also incorrect in its assertion that
our authority to collect USF overpayments is limited
to forfeiture actions or audit processes.113 Rather, the
Commission routinely resolves disputes regarding
universal service mechanisms and payments through
informal adjudication and collection procedures.114
Throughout this proceeding, the Commission provided
Blanca with notice, an opportunity to be heard, and an
112

See Blanca Order, 32 FCC Rcd at 10595-97, 10606, paras
4-5, 35; 47 CFR § 32.14(c).
113
See Second Petition at 4-9; see also Blanca Order, 32 FCC
Rcd at 10610-11, para. 42 (explaining that “[w]hen the Commission determines whether a specific set of USF payments is erroneous or illegal, it is making a fact-specific, individualized
determination applying current laws to past conduct, i.e., an informal adjudication”); see also id. at 10611-13, paras. 43-46 (distinguishing such an action from a forfeiture action).
114
See Blanca Order, 32 FCC Rcd at 10598-99, 10608, paras.
10-11, 39; see also 47 CFR Part 54 Subpt. I (providing for FCC
review of USAC decisions); id. §§ 1.1901(e), 1.1911 (providing
that the FCC may issue written demands for “amounts due the
United States from . . . overpayments”); see also N.J. Coal. for
Fair Broad. v. FCC, 580 F.2d 617, 618-19 (D.C. Cir. 1978) (per
curiam) (explaining that Section 503(b) gives the Commission authority in certain situations to assess a forfeiture penalty in addition to other available remedies).

App. 84
explanation for its decision: all the process to which
Blanca is constitutionally and statutorily entitled.115
35. Contrary to Blanca’s contentions and as discussed at length in the Blanca Order, this debt collection action is not subject to special procedures in
section 503 of the Act governing the Commission’s assessment of penalties.116 The Commission is not imposing a penalty for Blanca’s erroneous cost accounting
practices but “merely seeking to recover sums improperly paid” because of those practices.117 In contrast, the
December 2017 negotiated settlements that Blanca
cites in its Amended Second Petition were assessing
forfeiture penalties in connection with a wholly unrelated USF program (Lifeline) imposed in addition to,
and separate from, the recovery of USF overpayments.118 In each of these cases, unlike this one, USAC
115

Pension Ben. Guar. Corp. v. LW Corp., 496 U.S. 633, 65355 (1990) (“[w]hen conducting informal adjudications, an agency
need only comply with “the minimal requirements . . . set forth in
the APA, 5 U.S.C. § 555”); Riggins v. Goodman, 572 F.3d 1101,
1110 (10th Cir. 2009) (“[D]ue process is required not before the
initial decision or recommendation to terminate is made, but instead before the termination actually occurs.”).
116
Second Petition at 4-10; Blanca Order, 32 FCC Rcd at
10610-13, paras. 42-46.
117
See Blanca Order, 32 FCC Rcd at 10612, para. 45.
118
See, e.g., Cintex Wireless, LLC, Notice of Apparent Liability for Forfeiture, 28 FCC Rcd 17124, 17126 & n.21 (2013) (directing USAC, when it determines that an ETC has sought support
from the Fund for an intra-company duplicate, to require the ETC
to report to USAC all months when the ETC received duplicative
support for each such subscriber and to recover all duplicative
support received) (emphasis added); id. at 17130-31, para. 16
(stating that the penalties that result from the NAL are separate

App. 85
had already and separately “recovered the overpayments” sought by the Commission. Blanca’s apparent
reliance on then-Commissioner Clyburn’s separate dissenting opinions in these cases is thus misplaced, since
any supposed disparity in forfeiture penalties has no
bearing on the investigation and collection of erroneously or wrongfully paid high-cost support where, as
here, Blanca has resisted recovery of the overpayments
and the Commission has not sought to assess any additional penalty or forfeiture.119
36. Finally, Blanca does not overcome the Commission’s determination in the Blanca Order that USF
is a form of federal funding subject to the Debt Collection Improvement Act by referencing the inapposite
appellate court decisions, United States ex rel. Shupe v.
Cisco Systems, Inc. and Farmers Tel. Co. v. FCC.120 We
stress that Shupe addressed a materially different
statute—“an outdated version” of the False Claims
Act—not the federal debt collection laws.121 Shupe held
from any amounts that the ETC is required to pay by USAC to
make the USF whole).
119
See Second Petition Supplement at 1.
120
See Second Petition at 17 (citing United States ex rel.
Shupe v. Cisco Systems, Inc., 759 F.3d 379 (5th Cir. 2014) (per
curiam); Farmers Tel. Co. v. FCC, 184 F.3d 1241, 1250 (10th Cir.
1999)). We note that these cases and the associated arguments
were raised in Blanca’s late-filed First Supplement. See First Supplement at 15-16; Blanca Order, 32 FCC Rcd at 10604, para. 28
(denying Blanca’s motions to accept its late-filed First and Third
Supplements).
121
Shupe, 759 F.3d at 383 (citing 31 U.S.C. § 3729 (2008)).
We note that contributions to the USF are now made to and
housed within the U.S. Treasury and that payments made to

App. 86
that statements made to USAC before 2009 did not implicate the amended False Claims Act because USAC
is not the government itself (although it administers
USF at the government’s direction) and because USF
monies were not housed within the U.S. Treasury.122
That holding has no bearing on this proceeding, which
turns not on the False Claims Act, which addresses
fraud claims, but instead on whether Blanca received
over-payments.123 Debts recoverable under the federal
debt collection laws, in contrast to funds collected under the False Claims Act, are “not ‘limited to funds that
are owed to the Treasury,’ but include[ ] all funds ‘owed
the United States,’ including overpayments from any
agency-administered program.”124 Blanca cites Farmers for the proposition that NECA/USAC performs no
adjudicatory or governmental functions, but, contrary
to Blanca’s contention, this proposition does not mean
that USF is not a federal program.125 While USAC may
USF recipients are now made from the U.S Treasury. See
https://www.usac.org/cont/about/transfer-to-the-us-treasury.aspx.
See also Blanca Order, 32 FCC Rcd at 10614-10616, paras. 51-54.
122
Shupe, 759 F.3d at 384-88.
123
31 U.S.C. § 3701(b)(1)(C); accord 47 CFR § 1.1901(e)
(“debt” includes “amounts due the United States from . . . overpayments”).
124
Blanca Order, 32 FCC Rcd at 10614, para. 51 (some internal quotation marks omitted). It has long been established that
this provision extends to any program the government finances,
Adair v. Rose Law Firm, 867 F. Supp. 1111, 1115 (D.D.C. 1994),
and Congress did nothing to disturb that interpretation when it
amended the federal debt collection laws in 1996.
125
See Second Petition at 17-18 (citing Farmers, 184 F.3d at
1250).

App. 87
handle day-to-day operations, the Commission is ultimately responsible for creating “specific, predictable,
and sufficient . . . mechanisms to preserve and advance
universal service,”126 and “establish[ing] any necessary
cost allocation rules, accounting safeguards, and guidelines.”127 As stressed in the Blanca Order, both the
United States Supreme Court and Congress have accordingly described universal service programs as
providing “federal assistance” or “federal funds.”128 The
overpayments here are therefore recoverable as a debt
owed to the United States under the federal debt collection laws.
C. Blanca’s Emergency Request Is Procedurally Defective and Meritless
37. We separately dismiss Blanca’s Emergency
Request for stay of a Commission order.129 Under the
Commission’s rules, such a request must be filed as a
separate pleading.130 Blanca filed its request as part of

126

47 U.S.C. § 254(b)(5).
Id. § 254(k). USAC has no control over how these funds
are used but instead must collect and disburse them according to
specific rules established by the FCC. See 47 CFR § 54.702(c)
(providing that USAC “may not make policy, interpret unclear
provisions of the statute or rules, or interpret the intent of Congress,” and “[w]here the Act or the Commission’s rules are unclear, or do not address a particular situation, [USAC] shall seek
guidance from the Commission”).
128
Blanca Order, 32 FCC Rcd at 10614, para. 51 & n.148.
129
Second Petition at 8.
130
47 CFR § 1.44(e).
127

App. 88
its petition for reconsideration, so we dismiss this request as procedurally defective.131
38. Nor are we obligated to treat Blanca’s Response to the Administrative Offset Notice as a separate request for stay simply because Blanca raised
several arguments in its response challenging the
timing of the collection as well as the collection itself,
many of which Blanca had raised in its Amended
Second Petition.132 As already explained by the 10th
Circuit Court of Appeals, the Commission’s Administrative Offset Notice merely informed Blanca of the
Commission’s intent to pursue recoupment in accordance with its findings in the Blanca Order and the debt
collection practices described in the Demand Letter.133
Because the Administrative Offset Notice did not create legal obligations or impose legal consequences,

131

In addition, to the extent the Emergency Request seeks
suspension of Blanca’s red light status, the request is dismissed
as moot. As Blanca has since recognized, its red light status was
suspended on or about January 9, 2018. Motion for Immediate
Action on Petition for Reconsideration and Emergency Request
for Immediate § 1.1910(b)(3)(i) Relief at 5 n.10 & attachment p.
00003 (filed Nov. 25, 2019) (Motion for Immediate Action); Administrative Offset Notice Response at 2.
132
See Response to Administrative Offset at 2 (referencing
argument in its Emergency Request that under section
1.910(b)(3)(i) of the Commission’s rules, the Commission cannot
pursue collection of a debt during the pendency of an agency or
judicial appeals); Second Petition at 24.
133
Blanca Tel. Co. v. FCC, Case No. 18-9502, Order, at 2, n.1
(10th Cir. Oct. 25, 2018) (determining that the Blanca Administrative Office Notice did not constitute reviewable agency action).

App. 89
there was nothing to stay as a consequence of this notice.
39. We also reject Blanca’s Emergency requests
(and similar arguments in the Response to the Notice
of Administrative Offset) on the merits. Blanca seeks
to stay the Commission’s determination that the improper USF payments constitute a debt owed to the
United States and its instruction to staff to pursue collection of the unpaid debt, arguing that it is entitled to
such stay during the pendency of its agency or judicial
appeals under the Commission’s rules.134 We reject
that request for several reasons. For one, the rule cited
only suspends application of the Commission’s red
light rule, which as noted above Blanca has since recognized has already been suspended. Thus, the rule
has not prevented prosecution of any pending applications by Blanca,135 or receipt by Blanca of credit for
monthly payments due from the USF fund. We note
that the rule offers no relief from other consequences
of debt incurrence, including the administrative offset
of future USF payments in accordance with the Commission’s rules and the Debt Collection Improvement
Act, after having accorded Blanca notice and an opportunity for review within the Commission of the

134

See Second Petition at 28; 47 CFR § 1.1910(b)(3)(i); see
also Administrative Offset Notice Response at 1-2.
135
In its Second Petition, Blanca expresses concern that its
application to assign a license has not been processed or granted.
Second Petition at 24. These delays are not associated with
Blanca’s red light status, which as noted above, has been suspended.

App. 90
determination of indebtedness.136 For another, a petitioner must show good cause for a stay,137 and Blanca’s
filing does not even attempt to show that it has satisfied the traditional four-factor test for demonstrating
such good cause.138 We note that similar requests by
Blanca to stay the Blanca Order have already been denied by the 10th Circuit Court of Appeals.139
40. For all these reasons, the Blanca Order and
subsequent collection efforts remain in effect.140
136

See 31 U.S.C. § 3716; 47 CFR §§ 1.1911 et seq. Wholly
apart from its remedies under the Debt Collection Improvement
Act, “[t]he government has the same right ‘which belongs to every
creditor, to apply the unappropriated moneys of his debtor, in his
hands, in extinguishment of the debts due to him.’ ” United States
v. Munsey Trust Co., 332 U.S. 234, 239 (1947); accord, ATC Petroleum, Inc. v. Sanders, 860 F.2d 1104, 1112 (D.C. Cir. 1988).
137
47 CFR § 1.106(n).
138
See, e.g., Rural Call Completion, Third Report and Order
and Order, 33 FCC Rcd 8400, 8417, para. 47 & n.155 (2018) (Rural Call Completion Order). See also Washington Metro. Area
Transit Comm’n v. Holiday Tours, Inc., 559 F.2d 841, 843 (D.C.
Cir. 1977); Virginia Petroleum Jobbers Ass’n v. Federal Power
Comm’n, 259 F.2d 921, 925 (D.C. Cir. 1958)). Pursuant to this
standard, the movant must show that (1) it is likely that it will
prevail on the merits; (2) that it will suffer irreparable harm absent grant of the preliminary relief; (3) that other interested parties will not be harmed if the stay is granted; and (4) that the
public interest would favor the grant. Rural Call Completion Order, 33 FCC Rcd at 8417, para. 47.
139
Blanca Tel. Co. v. FCC, Case No. 17-1451, Order (10th
Cir. Dec. 29, 2017) (denying motion for stay pending appeal);
Blanca Tel. Co. v. FCC, Case No. 18-9502, Order (10th Cir. Apr.
5, 2018) (denying motion for injunction pending appeal).
140
Based on action taken in this order, we dismiss as moot
Blanca’s recent Motion for Immediate Action.

App. 91
IV. ORDERING CLAUSES
41. Accordingly, IT IS ORDERED that, pursuant
to the authority contained in sections 1, 2, 4(i), 4(j), 214,
254, and 405 of the Communications Act of 1934, as
amended, 47 U.S.C. §§ 151, 152, 154(i), 154(j), 214, 254,
405, and sections 1.106 and 1.115 of the Commission’s
rules, 47 CFR §§ 1.106, 1.115, the Amended Second Petition is hereby DISMISSED, or alternatively, DENIED.
42. IT IS FURTHER ORDERED that, pursuant
to pursuant to the authority contained in sections 1, 2,
4(i), 4(j), 5, 214, and 254 of the Communications Act of
1934, as amended, 47 U.S.C. §§ 151, 152, 154(i),
154(j), 155, 214, 254, and sections 1.43 and 1.44 of
the Commission’s rules, 47 CFR §§ 1.43, 1.44, that the
Emergency Request is DISMISSED, or alternatively,
DENIED.
43. IT IS FURTHER ORDERED that the Motion
for Immediate Action is DISMISSED AS MOOT.
44. IT IS FURTHER ORDERED that a copy of
this Order on Reconsideration shall be sent by first
class mail and certified mail, return receipt requested,
to Blanca Telephone Company’s attorney, Timothy E.
Welch, Hill and Welch, 1116 Heartfields Drive, Silver
Spring, MD 20904.
45. IT IS FURTHER ORDERED that, pursuant
to section 1.103 of the Commission’s rules, 47 CFR

App. 92
§ 1.103, this Order SHALL BE EFFECTIVE upon release.
FEDERAL COMMUNICATIONS
COMMISSION
Marlene H. Dortch
Secretary

App. 93
Before the
Federal Communications Commission
Washington, D.C. 20554
In the Matter of
Blanca Telephone Company
Seeking Relief from the June
22 [sic], 2016 Letter Issued by
the Office of the Managing Director Demanding Repayment
of a Universal Service Fund
Debt Pursuant to the Debt
Collection Improvement Act

)
) CC Docket No. 96-45
) FCC 17-162
)
)
)
)
)
)

MEMORANDUM OPINION AND ORDER
AND ORDER ON RECONSIDERATION
Adopted:
December 8, 2017

Released:
December 8, 2017

By the Commission: Commissioners Clyburn and O’Rielly issuing separate statements; Commissioner
Rosenworcel concurring.
I.

INTRODUCTION

1. The high-cost universal service support program (the high-cost program) supports the deployment
of communications networks in high-cost, rural areas.
In 1997, pursuant to section 254 of the Communications Act of 1934, as amended (Act),1 the Colorado Public Utility Commission designated Blanca Telephone
1

47 U.S.C. § 254.

App. 94
Company (Blanca) as an eligible telecommunications
carrier (ETC) in parts of Alamosa and Costilla counties.2 As a result, Blanca became eligible to receive
high-cost support for providing local exchange telephone service in its designated study area.3 As a rateof-return incumbent local exchange carrier (incumbent
LEC), the amount of high-cost support Blanca received
was based on the costs it incurred in providing rateregulated telephone service in its designated study
area. Soon after its designation, Blanca began to offer
commercial mobile radio service (CMRS), a nonregulated service, both within and outside of its study area.
Thereafter, Blanca included the costs of this nonregulated service in the regulated cost accounts it submitted to the National Exchange Carriers Association
(NECA) with respect to its designated study area, thus
inflating the amount of high-cost support Blanca received from the Universal Service Fund (USF). In
2012, NECA discovered Blanca’s improper inclusion in
its rate base of nonregulated costs. NECA directed
Blanca to correct its cost accounting for 2011 and later
2

See Public Utilities Commission of the State of Colorado,
Commission Order Granting Application for Designation as an
Eligible Telecommunications Carrier, Docket No. 97A-506T, Decision No. C97-1389, at 3, para. 2 (Dec. 17, 1997); 47 U.S.C.
§ 254(e).
3
A study area is a geographic segment in which an incumbent local exchange carrier is designated as an ETC. Such segment generally corresponds to the carrier’s “entire service
territory within a state.” See Petitions for Waivers Filed by San
Carlos Apache Telecomms. Util., Inc., & U S W. Commc’ns, Inc.,
AAD 96-52, Memorandum Opinion and Order, 11 FCC Rcd 14591,
14592, para. 4 (Acct. & Aud. Div. 1996).

App. 95
years, and the Commission’s Office of the Managing
Director (OMD) directed Blanca to return $6,748,280
in improperly paid universal service support for 20052010 with respect to Blanca’s designated study area.
2. Blanca now challenges the Commission’s efforts to collect universal service overpayments from
2005 to 2010.4 We affirm OMD’s directive that Blanca
must repay the $6,748,280 in universal service support
to which it was not entitled.
II.

Background
A. Regulatory Framework

3. The high-cost universal service support program is one of four universal service programs created
by the Federal Communications Commission (FCC or
Commission) to fulfill its statutory mandate to help
ensure that consumers have access to modern communications networks at rates that are reasonably
comparable to those in urban areas.5 Under the
4

See Emergency Application for Review, CC Docket No. 9645 (filed June 16, 2016) (Application); Petition for Reconsideration, CC Docket No. 96-45 (filed June 24, 2016) (Petition). The two
petitions raise substantially similar issues, and therefore, in the
interest of expediency, we consider these petitions at the same
time. See Letter from Dana Shaffer, Deputy Managing Director,
FCC Office of Managing Director, to Alan Wehe, General Manager, Blanca Telephone Company (June 2, 2016) (OMD Letter).
5
See 47 U.S.C. § 151 (directing the Commission “to make
available, so far as possible, to all the people of the United States
. . . a rapid, efficient, Nation-wide and world-wide wire and radio
communications service with adequate facilities at reasonable
charges. . . .”).

App. 96
Commission’s rules governing the high-cost program,
incumbent LECs and competitive carriers designated
as ETCs may receive high-cost support, but the legal
and administrative framework for determining how
much support they receive is different.
1. Rate-of-Return High-Cost Support
4. Pursuant to the Commission’s rules in effect
at the time in question, rate-of-return incumbent LECs
designated as ETCs, like Blanca, received high-cost
support based on their embedded costs in providing local exchange service to fixed locations in high-cost areas.6 Such support was intended to ensure the
availability of basic telephone service at reasonable
rates.7 To that end, the Commission’s accounting and
cost allocation rules worked to ensure that incumbent
LECs received a reasonable return on investment in
the deployment and offering of supported services in
high-cost areas within their respective study areas.8
6

Federal-State Joint Board on Universal Service, MultiAssociation Group (MAG) Plan for Regulation of Interstate Services of Non-Price Cap Incumbent Local Exchange Carriers and
Interexchange Carriers, CC Docket Nos. 96-45, 00-256, Report
and Order, 16 FCC Rcd 11244, 11248-49, paras. 8-10 (2001); see
also Special Access for Price Cap Local Exchange Carriers Order,
WC Docket No. 05-25, Report and Order, 27 FCC Rcd 10557,
10562, para. 8 (2012).
7
47 U.S.C. § 254(b)(3); see also, e.g., Connect America Fund
et al., WC Docket Nos. 10-90 et al., Notice of Proposed Rulemaking and Further Notice of Proposed Rulemaking, 26 FCC Rcd
4554, 4572, para 46 (2011).
8
See 2000 Biennial Regulatory Review – Comprehensive Review of the Accounting Requirements and ARMIS Reporting

App. 97
By limiting the availability of such support to a rateof-return incumbent LEC’s regulated costs within its
study area, the accounting and cost allocation methods
countered the incentive to engage in anticompetitive
practices, such as predatory cross-subsidization, that
might dampen competitive markets for other forms of
communication technology.9 As the Commission has
Requirements for Incumbent Local Exchange Carriers, CC Docket
Nos. 00-199 et al., Report and Order and Further Notice of Proposed Rulemaking, 16 FCC Rcd 19913, 19960-61, paras. 126-27
(2001) (modifying section 32.11 of the Commission’s rules to make
explicit that Part 32 accounting rules applied only to incumbent
LECs, as that term is defined in section 251(h)(1) of the Act, and
any other company deemed dominant); see also Policy and Rules
Concerning Rates for Competitive Common Carrier Services and
Facilities Authorizations Therefor, First Report and Order, 85
FCC 2d 1, 4, para. 15 (1980) (explaining that dominant carriers
have “substantial opportunity and incentive to subsidize the rates
for [their] more competitive services with revenues obtained from
[their] monopoly or near-monopoly services”).
9
See Implementation of the Telecommunications Act of 1996:
Accounting Safeguards Under the Telecommunications Act of
1996, CC Docket No. 96-150, Report and Order, 11 FCC Rcd
17539, 17550-51, para. 25 (1996) (explaining that the safeguards
“were designed to keep incumbent local exchange carriers from
imposing the costs and risks of their competitive ventures on interstate telephone ratepayers, and to ensure that interstate ratepayers share in the economies of scope realized by incumbent
local exchange carriers”); see also Policy & Rules Concerning
Rates for Dominant Carriers, CC Docket No. 87-313, Report and
Order and Second Further Notice of Proposed Rulemaking, 4 FCC
Rcd 2873, 2934, para. 117 (1989) (explaining a “natural tension
. . . exists between competition and rate of return, which surfaces
in the practice of cost shifting, can be avoided through the use of
incentive regulation, which blunts the incentives to shift costs
from more competitive services to less competitive services”);
Verizon Commc’ns, Inc. v. Fed. Commc’ns Comm’n, 535 U.S. 467,
487 (2002) (reciting history of various methods of regulating

App. 98
explained, “[t]hese rules ensure that carriers compete
fairly in nonregulated markets and that regulated
ratepayers do not bear the risks and burdens of the
carriers’ competitive, or nonregulated, ventures.”10
5. Rate-of-return carriers record their investments, expenses, and other financial activity in the
Part 32 uniform system of accounts (USOA), which is
divided into two types of accounts: regulated and
nonregulated accounts.11 Investment and expenses
telecommunications rates and services and the sometimes perverse incentives arising therefrom).
10
Wireline Competition Bureau Biennial Regulatory Review, WC Docket No. 04-179, Staff Report, 20 FCC Rcd 263, 318
(2005); See Sandwich Isles Communications, Inc., WC Docket No.
10-90, Order, 31 FCC Rcd 12999, 13002, para. 8 (2016) (Sandwich
Isles Order).
11
47 CFR § 32.14 (defining “regulated accounts” to include
“the investments, revenues and expenses associated with those
telecommunications products and services to which the tariff filing requirements contained in Title II of the [Act], are applied,
except as may be otherwise provided by the Commission,” and
“those telecommunications products and services to which the
tariff filing requirements of the several state jurisdictions are applied . . . , except where such treatment is proscribed or otherwise
excluded from the requirements pertaining to regulated telecommunications products and services by this Commission”); see also
generally 47 CFR Parts 32 (collecting cost data and separation
into various accounts in accordance with the USOA); 36, Subpart
F (costs and revenues are divided between those that are regulated and nonregulated, interstate and intrastate); and 64, Subpart I (assignment or allocation of costs and revenues associated
with regulated and nonregulated activities); see also Connect
America Fund et al., WC Docket No. 10-90 et al., Report and Order et al., 29 FCC Rcd 7051, 7069, para. 58 (2014) (moving the
rules regarding high-cost loop support and safety net additive
from Part 36, subpart F, to Part 54, subpart M, to consolidate all

App. 99
entirely associated with the provision of a regulated
activity, or that are used for both regulated and nonregulated services, are recorded in the regulated accounts.12 Investment and expenses entirely associated
with the provision of nonregulated activity are assigned to the nonregulated accounts and are not included when determining a carrier’s interstate rate
base or revenue requirement.13 Investment and expenses recorded in the regulated accounts of the USOA
are then subdivided in accordance with procedures
contained in Part 64 of the Commission’s rules.14 Those
rules generally provide that costs shall be directly assigned to either regulated or nonregulated activities
where possible, and common costs associated with both
regulated and nonregulated activities are allocated according to a hierarchy of principles.15 To the extent
costs cannot be allocated based on direct or indirect
cost causation principles, they are allocated based on a
ratio of all expenses directly assigned or attributed to
regulated and nonregulated activities.16 The investment and expenses allocated to nonregulated services
through this process are excluded from the development of the regulated interstate rate base and revenue
high-cost rules in Part 54, and make conforming changes
throughout Part 54) (April 2014 Connect America Report and Order).
12
See 47 CFR § 32.14(c).
13
See id. § 32.14(f ).
14
See id. §§ 64.901-905.
15
See id. § 64.901.
16
See id. § 64.901(b)(3)(iii).

App. 100
requirement. The regulated investment and expenses
remaining after the application of the Part 64 process
are then split between the intrastate and interstate jurisdictions in accordance with the separations process
described in Part 36.17 The regulated interstate investment and expenses flowing from the separations process are the inputs to the development of cost-based
rates and support programs.
2. Identical Support
6. During the relevant time frame, carriers designated by the relevant state or the Commission as
competitive ETCs were eligible to receive the same
per-line amount of high-cost universal service support
as the incumbent LEC serving the same area.18 As a
result, competitive ETCs were not required to conduct
cost studies or to allocate costs between regulated and
nonregulated services.
7. The difference in the support calculation requirements for rate-of-return LECs and competitive
ETCs reflected the different policy goals of the two

17

See id. § 36.1 et seq.
See Connect America Fund et al., WC Docket No. 10-90 et
al., Report and Order and Further Notice of Proposed Rulemaking, 26 FCC Rcd 17663, 17825, para. 498 (2011) (explaining that
identical support provides competitive ETCs the same per-line
amount of high-cost universal service support as the incumbent
LEC serving the same area) (USF/ICC Transformation Order),
pets. for review denied sub nom. In re: FCC 11-161, 753 F.3d 1015
(10th Cir. 2014).
18

App. 101
kinds of support. The rate-of-return support mechanism worked to ensure that the incumbent LEC
deemed to hold market power received a reasonable return on its investment in the provision of telecommunications services to fixed locations in high-cost areas.
Identical support, in contrast, was intended to ensure
that “the support flows” to the carrier “incurring the
economic costs of serving that line,” “in order not to discourage competition in high-cost areas.”19 Accordingly,
the Commission made high-cost support “portable” on
a per-line basis to any competitive ETC providing service through its “owned and constructed facilities.”20

19

Federal-State Joint Board on Universal Service, CC
Docket No. 96-45, Report and Order, 12 FCC Rcd 8776, 8932-33,
paras. 286-287 (1997) (First Report and Order) (subsequent history omitted).
20
Id.; see also Federal-State Joint Board on Universal Service, CC Docket No. 96-45, Ninth Report and Order and Eighteenth Order on Reconsideration, 14 FCC Rcd 20432, 20480, para.
90 (1999) (explaining that the identical support rule is consistent
with principle of competitive neutrality where a competitive ETC
would compete directly against incumbent LECs for existing customers). In May 2008, the Commission adopted an “interim,
emergency cap” on identical support which reduced the total
amount of identical support available to ETCs serving the state
by a fixed percentage on a statewide basis, unless the recipient
demonstrated, on an individual basis, and before the Commission
“that its costs met the support threshold in the same manner as
the [incumbent LEC serving the designated area].” See High-Cost
Universal Service Support; Federal-State Joint Board on Universal Service, WC Docket No. 05-337, CC Docket No. 96-45, Order,
23 FCC Rcd 8834, 8837-50, paras. 6-39 (2008). In 2011, the Commission eliminated identical support. See also USF/ICC Transformation Order 26 FCC Rcd at 17825, para. 498, 17830–31, paras.
502, 513–14.

App. 102
Moreover, because the Commission adopted the identical support mechanism in furtherance of efficient solutions, competitive ETCs could qualify for identical
support, “regardless of the technology used.”21
3. Administration of Support and Collection Efforts
8. Rate-of-return incumbent LECs submit their
cost data to NECA which is a membership organization of incumbent LECs. NECA is responsible for collecting its members’ cost study data and filer
certifications of that data, and any other information
necessary for NECA to calculate the amount of HighCost Loop Support (HCLS) which its members are eligible to receive.22 NECA submits the results of its
21

See First Report and Order. 12 FCC Rcd at 8842, para. 48
(explaining that the newly adopted competitive neutrality principle would “facilitate a market-based process whereby each user
comes to be served by the most efficient technology and carrier”
and prevent disparities in funding that would give an unfair competitive advantage by restricting the entry of potential service
providers); Rural Cellular Ass’n v. Fed. Commc’ns Comm’n, 588
F.3d 1095, 1104-05 (D.C. Cir. 2009) (emphasizing that the competitive neutrality principle “does not require the Commission to
provide the exact same levels of support to all ETCs”).
22
See Connect America Fund et al., WC Docket No. 10-90 et
al., Notice of Proposed Rulemaking and Further Notice of Proposed Rulemaking, 26 FCC Rcd 4554, 4796, para. 476 (2011) (explaining that NECA collects data necessary for the calculation of
HCLS while USAC administers other aspects of the fund, including identical support); 47 CFR §§ 36.611-613, 54.1305-1306 (detailing incumbent LEC submission of cost data to NECA), 54.1307
(detailing NECA’s submission of cost data to USAC); 54.707(b)
(establishing USAC’s authority obtain all carrier submissions,

App. 103
calculations to the Universal Service Administrative
Company (USAC), which is responsible for day-to-day
administration of the high-cost support program.23 In
addition to the information it receives from NECA,
USAC collects carrier data and information relevant to
the calculation of other forms of support.24
9. By contrast, to initiate the identical support
process, during the period that it was available, a competitive ETC would submit line count data to USAC,
which in turn, would trigger a corresponding obligation from the incumbent LEC serving the designated
area to submit quarterly line count data to USAC to
determine both projected and actual trued-up identical
support for competitive ETCs.25
10. When submitting data to either NECA or
USAC, carriers certify the accuracy of the data reported.26 As administrator of the USF, USAC has the
and underlying information from NECA); see also id. § 69.601 et
seq.
23
See Changes to the Board of Directors of the National Exchange Carrier Association, Inc., Federal State Board on Universal Service, CC Docket Nos. 97-21 and 96-45, Report and Order
and Second Order on Reconsideration, 12 FCC Rcd 18400, 18412,
para. 18 (1997).
24
See 47 CFR §§ 36.611, 36.612, 54.307, 54.903; High-Cost
Universal Service Support et al., WC Docket No. 05-337 et al., Order, 23 FCC Rcd 8834, 8846, paras. 27-28 (2008).
25
47 CFR §§ 54.307, 54.807, 54.901(b), 54.903(a)(2).
26
See id. § 69.601(c) (requiring certification of the accuracy
of USF data submitted to NECA); id. § 54.904(a) (requiring certification that all interstate common line support receive [sic] “will
be used only for the provision, maintenance, and upgrading of facilities and services for which the support is intended”); id. § 54.314

App. 104
authority and responsibility to audit USF payments.27
Pursuant to a separate statutory authority in the Inspector General Act of 1978, the FCC’s Office of Inspector General (OIG) also initiates investigations of USF
payments to beneficiaries to coordinate prosecutions
for waste, fraud, and abuse.28 The Commission has designated the Managing Director as the agency official
responsible for ensuring “that systems for audit followup and resolution are documented and in place, that
timely responses are made to all audit reports, and
that corrective actions are taken.”29 The Commission
resolves contested audit recommendations and findings, either on appeal from the Wireline Competition

(requiring state commissions (or the rural telephone company itself when not subject to the jurisdiction of the state) to certify that
the support received by a rural telephone company will only be
used for its intended purpose); see also, e.g., Instructions for Completing Connect America Fund Broadband Loop Support, Actual
Cost and Revenue Data, Form 509 (requiring certification of accuracy and compliance with Commission’s cost allocation rules
when submitting data for true up of interstate common line support), at http://www.usac.org/_res/documents/hc/pdf/forms/509i.pdf.
27
47 CFR § 54.707 (endowing USAC with authority to audit
carriers).
28
5 U.S.C. § App. 3 App.; Adair v. Rose Law Firm, 867
F. Supp. 1111, 1116 (D.D.C. 1994) (concluding that, based on the
legislative history of the Inspector General Act of 1978, “Congress
understood the Act to give the Inspector General the authority to
investigate the recipients of federal funds”).
29
See Schools and Libraries Universal Service Support
Mechanism, CC Docket No. 02-6, Fifth Report and Order and Order, 19 FCC Rcd 15808, 15834, para. 76 (2004).

App. 105
Bureau (WCB) or directly, if the challenge raises novel
questions of fact, law, or policy.30
11. The Commission has also long emphasized
its authority and obligation to recover USF sums disbursed contrary to Commission rules.31 Under section
3701 of the Debt Collection Improvement Act (DCIA),
the Commission has authority to determine whether a
30

47 CFR § 54.722(a) (“Requests for review of Administrator
decisions that are submitted to the Federal Communications
Commission shall be considered and acted upon by the Wireline
Competition Bureau; provided, however, that requests for review
that raise novel questions of fact, law or policy shall be considered
by the full Commission.”); 47 U.S.C. § 155(c)(4) (“Any person aggrieved by any such order, decision, report or action [taken on delegated authority] may file an application for review by the
Commission within such time and in such manner as the Commission shall prescribe, and every such application shall be
passed upon by the Commission.”); id. § 405(a) (“After an order,
decision, report, or action has been made or taken in any proceeding by the Commission, or by any designated authority within the
Commission pursuant to a delegation under section 155(c)(1) of
this title, any party thereto, or any other person aggrieved or
whose interests are adversely affected thereby, may petition for
reconsideration only to the authority making or taking the order,
decision, report, or action; and it shall be lawful for such authority, whether it be the Commission or other authority designated
under section 155(c)(1) of this title, in its discretion, to grant such
a reconsideration if sufficient reason therefor be made to appear.”).
31
See, e.g., Comprehensive Review of the Universal Service
Fund Management, Administration, and Oversight, et al., CC
Docket No. 96-45 et al., Report and Order, 22 FCC Rcd 16372,
16386, para. 30 (2007) (Comprehensive Report and Order); see
generally, Changes to the Board of Directors of the National Exchange Carrier Association, Inc., Federal-State Joint Board on
Universal Service, CC Docket Nos. 97-21 and 96-45, Order, 15
FCC Rcd 22975 (2000).

App. 106
debt is owed to the Commission.32 The DCIA and the
Federal Claims Collection Standards (FCCS) promulgated by the Department of Treasury and the Department of Justice to implement the DCIA require the
Commission to aggressively collect all debt owed to it.33
The Commission has delegated to the Commission’s
Managing Director and the Managing Director’s designee authority to make administrative determinations pursuant to the DCIA.34
B. The Investigations of Blanca’s Cost Accounting and the OMD Letter
12. Between 2005 until 2013, as a rate-of-return
incumbent LEC, Blanca self-reported what it represented to be the costs and revenues of providing fixed
local exchange service in its study area to NECA and
USAC. NECA and USAC relied upon the accuracy and
completeness of Blanca’s reporting to calculate the specific disbursements Blanca received over this time
frame.35
13. In 2008, the FCC’s OIG commenced an investigation into Blanca’s receipt of high-cost support beginning with 2004. In 2012, during the pendency of the
32

31 U.S.C. §3701(b); see also 31 CFR §900.2(a) (A debt is “an
amount of money, funds, or property that has been determined by
an agency official to be due to the United States . . . ”); 47 CFR
§1.1901(e).
33
31 U.S.C. §3711(a); 31 CFR § 901.1(a).
34
47 CFR § 0.231(f ).
35
See Application at 24 (acknowledging that Blanca sought
support for mobile services).

App. 107
OIG investigation, and pursuant to its data reconciliation policies, NECA conducted a review of Blanca’s
2011 Cost Study, and concluded that Blanca improperly included costs, loops, and revenues associated with
providing CMRS, which is a non-regulated service, in
its 2011 Cost Study.36 NECA directed Blanca to revise
its 2011 cost studies and all ensuing studies to remove
such costs.37 In response to NECA’s request, Blanca retained a cost consultant to review and revise Blanca’s
submissions because Blanca did not track or allocate
expenses associated with providing local service to customers over its landline and cellular systems or the
36

See id.; see also Letter from Brandon Gardner, Manager,
Member Services, NECA to Alan Wehe, Blanca Telephone Company (Jan. 28, 2013) (NECA True Up Notice) (citing NECA Cost
Issue 4.9).
37
See NECA True Up Notice. NECA did not seek to recover
past high-cost distributions from Blanca for the 2005-2010 period
because NECA’s cost pools operate within a 24-month settlement
window. Under NECA’s policies and procedures, member companies execute an agreement which specifies the existence of a window that allows exchange carriers to update or correct data for up
to 24 months after the data was initially reported. Pool Administration Procedure, § 1.3, at p.1.6 (2013); Universal Service HighCost Filing Deadlines, WC Docket No. 08-71, Order, 30 FCC Rcd
1879, 1882 n.28 (2015) (This 24-month adjustment window is the
product of a contractual agreement between NECA and its member companies and has been in place since NECA began operations in the early 1980s). NECA therefore directed Blanca to
revise and refile its 2011 Cost Study to remove costs and revenues
attributable to its wireless system so that any necessary adjustments could be made within the applicable window. NECA also
informed that any support payments “accepted and processed by
USAC corresponding to data corrections outside of the 24-month
settlement window are the obligation of the company.” Pool Administration Procedure, § 1.3, at p.1-9.

App. 108
expenses associated with providing service to customers of other carriers roaming on Blanca’s cellular system, both inside and outside of Blanca’s study area.38
At no point during this reconciliation process did
Blanca contest NECA’s determination that Blanca’s
wireless offerings should be excluded from the costs
used to calculate Blanca’s high-cost support.
14. Based on its investigation and review of documentation provided by Blanca, OIG concluded that
Blanca had misallocated costs between its CMRS and
its wireline service. And, based on the outcome of its
investigation and NECA’s review, OIG also began
working with USAC to identify USF losses resulting
from Blanca’s misallocation of costs in prior years.
USAC found that, from at least 2005 until 2011, when
NECA directed Blanca to revise its cost allocation
methods to exclude costs associated with the provision
of its wireless service, Blanca had “improperly included
costs and facilities attributable to nonregulated
CMRS, as well as wireless loop counts, in its cost studies that served as the basis for filing for USF high-cost
funds.”39 As a result, Blanca received overpayments of
high-cost support during this entire period.
15. As required by section 54.707(c) of the Commission’s rules, USAC provided the Commission
with copies of “Blanca’s books and records obtained
during the OIG investigation and Blanca’s own revision of its cost study and other filings for the post 2011
38
39

See OMD Letter at 2.
OMD Letter at 3.

App. 109
period.”40 Based on its analysis of that information,
OMD determined that Blanca owed the Commission
$6,748,280 in high-cost support overpayments received by Blanca between 2005 and 2010.41
16. On June 2, 2016, OMD issued the OMD Letter in which it informed Blanca that it had violated
Parts 36, 64, and 69 of the Commission’s rules by incorrectly including in its calculation of costs eligible for
high-cost support its costs of providing nonregulated
40

Id. at 7.
OMD, USAC and the OIG used documents prepared by
Blanca’s consultant, Moss Adams LLP, for Blanca’s revised 2011
and its 2012 Cost Studies as a blueprint to determine the excess
of high-cost distributions Blanca received for the 2005-2010 period attributable to Blanca’s wireless system. These documents,
which were obtained by the OIG from Moss Adams LLP in 2014
pursuant to a subpoena, contained factors used for the preparation of the revision of the 2011 Cost Study as well as the 2012
Cost Study Blanca submitted to NECA. These factors specifically
served as the basis for USAC to identify relevant costs which
should have been excluded from Blanca’s cost studies and other
filings establishing Blanca’s entitlement to high-cost funds for
2005-2010. The non-regulated factors used by Blanca for 2011
and 2012 Cost Studies, which were virtually the same, were
adopted by USAC to recalculate Interstate Common Line Support
(ICLS), HCLS, and Safety Net Additive Support (SNA) for 20052010. These factors were also adopted for Local Switching Support (LSS), except that the allocation of costs of the switches used
to provide wireless service, which were responsible for a large portion of the distributions Blanca received, was greater for the 20052010 period. Therefore, the non-regulated factor attributable to
those costs was used, rather than the factor used for the costs in
the 2011 and 2012 Cost Studies. The precise amount of the overages based on Blanca’s own non-regulated factors developed by
its consultant were set out on Attachment A of the OMD Letter.
Id. at 7.
41

App. 110
cellular mobile telephone service,42 and demanded immediate repayment of the $6,748,280 that Blanca had
improperly received.43
17. The OMD Letter informed Blanca that it
could challenge OMD’s findings by providing evidence
that it did not owe all or part of the debt if it did so
within 14 days of the OMD Letter.44 The OMD Letter
also notified Blanca that the Commission might exercise any one or more of the debt collection remedies
available to it pursuant to the DCIA and the Commission’s debt collection rules.45
C. Blanca’s Challenges to the OMD Letter
18. On June 16, 2016, Blanca filed an Emergency
Application for Review of the OMD Letter.46 On June
24, 2016, Blanca filed a Petition for Reconsideration of
the OMD Letter.47 The arguments advanced by Blanca
in the Petition and the Application are substantially
the same. Stripped to their essence, Blanca argues
that: (1) USF support is available for wireless services;48 (2) in areas outside of its rate-of-return study
area, Blanca was entitled to receive identical support
as a competitive ETC and so any USF overpayments
42
43
44
45
46
47
48

OMD Letter at 2.
Id. at 1.
Id. at 8.
Id.
Application.
Petition.
Application 5-6; Petition at 5-7.

App. 111
for misallocating CMRS-related expenses are offset by
the identical support it could have received if correctly
reported;49 (3) recovery against Blanca would be inequitable;50 (4) seeking to recover USF payments in an
“ex parte summary proceeding” violates Blanca’s due
process rights;51 (5) OMD is improperly imposing a forfeiture penalty under section 503 of the Act;52 (6) the
Commission has no authority to act under the DCIA
because it applies only to “executive, judicial, or legislative” agencies and does not apply to “independent
agencies,” such as the Commission;53 and (7) the OMD
Letter is fatally flawed because it does not provide
Blanca with an opportunity for administrative review
prior to a monetary deprivation and denies Blanca the
opportunity to review the Commission’s records pertaining to the debt determination.54
19. Upon receipt of the Application, the Commission informed Blanca that, pending review of its submissions, it would not be subjected to the Commission’s
Red Light process nor would the Commission institute
an offset to recover any of the proposed debt.55

49

Application at 6; Petition at 17.
Application at 23; Petition at 22.
51
Application at 9-10.; Petition at 7-9 & n.4.
52
Application at 15-18; Petition at 3, 14-17.
53
Application at 19-20; Petition at 18-19.
54
Application at 21-23; Petition at 20-21.
55
Letter from Mark Stephens, Acting Managing Director,
OMD, FCC to Timothy E. Welch, Counsel (dated June 22, 2016).
50

App. 112
20. Blanca later filed four separate motions for
leave to supplement its Application and Petition.56 On
December 19, 2016, Blanca filed its First Supplement
claiming that two court decisions involving the question of whether USF debt is federal debt for purposes
of False Claims Act (FCA) prosecutions support its arguments.57 In that supplement Blanca also expresses
concern that that [sic] two newly released Commission
Notices of Apparent Liability for Forfeiture (NALs) announce a new statute of limitations theory under section 503 of the Act, which the Commission could use
against Blanca.58
21. On March 30, 2017, Blanca filed its Second
Supplement, notifying the Commission that Blanca
has discontinued offering CMRS as of March 28,
56

Motion for Leave to Supplement Emergency Application
for Review, CC Docket No. 96-45 (filed Dec. 19, 2016) (First Supplement); Second Motion for Leave to Supplement Emergency Application for Review, CC Docket No. 96-45 (filed Mar. 30, 2017)
(Second Supplement); Third Motion for Leave to Supplement
Emergency Application for Review,, CC Docket No. 96-45 (filed
Apr. 10, 2017) (Third Supplement); Fourth Motion for Leave to
Supplement Emergency Application for Review, CC Docket No.
96-45 (filed July 5, 2017) (Fourth Supplement).
57
Id. at 15-16 (citing Farmers Tel. Co. v FCC, 184 F.3d 1241,
1250 (10th Cir. 1999); US ex rel Shupe v. Cisco Sys., 759 F.3d 379,
377-88 (5th Cir. 2014)).
58
First Supplement at 2, 3-8 (citing Network Services Solutions, LLC, Scott Madison, Notice of Apparent Liability for Forfeiture and Order, 31 FCC Rcd 12238, 12284, para. 144 and n.334
(2016) (Network Services Solutions); BellSouth Telecommunications, LLC d/b/a AT&T Southeast, Notice of Apparent Liability
for Forfeiture, 31 FCC Rcd 8501, 8525, para. 71 & n. 150 (2016)
(BellSouth)).

App. 113
2017.59 Blanca asserts that the disclosure is “factually
useful in the Commission’s consideration of the USF
funding issue current [sic] under review.”60
22. On April 10, 2017, Blanca filed its third supplement raising arguments about the Commission’s
decisions regarding another rate-of-return incumbent
LEC, Sandwich Isles Telephone Company, in the Sandwich Isles Order and the Sandwich Isles NAL, both
adopted in December 2016.61 Blanca also attempts to
factually distinguish its situation from that of Sandwich Isles.62
23. On July 5, 2017, Blanca filed its Fourth Supplement, arguing that a recent Supreme Court decision compels the Commission to treat this recovery
action as a penalty time barred by the one-year statute
of limitations in section 503 of the Act.63 Blanca also
notified the Commission that it has requested that
NECA provide it with copies of all documents that
NECA submitted to OIG in response to the April 20,
2017, OIG subpoena for information relating to the calculation of Blanca’s USF payments between January
59

Second Supplement.
Id. at 1.
61
Third Supplement at 2. See Sandwich Isles Order, 31 FCC
Rcd 12999; Sandwich Isles Communications, Inc., Waimana Enterprises, Inc., Albert S.N. Hee, Notice of Apparent Liability for
Forfeiture and Order, 31 FCC Rcd 12947 (2016) (Sandwich Isles
NAL).
62
Third Supplement at 5-10.
63
See generally, Fourth Supplement (citing Kokesh v. S.E.C.,
137 S. Ct. 1635 (2017)).
60

App. 114
1, 2005, and December 31, 2012, and “copies of any
other subpoenas which the Commission might have
served upon NECA.”64
III. DISCUSSION
24. Between 2005 and 2010, Blanca received
high-cost support intended to partially reimburse
Blanca as a rate-of-return incumbent LEC for the provision of regulated service within high-cost areas of its
designated study area. In seeking high-cost support,
for at least eight years, Blanca ignored Commission orders and NECA guidance making clear that it could
only include regulated costs in its cost studies. During
those years, despite the fact that CMRS is not a regulated service, Blanca reported CMRS-related costs, including costs incurred outside of its study area, as
regulated costs incurred to provide service within the
single study area in Colorado for which it sought highcost support. NECA and USAC relied on Blanca’s cost
studies when calculating Blanca’s eligibility for highcost support, and USAC paid Blanca more USF support with respect to this study area than the amount
to which it was entitled based on such calculations.
25. In defending its actions, Blanca erroneously
asserts that because it used high-cost support to deploy CMRS and because wireless service is a supported
service, Blanca was entitled to the support that it
received. But this argument is inconsistent with the
plain language of Commission rules and orders
64

See Fourth Supplement at 5-6.

App. 115
requiring rate-of-return carriers such as Blanca to separate out their nonregulated costs from the rate base
upon which high-cost support is based, to promote the
competitive and other public interest goals of section
254 of the Act. Blanca also attacks the process used by
OMD to seek repayment of the overpayments made to
Blanca. In so doing, Blanca ignores Commission rules
and precedent as well as the Commission’s obligation
to protect the Universal Service Fund from waste,
fraud and abuse. We thus affirm the factual, legal, and
technical findings in the OMD Letter and direct OMD
to proceed with collection.
A. Consideration of Blanca’s Late-Filed
Supplements
26. As an initial matter, we address Blanca’s motions to accept its four supplements, all filed by Blanca
well after the 30-day deadline for an appeal of the
OMD letter—July 5, 2016.65 The Commission has explained that a strict enforcement of filing deadlines is
“both necessary and desirable” to avert the “grave danger of the staff being overwhelmed by a seemingly
never-ending flow of pleadings.”66 In general, we will
65

Because the 30th day fell on a weekend preceding the 4th
of July, the Application and Petition and any supplements were
due by July 5, 2016. 47 CFR §§ 1.4(b)(5), 1.106(f ), 1.115(d).
66
Pathfinder Communications Corporation, Memorandum
Opinion and Order, 3 FCC Rcd 4146, 4146, para. 5 (1988). The
D.C. Circuit Court of Appeals has also generally discouraged the
Commission from accepting late petitions in the absence of extremely unusual circumstances. Virgin Islands Tel. Corp. v. FCC,
989 F.2d 1231, 1237 (D.C. Cir. 1993); Reuters Ltd. v. FCC, 781

App. 116
deny consideration of late-filed pleadings that raise arguments and facts that could have been presented
within the 30-day deadline.67 We have the discretion,
however, to grant leave to file late pleadings where “equities so require and no party would be prejudiced
thereby.”68
27. We grant Blanca’s motion to accept its latefiled Second and Fourth Supplements. In each, Blanca
has identified new facts and arguments that occurred
after July 5, 2016. In the Second Supplement, Blanca
F.2d 946, 951–52 (D.C. Cir. 1986); cf. Gardner v. FCC, 530 F.2d
1086, 1091–92 & n. 24 (D.C. Cir. 1976).
67
See, e.g., Alpine PCS, Inc., Memorandum Opinion and Order, 25 FCC Rcd 469, 479–80, para. 16 (2010) (dismissing untimely filed supplements that sought to raise new questions of law
not previously presented); see also 21st Century Telesis Joint Venture v. Fed. Commc’ns Comm’n, 318 F.3d 192, 199-200 (D.C. Cir.
2003) (affirming the Commission’s decision not to exercise its discretion to hear late-filed supplements when the petitioner offered
no plausible explanation for why supplemental arguments were
not made in its initial petition); cf. 47 CFR § 1.115(g)(1)-(2) (stating when a petition requesting reconsideration of a denied application for review will be entertained, i.e., the occurrence of new
facts, changed circumstances, or the learning of facts unknown –
notwithstanding the exercise of ordinary diligence – since the last
opportunity to present such matters).
68
Crystal Broadcasting Partners, Memorandum Opinion and
Order, 11 FCC Rcd 4680, 4681 (1996); see also, e.g., Amendment
of Section 73.202(B) Table of Allotments, FM Broadcast Stations
(Genoa, CO), MM Docket No. 01-21; RM-10050, Report and Order,
18 FCC Rcd 1465 n.2 (MB 2003) (granting motions for the acceptance of late-filed pleadings that “facilitate resolution of this
case based upon a full and complete factual record”); cf. 47 CFR
§ 1.115(g)(1) (allowing for reconsideration of the Commission’s denial of an application for review based on events occurring after
last opportunity to present).

App. 117
points to the fact that it ceased offering nonregulated
CMRS in March 2017.69 In the Fourth Supplement,
Blanca points to a 2017 United States Supreme Court
decision that it claims is on point.70 We find the public
interest is served by considering the relevance of these
arguments to the instant action.
28. In contrast, we deny Blanca’s motions to accept its late-filed First and Third Supplements for failing to demonstrate good cause to waive the 30-day
filing window for such filings.71
29. Blanca’s assertion in its First Supplement—
that two NALs and the Commission’s Writ Opposition
filed with the D.C. Circuit constitute changes in the
law or in the Commission’s interpretation of the law—
is specious.72 The Commission’s analysis of the relevant legal issues was based on long-standing precedent and principles that Blanca had ample opportunity
to review and incorporate into its timely filed Application and Petition. For example, the legal position that
the collection of debt is not a forfeiture barred by the
passage of time, as raised in the two NALs cited by
Blanca and issued after the issuance of the OMD
69

See Second Supplement at 1.
See generally, Fourth Supplement (citing Kokesh v. S.E.C.,
137 S. Ct. 1635 (2017)).
71
See 47 CFR § 1.3.
72
See First Supplement at 6-7; see also FCC Opposition to
Writ of Prohibition, United States Court of Appeals for the District of Columbia Circuit, No. 16-1216 (Aug. 31, 2016), available
at https://apps.fcc.gov/edocs_public/attachmatch/DOC-341047A1.
pdf (Writ Opposition).
70

App. 118
Letter, is expressly is [sic] based on long-standing precedent, including 1938 and 1946 decisions by the U.S.
Supreme Court and orders by the Commission and the
WCB released in 2011 and 2014, respectively, establishing that the denial of funding is not a forfeiture action and the statute of limitations in section 503 of the
Act is therefore inapplicable to the recovery of government funds improperly paid.73 Likewise, the applicability of the DCIA to the recovery of federal debts is
supported by precedent almost 30 years old and did not
involve any new interpretation of the relevant law.74
30. Further, we find unpersuasive Blanca’s characterization of a new argument as “non-obvious” to
justify a late filed supplement. The cases Blanca “discovered” were issued by the 10th Circuit in 1999 and
the 5th Circuit in 2014, well in advance of the 30-day

73

See Network Services Solutions, 31 FCC Rcd at 12284,
para. 144 and n.334 (citing Holmberg v. Armbrecht, 327 U.S. 392,
396 (1946); United States v. Wurts, 303 U.S. 414, 415-16 (1938));
Bellsouth, 31 FCC Rcd at 8525, para. 71 & n. 150 (2016) (citing
Review of Decisions of the Universal Service Administrator by Joseph M. Hill Trustee in Bankruptcy for Lakehills Consulting, LP
et al., CC Docket No. 02-6, Order, 26 FCC Rcd 16586, 16600-01,
para. 28 (2011) (Lakehills); Request for Waiver or Review of a Decision of the Universal Service Administrator by Premio Computer, Inc., CC Docket No. 02-6, Order, 29 FCC Rcd 8185, 8186,
para. 6 and n.16 (WCB 2014) (Premio))
74
See, e.g., First Supplement at 13-14 (challenging the Commission’s partial reliance in its Opposition on the Ninth [sic] Seventh Circuit Court’s decision in Commonwealth Edison Co. v.
United States NRC, 830 F.2d 610 (7th Cir. 1987), to support its
contention that “independent” agencies are covered by the DCIA).

App. 119
deadline.75 Both of these cases, as with the instant action, involve USF support.76 We thus find no reasonable basis, and Blanca proffers none, for concluding that
Blanca could not, “through the exercise of ordinary diligence,” have learned of, and timely raised, the relevance of these cases prior to the deadline.77
31. Likewise, and contrary to Blanca’s contentions, Blanca’s arguments in its Third Supplement are
not based on a new interpretation of the law by the
Commission. The legal positions taken by the Commission in the Sandwich Isles NAL were based on
long-standing precedent.78 To the extent Blanca’s arguments are about precedent for forfeiture proceedings,
they are not relevant here, because this is not a

75

See First Supplement at 15-16.
See id.; see also Farmers, 184 F.3d at 1250; Shupe, 759
F.3d at 377-88.
77
In addition to the untimeliness of Blanca’s argument based
on cases under the False Claims Act, and as an alternative and
independent ground, we note that the provisions of the FCA on
which the cases Blanca cites rely are substantially different from
the relevant provisions of the DCIA, see Sandwich Isles Order, 31
FCC Rcd at 13029, para. 95, and that more recent cases interpreting the FCA have held that USF payments are federal monies
under that Act. See U.S.ex rel.Heath v. Wisconsin Bell, Inc., No.
08-cv-0724-LA, Decision and Order, (E.D. Wis., filed July 1, 2015);
U.S, ex rel. Futrell v. E-Rate Program LLC, No .4:14-CV-02063ERW (filed August 23, 2017, E.D. MO).
78
See, e.g., Sandwich Isle Order, 31 FCC Rcd at 13026-27,
para. 92 (finding that Congress has not imposed a statutory limitations period on the collection of debt under section 254 or the
DCIA) (citing Premio, 29 FCC Rcd at 8186, para. 6; Lakehills, 26
FCC Rcd at 16601, para. 28).
76

App. 120
forfeiture proceeding.79 Moreover, the mere fact Blanca
referenced a Public Notice in its original Application
and Petition mentioning the Sandwich Isles proceeding and that the Sandwich Isles proceeding involved a
fact pattern that Blanca claims is like its own does not
justify, in this case, consideration of its late-filed supplement.
32. For these reasons, we find acceptance of the
First and Third Supplements is not in the public interest. Below, we address arguments raised by Blanca in
the Petition, Application and Second and Fourth Supplements.
B. Nonregulated Costs Are Not Eligible
for High-Cost Support Provided to an
Incumbent LEC
33. In order to implement its universal service
obligations, section 254(k) of the Act requires the Commission to “establish any necessary cost allocation
rules, accounting safeguards, and guidelines to ensure
that services included in the definition of universal service bear no more than a reasonable share of the joint
and common costs of facilities used to provide those
services.” Section 254(b)(5) also requires the Commission to implement universal service mechanisms that
are “specific, predictable and sufficient.”80 Parts 36, 64,
79

See Third Supplement at 4 (referencing the Sandwich Isles
proceedings); 5-6 (arguing that Blanca’s misreporting was not a
continuing violation).
80
47 U.S.C. § 254(b)(5).

App. 121
and 69 of the Commission’s rules are designed to ensure discharge of these statutory mandates.
34. We affirm OMD’s determinations that Blanca
included costs associated with the provision of a nonregulated service—both within and outside its study
area—within its cost studies for the Colorado service
area in which it is the incumbent LEC, and in so doing
Blanca violated Parts 36, 64, and 69 of the Commission’s rules.81 We also agree with the findings of OIG,
USAC, and NECA upon which OMD based its conclusion that as a result of treating nonregulated costs as
regulated costs in its cost studies, Blanca received inflated USF disbursements with respect to this study
area that it now must repay.82 In reaching these conclusions, we emphasize that Blanca has conceded that
it offered CMRS services83 and it has not challenged
the accuracy of OMD’s accounting of the aggregate
high-cost support attributable to Blanca’s inclusion of
CMRS-related costs in regulated accounts between
2005 and 2010.84
81

See OMD Letter at 2.
See id.
83
See generally Application (repeatedly referring to its cellular system as “mobile”); see also Third Supplement at 9-10 (distinguishing the obligations for discontinuance of CMRS from
obligations for discontinuance of local exchange service).
84
CMRS is classified as a nonregulated service for accounting and cost allocation purposes, because the Commission has
chosen to forbear from rate regulation of these wireless services.
See Amendment of the Commission’s Rules to Establish Competitive Service Safeguards for Local Exchange Carrier Provision of
Commercial Mobile Radio Services, WT Docket No. 96-162,
82

App. 122
35. Blanca is a rural telephone company designated as an ETC for the provision of tariffed local exchange service in the relevant study area 462182,
which as noted above covers portions of Alamosa and
Costilla counties in Colorado.85 Blanca joined NECA as
a rate-of-return incumbent LEC and was treated for
regulatory purposes as such.86 As a rate-of-return incumbent LEC, Blanca was required by our Part 64
rules to allocate its costs between regulated services
and nonregulated service so that NECA and USAC
could correctly compute their eligibility for HCLS,
Report and Order, 12 FCC Rcd 15668, 15691, para. 33 n.102
(1997); Implementation of the Telecommunications Act of 1996,
CC Docket No. 96-193, Report and Order, 12 FCC Rcd 8071, 8095,
para. 53 (1997); Eligibility for the Specialized Mobile Radio Services and Radio Services in the 220-222 MHz Land Mobile Band
and Use of Radio Dispatch Communications, GN Docket No. 9490, Report and Order, 10 FCC Rcd 6280, 6293-94 & n.77 (1995);
Implementation of Sections 3(n) and 332 of the Communications
Act, Regulatory Treatment of Mobile Services, GN Docket No. 93252, Second Report and Order, 9 FCC Rcd 1411, 1492, para. 218
(1994).
85
See Commission Order Granting Application for Designation as an Eligible Telecommunications Carrier, Public Utilities
Commission of the State of Colorado, Docket No. 97A-506t, Decision No. C97-1389, at 3, para. 2 (adopted December 17, 1997),
available at http://www.dora.state.co.us/puc/docketsdecisions/1997.
htm (limiting the scope of the ETC designation to the Study Area
Code 462182).
86
See, e.g., Letter from Doug Dean, Director, Colorado Public
Utility Commission to Marlene K. Dortch, Secretary, FCC, CC
Docket 96-45, Attach. A (filed Oct. 1, 2016) (listing Blanca as an
incumbent LEC but not as a competitive ETC for purposes of the
ETC’s annual certification of support as required by section
54.314 of the Commission’s rules, 47 CFR § 54.314) (Col. PUC
Oct. 1, 2016 Letter)

App. 123
Safety Net Additive Support (SNA), and Local Switching Support (LSS), but failed to do so.87 Blanca also
violated Part 36 of our rules, which requires rate-ofreturn incumbent LECs to identify the portion of their
regulated expenses attributed to interstate jurisdiction so that USAC may correctly compute their eligibility for Interstate Common Line Support (ICLS).88
Additionally, Blanca violated Part 69 of our rules,
which require rate-of return incumbent LECs to apportion regulated, interstate costs among the interexchange services and rate elements that form the cost
basis for exchange access tariffs, so that NECA may set
“just and reasonable” access rates.89 Consequently,
Blanca’s decision to report CMRS-related costs in regulated accounts with respect to study area 462182
resulted in an erroneous increase in the amount of

87

See 47 CFR §§ 64.901-905; see also id. § 64.901 (codifying
the prohibition in section 254(k) of the Act as it applied to incumbent LECs); Implementation of the Telecommunications Act of
1996: Accounting Safeguards Under the Telecommunications Act
of 1996, CC Docket No. 96-150, Report and Order, 11 FCC Rcd
17539, 17572, para. 50 (1996) (finding that the accounting safeguards adopted are sufficient to implement the prohibition in
254(k) of the Act against using “services that are not competitive
to subsidize services that are subject to competition”).
88
See 47 CFR §§ 36.1-36.741; id. § 54.901 et seq.; USF/ICC
Transformation Order, 26 FCC Rcd at 17761, para. 257 (eliminating LLS effective July 1, 2012, but allowing for limited recovery
of the costs previously covered pursuant to our ICC reform). In
2014, the Commission moved the Part 36 rules at issue to Part
54. See April 2014 Connect America Report and Order, 29 FCC
Rcd at 7069, para. 58.
89
See 47 CFR §§ 69.1 - 69.731; id. § 54.901 et seq.

App. 124
high-cost support paid to Blanca and potentially distorted “just and reasonable” access rates.90
36. Blanca is also wrong when it claims it was
entitled to support for its CMRS offerings as a competitive ETC.91 Blanca does not qualify for identical support in areas where it is an incumbent LEC.92 Blanca’s
ETC designation is limited to a specific geographic
area and does not encompass the offering of a competitive nonregulated service, either inside or outside
Blanca’s designated study area.93 Indeed, the state
commission had no opportunity to evaluate, consistent
with its obligation to make a public interest determination required by section 214(e), the relative burdens
on federal or state support mechanisms of granting
Blanca an ETC designation for its CMRS, including
any conditions that might have been appropriate with
90

See OMD Letter at 2 (explaining that “[t]he inclusion in
cost studies of such cellular investment, expenses, and costs that
were not used and useful to provide regulated telephone service
is prohibited, and resulted in inflated disbursements to Blanca
from ICLS, LSS, [HCLS], and [SNA]”); see also id. at Attach. A
(listing specific disbursements by fund type and year and the differences between the support received and the support to which
Blanca was entitled based on its regulated costs).
91
Application at 6, 8, 18; Petition at 5, 6, 17.
92
47 CFR § 54.5 (defining a “competitive eligible telecommunications carrier” as a carrier that meets the definition of an “eligible telecommunications carrier” below and does not meet the
definition of an “incumbent local exchange carrier” in section 51.5
of the Commission’s rules).
93
See, e.g., Col. PUC Oct. 1, 2016 Letter, Attach. A (listing
Blanca as an incumbent LEC but not as a competitive ETC for
purposes of the ETC’s annual certification of support as required
by section 54.314 of the Commission’s rules, 47 CFR § 54.314).

App. 125
respect thereto (such as forming a separate wireless
subsidiary).94 Accordingly, Blanca was not entitled to
identical support for a competitive CMRS service offering within its study area absent a new designation or
the modification of its existing designation.95
37. Further, while Blanca now asserts that it is a
competitive ETC in areas served by a different incumbent LEC where it offered CMRS and, therefore, is entitled to support for such offering, the overpayments
here related to study area 462182, in which Blanca was
the incumbent LEC, not a competitive carrier. Moreover, Blanca has not produced any evidence that it has
sought or obtained the requisite ETC designation for

94

See Federal-State Joint Board on Universal Service, CC
Docket No. 96-45, Report and Order, 20 FCC Rcd 6371, 63926397, paras. 48-57, 60 (2005); id. at 6396-97, paras. 58, 60 (encouraging state commissions to adopt the same public interest
analysis as conducted by the Commission and to apply the test “in
a manner that will best promote the universal service goals found
in section 254(b) [of the Act]”).
95
In 2011, the Colorado PUC required a designated ETC offering LEC services, as a condition of receiving an ETC designation to offer CMRS services, to form a separate wireless
subsidiary. See Application of Union Tel. Co., DBA Union Wireless, for Designation as an Eligible Telecommunications Carrier
in Colorado., 09A-771T, 2011 WL 5056338, at *8, para. 30 (Apr.
26, 2011) (recognizing that while “no statute or rule requires formation of a separate wireless subsidiary as a condition of receiving an ETC designation for wireless operations,” the condition
served the public interest where a LEC offers CMRS services
given a “high risk of comingling and cross-subsidization (regulated, deregulated, and unregulated services in four states and
common facilities)”).

App. 126
any other areas for, or expanded its existing designation to cover, these areas. Absent such designation,
Blanca is not eligible for support in these areas. Tellingly, Blanca never sought identical support on a correctly calculated per-line basis from USAC for services
provided outside its study area as a competitive ETC—
indeed, it made no administrative filings to claim identical support at all—and it is not now entitled to have
the overpaid rate-of-return support for study area
462182 offset against any speculative sum it might
have received had it done so.96
38. Having reached these conclusions, we find no
basis to Blanca’s contentions that OMD’s recovery efforts here retroactively alter the terms and conditions
under which it was entitled to high-cost support.97 The
mere disbursement of USF does not ratify its legality,
and any claim Blanca can assert to USF support is conditioned on Blanca having met the eligibility and use
criteria, long codified in our rules and reiterated in
NECA guidance, and subject to audit and recovery action.98 In making its finding, OMD did not adopt or
96

Blanca never filed quarterly line counts on FCC Form 525,
a requirement for recovering support as a competitive ETC pursuant to section 54.307(c). 47 CFR § 54.307(c).
97
Application at 16-17; Petition at 7-8, 11-12.
98
See, e.g., 47 CFR § 54.707 (establishing authority of USAC
to audit carriers’ data submissions); Changes to the Board of Directors of the National Exchange Carrier Association, Inc., Federal-State Joint Board on Universal Service, CC Docket No.
97-21, Order, 15 FCC Rcd 22975, 22981-82, para. 16 (2001) (establishing procedures for implementing commitment adjustment
recovery actions); Changes to the Board of Directors of the National Exchange Carrier Association, Inc., Federal-State Joint

App. 127
apply a new requirement to past conduct or apply a
new interpretation of our rules and precedent.99 Rather, OMD applied our rules, which base rate-of-return
high-cost support on an incumbent LEC’s embedded
costs in providing a regulated service.100 Blanca’s requests for payment with respect to study area 462182
were inconsistent with those rules and the underlying
policy, as well as numerous other Commission orders
cited herein.101

Board on Universal Service, CC Docket Nos. 97-21 and 96-45, Order, 15 FCC Rcd 22975, 22982, para. 16 (2000) (“[C]onsistent with
the Commission’s obligations under the DCIA, following USAC
referrals to the Commission, the Commission will issue letters demanding repayment from service providers that are obligated to
pay erroneously disbursed funds”); cf. Old Republic v. Fed. Crop
Ins. Corp., 947 f. 2d 269, 272 (7th Cir. 1991) (agencies have authority under contract, statute, and common law to recoup overpayments that result from agency error).
99
See, e.g., Nat’l Mining Ass’n v. U.S. Dep’t of Interior, 177
F.3d 1, 8 (D.C. Cir. 1999) (explaining that a rule operates retroactively if it “ ‘takes away or impairs vested rights acquired under
existing law, or creates a new obligation, imposes a new duty, or
attaches a new disability in respect to transactions or considerations already past.’ ”) (quoting Ass’n of Accredited Cosmetology
Schs. v. Alexander, 979 F.2d 859, 864 (D.C. Cir. 1992) (citation
omitted)).
100
See 47 CFR Parts 64, 36, 69.
101
See, e.g., Verizon Tel. Cos. v. Fed. Commc’ns Comm’n, 269
F.3d 1098, 1110 (D.C. Cir. 2001) (explaining that despite numerous tests for manifest injustice among the circuits, the D.C. Circuit Court of Appeals has generally held questions of manifest
injustice “boil down to a question of concerns grounded in notions
of equity and fairness” and “detrimental reliance”) (citations omitted).

App. 128
39. Nor did the continued funding of Blanca in
accordance with its reported costs from 2005 until
2010 give rise to the kind of reliance interests that
would make this debt adjudication a violation of due
process. Contrary to Blanca’s contentions, the holding
in Christopher v. SmithKline Beecham Corporation
does not suggest otherwise.102 In SmithKline, the U.S.
Supreme Court declined to defer to an agency’s new
interpretation of its long-standing but ambiguous statutes and rules where such new interpretation threatened “massive liability” for prior conduct affected
parties could not have reasonably anticipated.103 In so
holding, the Court placed special emphasis on, among
other things, the agency’s clear and decades-long acquiescence to industry-wide noncompliance.104 In contrast, in directing Blanca to repay amounts it had been
102

See Application at 9 (citing Christopher v. SmithKline
Beecham Corp., 132 S. Ct. 2156, 2168 (2012); see also, e.g., Qwest
v. FCC, 509 F.3d 531, 540 (D.C. Cir. 2007) (holding that manifest
injustice results when the affected party’s reliance is “reasonably
based on settled law contrary to the rule established in the adjudication”).
103
See SmithKline, 132 S. Ct. at 2166-68. More specifically,
the Court explained that the highly deferential standard generally applicable to agency interpretations of its own statutes and
regulations did not apply where the agency advanced an interpretation that was “plainly erroneous or inconsistent with regulation,” and/or “not reflect[ive] [of ] the agency’s fair and considered
judgment.” Id. at 2166 (quoting Auer v. Robbins, 518 U.S. 452,
461-62 (1997)). Accordingly, the Court reviewed the agency’s interpretation under the less deferential Skidmore standard, ultimately finding the agency’s interpretation to be “unpersuasive.”
See id. at 2169-70.
104
SmithKline, 132 S. Ct. at 2167–68.

App. 129
overpaid, OMD did not adopt a new interpretation of
ambiguous rules but merely applied explicit Commission rules widely accepted by the industry.105 Moreover,
contrary to Blanca’s contentions, the mere continued
funding of Blanca pending a factual investigation into
Blanca’s cost accounting methods is not equivalent to
complicity in industry-wide noncompliance. Further,
the Commission has consistently stated that it conditions all funding on proper use and receipt; relies on
audits and other program safeguards to ensure compliance with its rules designed to implement the foregoing statutory mandates under section 254; and, has
regularly and quite properly sought recovery for improper payments at the conclusions of audits and investigations that have found overpayment of universal
service funds.106

105

Indeed, NECA guidance made clear that the industry had
adopted the same interpretation of funding eligibility as set forth
in the OMD Letter. See OMD Letter at 4 (citing NECA Paper 4.9,
Use of Wireless Technology to Provide Regulated Local Exchange
Service).
106
See, e.g., Comprehensive Report and Order, 22 FCC Rcd at
16386, para. 30 (“Consistent with our conclusion regarding the
schools and libraries program, funds disbursed from the highcost, low-income, and rural health care support mechanisms in
violation of a Commission rule that implements the statute or a
substantive program goal should be recovered.”); id. at 16382,
para. 19 (explaining that “[a]udits are a tool for the Commission
and the Administrator, as directed by the Commission, to ensure
program integrity and to detect and deter waste, fraud, and
abuse,” and that “[a]udits can reveal violations of the Act or the
Commission’s rules”).

App. 130
C. The Commission Has Authority to Seek
Repayment of Improperly Disbursed
Universal Service Funds
40. The Commission has the statutory authority
to review the results of USF audits and investigations,
and where it determines that USF payments were
sought and received in violation of the Commission’s
rules it has the authority to recover such funding regardless of fault, and to recover such funding. In section 254 of the Act, Congress created the USF and
tasked the agency with overseeing it.107 In doing so,
Congress granted to the FCC the necessary authority
to adjudicate and recover unauthorized funding.108
Such authority is essential to the fair administration
of the universal service support programs. In its
107

47 U.S.C. § 254(e).
See, e.g., Bechtel v. Pension Benefit Guar. Corp., 781 F.2d
906, 907 (D.C. Cir. 1986) (finding that the “government’s right to
recoup funds owing to it is beyond dispute and will not be deemed
to have been abandoned unless Congress has clearly manifested
its intention to raise a statutory barrier”); Mount Sinai Hosp. v.
Weinberger, 517 F.2d 329, 377 (5th Cir. 1975), modified on other
grounds, 522 F.2d 179 (5th Cir. 1975) (finding that the statutory
prohibition against any Medicare payments or services which are
medically unnecessary implicitly limits the authority of Department of Health, Education and Welfare officials to make payments under Medicare and is exactly the type of limitation which
creates both a legal claim in the government and a remedy by way
of setoff against the recipient of any such improper payment); cf.
Bennett v. Ky. Dep’t of Educ., 470 U.S. 656, 663 (1985) (“The State
gave certain assurances as a condition for receiving the federal
funds, and if those assurances were not complied with, the Federal Government is entitled to recover amounts spent contrary to
the terms of the grant agreement.”).
108

App. 131
absence, the Commission would be unable to effectively protect the USF and the contributors thereto
from the kinds of market distortions arising from misuse or misallocation of USF support explicitly recognized by Congress in section 254(k) of the Act and
directly implicated by Blanca’s cost allocation errors.109
Once the agency makes a final determination that certain payments were erroneous and/or illegal, the
agency has the authority and obligation under the
DCIA to treat these overpaid sums as federal claim
subject to collection, including by offset.110

109

Because we hold that the agency has direct statutory authority to make these determinations under the Act, we need not
address the question of whether the Commission possesses direct
common law authority to recover such sums by standing in the
shoes of a contracting party. Compare Bell v. New Jersey, 461 U.S.
773, 782 n.7 (1983) (in finding express authority to pursue recovery of misused grant funds, declining to address alternative argument that the government has a common law right to collect funds
whenever a grant recipient fails to comply with conditions on the
grant) with Mt. Sinai Hosp., 517 F.2d at 337 (holding that independent of specific statutory authority, an agency may recover
funds which are granted for specific purposes and misspent in
contradiction of those purposes); cf. Pennhurst State Sch. & Hosp.
v. Halderman, 101 S. Ct. 1531, 1540 (1981) (“[L]egislation enacted pursuant to the [S]pending [P]ower is much in the nature
of a contract: in return for federal funds, the States agree to comply with federally imposed conditions.”).
110
The DCIA authorizes appropriate agency officials to determine that a debt is owed to the United States and defines debt
to include “over-payments, including payments disallowed by audits performed by the Inspector General of the agency administering the program” and “any “other amounts of money or
property owed to the Government.” 31 U.S.C. § 3701(b)(1); 31
CFR §900.2(a).

App. 132
41. Blanca’s argument that as a matter of equity
we should limit our recovery of overpaid USF to “cases
of misrepresentation, false statement, concealment,
obstruction, or lack of cooperation,” are unavailing.111
The question of whether Blanca had “clean hands” or
intentionally misreported its costs is irrelevant.112
Blanca does not allege—nor could it—that the Commission’s effort to collect improperly disbursed USF
support is dependent on any finding of specific intent.113 So too do we find irrelevant Blanca’s repeated
emphasis on the fact that Blanca began a practice of

111

Application at 23; Petition at 22.
Contrary to Blanca’s contentions, the Commission in its
Writ Opposition did not concede that Blanca accepted the overpaid support with “clean hands;” rather, the Commission stressed
merely that it had made no finding of fault or intent because such
a finding would have been irrelevant to the Commission’s recoupment efforts. Compare First Supplement at 7 (citing Writ Opposition at 14 to support contention that the Commission concedes
Blanca had “clean hands”) with Writ Opposition at 14 (explaining
that a finding of misconduct is not relevant to an action in recoupment).
113
Recovery of overpaid USF support, unlike the recovery of
some other forms of governmental support, such as social security
or Medicaid benefits, is not subject to specific statutory bars based
on equity or fault. See, e.g., 42 U.S.C. § 404(b) (prohibiting the
recovery of overpaid social security benefits from “any person who
is without fault if such adjustment or recovery would defeat the
purpose of this subchapter or would be against equity and good
conscience.”); id. § 1395gg(b) (prohibiting offset or recoupment of
overpaid Medicare benefits where a supplier or provider is “without fault”); see also Bennett, 470 U.S. at 656–57 (finding that “recovery of the misused funds was not barred on the asserted
ground that the State did not accept the grant with “knowing acceptance” of its terms).
112

App. 133
misreporting costs to NECA in 2005.114 Even if the
agency could reasonably have discovered the underlying noncompliance earlier, Blanca would not have been
relieved of the obligation to repay the funds.115 Indeed,
here the Commission has a specific statutory obligation to make sure that high-cost funds are used for
their intended purposes, and seek repayment of improperly distributed funds.116
42. Blanca is incorrect when it asserts that the
Commission is creating a “novel summary debt claim
adjudication procedure” and applying it to Blanca
without notice or opportunity challenge the Commission’s findings.117 When the Commission determines
whether a specific set of USF payments is erroneous or
illegal, it is making a fact-specific, individualized determination applying current laws to past conduct, i.e.,
an informal adjudication.118 Such an action does not
114

See Application at 9, 13; Petition at 8-9.
See, e.g., Mt. Sinai Hosp., 517 F.2d at 337 (“where the payments would be authorized but for erroneous understandings of
fact, the government may recover, even where its own employees
and agents were partly responsible for failing to discover the correct facts”) (citing United States v. Barlow, 132 U.S. 271, 279-280,
281-282 (1889)).
116
47 U.S.C. § 254(b)(5); id. § 254(e).
117
See Application at 23; Petition at 21-22.
118
See, e.g., Conference Grp., 720 F.3d at 965 (finding that
the Commission’s decision to uphold a USAC determination regarding audio bridging provider’s contribution obligation was an
informal adjudication); AT&T v. FCC, 454 F.3d 329, 333 (D.C.
Cir. 2006) (finding that the Commission’s order classifying
AT&T’s prepaid calling cards for the first time to be an adjudication).
115

App. 134
meet the definition of a rulemaking and no statute requires it to be conducted through “on the record” hearings.119 The Act gives the Commission broad authority
to delegate that adjudicatory authority and in this context, the Commission has delegated authority to both
WCB and to OMD.120 In any event, the Act also specifically provides that all persons aggrieved by an order,
decision, report or action made or taken on delegated
authority have rights of appeal within the agency,
while sections 1.106 and 1.115 of the Commission’s
rules set the specific procedures and requirements for
making such appeals and seeking reconsideration of
agency actions.121
119

See Izaak Walton League v. Marsh, 655 F.2d 346, 361 n.37
(D.C. Cir. 1981) (“The APA itself does not use the term ‘informal
adjudication.’ Informal adjudication is a residual category including all agency actions that are not rulemaking and that need not
be conducted through ‘on the record’ hearings.”); see also, e.g.,
Nat’l Biodiesel Bd. v. EPA, 843 F.3d 1010, 1017-18 (D.C. Cir.
2016) (reasoning that informal adjudications may be used in
highly fact-specific contexts).
120
47 U.S.C. § 155(c)(1) (allowing the Commission, “by published rule or by order, [to] delegate any of its functions”); 47 CFR
§ 0.91(m) (authorizing WCB to “[c]arry out the functions of the
Commission under the Communications Act of 1934, as amended,
except as reserved to the Commission”); id. § 0.291 (reserving the
power to “decide issues of first impression, described as “any applications or requests which present novel questions of fact, law
or policy which cannot be resolved under outstanding precedents
and guidelines”); id. § 0.231.
121
See, e.g., 47 U.S.C. § 155(c)(4) (“[taken on delegated authority] may file an application for review by the Commission
within such time and in such manner as the Commission shall
prescribe, and every such application shall be passed upon by the
Commission.”); id. § 405(a) (“After an order, decision, report, or

App. 135
43. Also contrary to Blanca’s assertion, section
503 forfeiture proceedings are not the exclusive means
by and through which the Commission may make a determination that a rule has been violated and impose
liability. The Commission or USAC has consistently
sought recovery of USF funds outside of section 503
proceedings.122 By its terms, section 503(b) imposes forfeiture liability for violation of any Commission rule,
whether or not the violation has led to any improper
payment by the Commission (or USAC). Neither the
plain language of section 503 of the Act nor its legislative history indicates that Congress intended that
action has been made or taken in any proceeding by the Commission, or by any designated authority within the Commission pursuant to a delegation under section 155(c)(1) of this title, any
party thereto, or any other person aggrieved or whose interests
are adversely affected thereby, may petition for reconsideration
only to the authority making or taking the order, decision, report,
or action; and it shall be lawful for such authority, whether it be
the Commission or other authority designated under section
155(c)(1) of this title, in its discretion, to grant such a reconsideration if sufficient reason therefor be made to appear.”). See also
47 CFR §§ 1.106, 1.115.
122
See, e.g., Comprehensive Review of the Universal Service
Fund Management, Administration, and Oversight, WC Docket
No. 05-195, Notice of Proposed Rulemaking and Further Notice
of Proposed Rulemaking, 20 FCC Rcd 11308, 11338, para. 70
(2005) (describing USAC audit program that had led to the recommended recovery of USF in various programs, including
$6,243,223 for the high-cost support mechanism); Requests for Review or Waiver of Decisions of the Universal Service Administrator
by Academia Avance, et al.; Schools and Libraries Universal Service Support Mechanism, CC Docket No. 02-6, Order, 28 FCC Rcd
12859 (WCB 2013) (affirming USAC decision seeking to recover
funds disbursed from the schools and libraries universal service
support program).

App. 136
section to govern debt determinations, and Blanca has
provided no evidence to the contrary.123 The legislative
history of section 503 makes clear that the statute applies only to monetary forfeitures and that such forfeitures are an enforcement measure.124
44. We in turn disagree that the Supreme
Court’s Kokesh decision helps Blanca here.125 The
Kokesh Court held that a Security and Exchange Commission (SEC) disgorgement action was a penalty for
violating federal securities law, and thus, subject to the
APA’s generally applicable five-year statute of limitations in section 2462 governing any “action, suit or proceeding for the enforcement of any civil fine, penalty, or
123

See, e.g., Liability of Sonderling Broadcasting Corporation, 69 FCC 2d 289, 292, para. 10 (1977) (finding that “the statutory purpose of the forfeiture provisions is that the Congress
intended that forfeitures be a method of civil punishment”) (citing
Hearings, Communications Subcommittee of the Senate Committee on Interstate and Foreign Commerce on Proposed Amendments to the FCC Act of 1934 (S 1898), 86th Congress, 2nd
Session, p. 76); Bennett, 470 U.S. at 662–63 (holding that the recovery of misused grant funding is “more in the nature of an effort
to collect upon a debt than a penal sanction,” where the recipient
gave “certain assurances as a condition for receiving the federal
funds,” and was aware at the time funds were received that the
federal government was “entitled to recover amounts spent contrary to the terms of the grant agreement”).
124
See N.J. Coal. for Fair Broad. v. Fed. Commc’ns Comm’n,
580 F.2d 617, 619 (D.C. Cir. 1978) (emphasizing that [section 503]
created only one of several possible enforcement actions and that
the legislative history made clear that, “the FCC will not be precluded from ordering a forfeiture merely because another type of
sanction or penalty has been or may be applied to the licensee or
permittee.”) (citations omitted).
125
See Kokesh v. S.E.C., 137 S. Ct. 1635, 1642 (2017).

App. 137
forfeiture, pecuniary or otherwise.”126 Key to that decision was its finding that a penalty is designed to punish and deter future violations rather than to
compensate a “victim.”127 The Court reasoned that SEC
disgorgement was an action that left the defendant
“worse off,” since a court could order disgorgement that
“[exceeded] the profits gained as a result of the violation,” and that disregarded “a defendant’s expenses
that reduced the amount of illegal profit.”128 The Court
emphasized that when a sanction “can only be explained as . . . serving either retributive or deterrent
purposes,” it is a “punishment.”129
45. Here, the Commission is merely seeking to
recover sums improperly paid in which Blanca held no
entitlement under section 254 and the Commission’s
implementing rules.130 It is not a punitive measure
that seeks to deter future misconduct by other carriers
126

Id. at 1642 (quoting 28 U.S.C. § 2462).
Id.
128
Id. at 1644-45.
129
Id. at 1645 (quoting Austin v. United States, 509 U.S. 602,
621 (1993)).
130
See Comprehensive Report and Order, 22 FCC Rcd at
16386, para. 30 (distinguishing the recovery of USF support disbursed in violation of Commission rule from enforcement actions
reserved for cases of fraud, waste, and abuse); see also, e.g., Universal Service Contribution Methodology, WC Docket No. 06-122,
Order, 32 FCC Rcd 4094, 4098, para. 14 (WCB 2017) (upholding
USAC decision to collect outstanding contribution obligations
against claims by the carrier that the statute of limitations in section 503(b)(6) of the Act imposes a time bar by distinguishing forfeitures from outstanding debts accruing due to the failure to
fulfill contribution obligations).
127

App. 138
but merely returns Blanca to the status quo ante.131 It
does not punish Blanca for the potential public and
market harm arising from Blanca’s improper cost accounting but merely recovers for the USF a windfall to
which Blanca was not entitled under the foregoing
statutory and regulatory scheme.132 Any negative financial impact that Blanca may experience as a result
of recovery of this improper payment cannot transform
this action into a sanction or penalty.133

131

See Petitions for Waiver of Universal Service High-Cost
Filing Deadlines, Memorandum Opinion and Order, 31 FCC Rcd
12012, 12017, para. 15 (2016) (determining that a reduction in
support could not be analogized to a forfeiture since “a forfeiture
requires a carrier to pay its own funds to the U.S. Treasury while
in contrast a universal service support reduction requires USAC
to withhold or recover the public’s funds from the carrier”).
132
Compare, e.g., Kokesh, 192 S. Ct. at 1642-43 (citing with
approval distinction made by the U.S. Supreme Court in Meeker
between the recovery of overcharges and a penalty for the public
offense giving rise to the overcharges) (citing Meeker v. Lehigh
Valley R. Co., 236 U.S. 412, 421–422 (1915)) with S.E.C. v. Huffman, 996 F.2d 800, 802 (5th Cir. 1993) (explaining that a disgorgement obligation is not a [sic] “ ‘a mere money judgment or
debt’ ” or a form of restitution but rather more akin to ‘an injunction in the public interest,’ ” enforceable through contempt, and
therefore, is not a federal debt for DCA purposes).
133
See, e.g., United States v. Telluride Co., 146 F.3d 1241,
1246 (10th Cir. 1998) (determining that an injunction requiring
the restoration of damaged wetlands was not a penal action even
though it remedied “wrongs to the public,” i.e., “injuries to the
public’s resources”); United States v. Perry, 431 F.2d 1020, 1025
(9th Cir. 1970) (ruling Government’s action to recover sums allegedly paid in violation of the Anti-Kickback Act was not time
barred by the statute of limitations governing agency enforcement actions (28 U.S.C. § 2462) because the sums sought were
designed to make the Government whole by recovering extra costs

App. 139
46. Nor do, as Blanca asserts, sections 1.1901(e)
and 1.1905 of our rules indicate any contrary Commission intent to treat decisions underlying debt determinations as synonymous with forfeiture actions.134
Consistent with the DCIA and contrary to Blanca’s assertions, section 1.1901(e) does not limit recovery actions to partially-paid or judicially-ordered forfeitures
but includes any amount due the United States, including overpayments from USF.135 Similarly, section
1.1905 does not suggest that recovery actions must follow the procedures for forfeiture liability. Rather, that
section of our rules merely makes clear that such debt
collection rules neither supersede such procedures nor
require their duplication.136

incurred when kickbacks were paid); United States v. Doman, 255
F.2d 865, 869 (3d. Cir. 1958) (holding that the Government’s action under Surplus Property Act was not barred by section 2462
since the recovery was compensatory to the Government, not a
penalty), aff ’d, 359 U.S. 309 (1959).
134
See Application at 15-16; 47 CFR §§ 1.1901(e); 1.905 [sic].
135
31 U.S.C. § 3701(b)(1) (defining “claim” or “debt,” as “any
amount of funds or property that has been determined by an appropriate official of the Federal Government to be owed to the
United States by a person, organization, or entity other than another Federal agency.”).
136
47 CFR § 1.1905. We note that this language is consistent
with similar language in the Federal Claims Collection Standards
(FCCS), 31 CFR parts 900-904, a set of rules jointly passed by the
Treasury Department and the DOJ prescribing DCIA-related collection standards unless the program legislation under which the
claim arises or some other statute provides otherwise. Id. § 900.1(a);
31 CFR § 901.2(a) (explaining that, with regarding [sic] to notice of a governmental claim, “[g]enerally, one demand should
suffice”); id. § 901.3(b)(4)(iv) (“When an agency previously has

App. 140
E. The Commission Afforded Blanca Due
Process
47. The Commission processes have afforded
Blanca sufficient due process. Informal adjudications
should provide notice to affected parties, opportunity
to participate, and supporting reasons.137 In adopting
section 3716 of the DCIA, Congress explicitly preserved “all appropriate due process rights, including
the ability to verify, challenge, and compromise claims”
by requiring, prior to the initiation of offset, that the
debtor be sent written notice describing the type and
amount of the claim, the intention of the agency head
to collect the claim by administrative offset, and an explanation of the rights of the debtor under section
3716, as well as opportunities to inspect and copy
given a debtor any of the required notice and review opportunities
with respect to a particular debt, the agency need not duplicate
such notice and review opportunities before administrative offset
may be initiated.”).
137
See Pension Benefit Guar. Corp. v. LTV Corp., Inc., 496
U.S. 633, 655 (1990) (citation omitted) (“The determination in
this case, however, was lawfully made by informal adjudication,
the minimal requirements for which are set forth in the APA.”);
Sw. Airlines Co. v. Transp. Sec. Admin., 650 F.3d 752, 757 (D.C.
Cir. 2011) (“In informal adjudications like these, agencies must
satisfy only minimal procedural requirements.” (internal quotation marks and brackets omitted)); 5 U.S.C. § 555(e) (2000) (requiring each agency, “[w]ith due regard for the convenience and
necessity of the parties or their representatives and within a reasonable time, [to] proceed to conclude a matter presented to it,”
and to give “[p]rompt notice . . . of the denial of a written application, petition, or other request of an interested person made in
connection with any agency proceeding . . . [with] a brief statement of the grounds for denial”).

App. 141
agency records related to the claim, to receive agency
review of its claim-related decisions, and to enter into
a repayment agreement with the agency head.138 An
agency need not, however, duplicate such notice and
review opportunities in order to initiate offset.139
48. In the OMD Letter, OMD provided Blanca
with specific notice of the factual and legal predicates
for its conclusion that Blanca received $6,748,280 in
high-cost USF support in error. The OMD Letter did
not fall short of the requisite notice by citing rule parts
rather than specific sections. The cost accounting
framework embodied in the rule parts cited by OMD,
i.e., Parts 36, 64, and 69 of the Commission’s rules,
make clear that under the Act and the Commission’s
rules, CMRS-related expenses are nonregulated expenses that could not be included in regulated accounts for purposes of NECA cost reporting.
49. Blanca states that the OMD Letter deprived
it of access to the underlying cost data upon which the
Commission relied to calculate the overpayments,
which were separately detailed on a per fund, per year
basis in an accompanying attachment.140 But Blanca
did have access to the underlying costs data because
OMD explicitly based its financial accounting on the
138

31 U.S.C. § 3716(a); see also 31 CFR §§ 901, 1.1912. Agencies referring delinquent debts to the Treasury must certify that
the debts are past due and legally enforceable and that the
Agency has complied with all due process requirements as set
forth in 31 U.S.C. § 3716(a); 31 CFR § 901.3(b)(5).
139
31 CFR §§ 901.2(a); 901.3(b)(4)(iv).
140
See Application at 21-22.

App. 142
cost studies Blanca itself commissioned in response to
the demands by NECA and USAC to remove certain
costs and revenues and wireless loops.141 Blanca did
not submit a request to the Commission for such records nor did it assert that it could not adequately challenge the cost accounting because of a lack of access to
such records.142 Indeed, Blanca did not make any attempt to contest the accuracy of the accounting.
50. The OMD Letter also clearly stated that “[i]f
you have evidence establishing that you do not owe the
Debt, or if you have further verified evidence to substantiate your entitlement to receive payment for the
disallowed USF payments, provide such evidence to
the Commission within 14 days of the Due Date.”143
The OMD Letter, therefore, clearly advised Blanca of
the opportunity that it had to request a review, which
Blanca took advantage of by filing the Application for
Review and Request for Reconsideration. Contrary to
Blanca’s assertion, nothing in the OMD Letter suggested that Blanca was precluded from raising legal
arguments or conclusions of fact and law.144 Further, to
the extent that Blanca complains that the OMD Letter
did not comport with the DCIA’s provisions concerning
141

See OMD Letter, Attach. A.
We note that while, in its Fourth Supplement, Blanca disclosed that it had pending requests for all records relating to OIG
subpoenas of NECA records relating to Blanca’s overpayments,
Blanca does not state that such records request has any bearing
on its ability to challenge the Commission’s OMD Letter.
143
OMD Letter at 8.
144
Application at 22.
142

App. 143
an offset letter, such complaint is unfounded as the
OMD Letter is a demand letter not an offset letter.145
We also note that Blanca filed both an Application for
Review and a Petition for Reconsideration, and so was
not harmed in any way by an alleged lack of due process.
D. The Commission Has Authority Under
the DCIA to Collect a Claim
51. In this case, we have chosen to use the collection tools made available under the DCIA and its implementing rules for the collection of debt. Blanca
incorrectly argues that USF is not federal funding subject to the DCIA, and therefore, the agency lacks authority to initiate collection efforts, such as offset, to
collect overpaid USF. As emphasized by the Commission in 2004, the DCIA’s definition of “debt” or “claim”
was not “limited to funds that are owed to the Treasury,” but included all funds “ ‘owed the United States,’ ”
including “overpayments from any agency-administered program.”146 When amending its debt collection
rules to reflect the passage of the DCIA, the Commission made clear that it defined a “claim” to include
debts arising from USF-related payments.147 Indeed,
145

Id. at 22.
See Schools and Libraries Fourth Report and Order, 19
FCC Rcd at 15261, para. 20.
147
See 47 CFR § 1.1901(b) (specifying that references to the
term “Commission” in rules implementing the DCIA includes the
USF, TRS Fund, “and any other reporting components of the
Commission.”).
146

App. 144
both the U.S. Supreme Court, and the United States
Senate have characterized USF as a form of federal
funding.148
52. Blanca also incorrectly argues that the DCIA
does not apply to independent agencies such as the
Commission.149 Blanca’s position is contrary to the only
appellate decision directly on point, i.e., Commonwealth Edison.150 In the 1996 DCIA amendments, Congress did not alter the relevant language and did
nothing to express any disapproval of, or raise any
doubts about, the correctness of the Seventh Circuit’s
result.151 That decision is consistent with the plain language of the statute. Section 3701 of the DCIA defines
an “executive, judicial, or legislative agency” to include
any “department, agency, court, court administrative
office, or instrumentality in the executive, judicial, or
legislative branch of Government.”152 The Commission

148

See United States v. American Library Assoc., Inc., 539
U.S. 194, 199 (2003) (characterizing the E-rate program as a form
of “financial assistance”); S. Rep. 105–226, 1998 WL 413894 (referring to the E-rate program as a “federal universal service assistance,” which is administered in the “form of a subsidy
undertaken as part of the spending power of Congress,” and describing the Children’s Internet Protection Act as an “exercise of
Congress’s power “to see that federal funds are appropriately
used” and as providing “clear notice of the conditions placed on
the acceptance of the federal funds.”).
149
See Application at 19-20; Petition at 18-19.
150
See Commonwealth Edison, 830 F.2d at 618-20.
151
See id.
152
31 U.S.C. § 3701(a)(4); see also 31 CFR § 900.1 (“Federal
agencies include agencies of the executive, legislative, and

App. 145
clearly qualifies under this definition.153 Indeed, the
Commission is frequently described by courts as an independent, executive agency or as an independent
agency within the executive branch.154 To the extent
that the DCIA was adopted to “maximize collections of
delinquent debts owed to the Government by ensuring
quick action to enforce recovery of debts and the use of
all appropriate collection tools,” it makes little sense
that Congress would have excluded several large federal agencies.155 Accordingly, the most natural reading
judicial branches of the Government, including Government corporations.”).
153
See, e.g., In re Aiken Cty., 645 F.3d 428, 439 (D.C. Cir.
2011) (“As a result of the Supreme Court’s 1935 decision in
Humphrey’s Executor v. United States, 295 U.S. 602 (1935), there
are two kinds of agencies in the Executive Branch: executive
agencies and independent agencies.”).
154
See, e.g., FCC v. Fox Television Stations, Inc., 556 U.S.
502, 526 (2009) (referring to the Commission as an executive
agency); CTIA–The Wireless Ass’n v. Fed. Commc’ns Comm’n, 530
F.3d 984, 989 (D.C. Cir. 2008) (emphasizing that Commission officials are “executive agency officials”); Cal. Ass’n of the Physically
Handicapped, Inc. v. Fed. Commc’ns Comm’n, 840 F.2d 88, 93
(D.C. Cir. 1988) (finding that a federal statute applicable to any
“program or activity conducted by any Executive agency” applied
to the “FCC’s own activities”)..
155
See Debt Collection Improvement Act of 1996, Pub.L. No.
104–134, § 31001(b)(1), 110 Stat. 1321, 1321–358 (1996) (“Purposes of 1996 Amendments” note following 31 U.S.C. § 3701); see
also Exec. Order No. 13,019, 61 F.R. 51,763 (Sept. 28, 1996)
(“[T]he primary purpose of the Debt Collection Improvement Act
is to increase the collection of nontax debts owed to the Federal
Government. . . .”); Lawrence v. Commodity Futures Trading
Comm’n, 759 F.2d 767, 772 (9th Cir. 1985) (“The provisions of the
[Federal Claims Collections Act of 1966] and the amendments in
the Debt Collection Act of 1982 express a Congressional mandate

App. 146
of the reference to the three branches in section 3701
is to presume Congressional intent to be inclusive of a
broad range of federal entities.
53. Blanca also argues incorrectly that OMD
lacks authority to act under the DCIA and that therefore, the OMD Letter is ultra vires.156 The Commission
has delegated to the managing director of OMD or his
designee the power to perform all “administrative determinations provided for in the Debt Collection Improvement Act,”157 as it is entitled to do under the
Communications Act.158 And the DCIA specifically authorizes the head of any agency to collect debts pursuant to the agency’s own regulations.159 Accordingly, we
reject Blanca’s contentions that such delegation is impermissible.160
54. In sum, we conclude that the Commission
has authority under the DCIA to collect the overpayments Blanca received; that OMD lawfully acted on
the Commission’s behalf in determining that Blanca
that agencies play a more active role in the collection of delinquent claims than merely referring them to the Department of
Justice.”).
156
Application at 21.
157
41 CFR § 0.231.
158
47 U.S.C. § 155(c), (e).
159
31 U.S.C.§ 3711(a)(1), (b).
160
47 CFR § 0.231(f ); United States v. Giordano, 416 U.S.
505, 512–13 (1974) (reasoning that when a statute delegates authority to a federal officer or agency, subdelegation to a subordinate federal officer or agency is presumptively permissible absent
affirmative evidence of a contrary congressional intent).

App. 147
owes the USF $6,748,280 and in issuing the OMD Letter; that the overpayment determination is not a forfeiture and, therefore, section 503 of the Act and the
Commission’s regulations implementing section 503
are not applicable; and, finally, that Blanca has not
been deprived of due process. Accordingly, we affirm
OMD’s determination that Blanca must repay
$6,748,280 to the USF, and we direct OMD to pursue
collection of that amount from Blanca, whether by offset, recoupment, referral of the debt to the United
States Department of Treasury for further collection
efforts or by any other means authorized by the DCIA
or common law.
IV. ORDERING CLAUSES
55. Accordingly, IT IS ORDERED, pursuant to
the authority contained in sections 1, 2, 4(i), 4(j), 5, 214,
and 254 of the Communications Act of 1934, as
amended, 47 U.S.C. §§ 151, 152, 154(i), 154(j), 155, 214,
254, and sections 1.106 and 1.115 of the Commission’s
rules, 47 CFR §§ 1.106, 1.115, that this Memorandum
Opinion and Order is ADOPTED.
56. IT IS FURTHER ORDERED that, pursuant
to section 5(c)(5) of the Communications Act of 1934,
as amended, 47 U.S.C. § 155(c)(6), and section 1.115(g)
of the Commission’s rules, 47 CFR § 1.115(g), the Application for Review of Blanca Telephone Company IS
DENIED.
57. IT IS FURTHER ORDERED, that the following pleadings ARE DISMISSED as unauthorized

App. 148
pursuant to 47 C.F.R. § 1.115(d) and 47 C.F.R. § 1.45(c)
to the extent that the pleadings address arguments
that could have been timely raised in the Application
for Review: Motion for Leave to Supplement Emergency Application for Review; Second Motion for Leave
to Supplement Emergency Application for Review;
Third Motion for Leave to Supplement Emergency
Application for Review; Fourth Motion for Leave to
Supplement Emergency Application for Review. Otherwise, these pleadings ARE DENIED, pursuant to section 5(c)(5) of the Communications Act of 1934, as
amended, 47 U.S.C. § 155(c)(6), and section 1.115(g) of
the Commission’s rules, 47 CFR § 1.115(g).
58. IT IS FURTHER ORDERED that, pursuant
to the authority contained in sections 1, 2, 4(i), 5, 214,
254, and 303(r) of the Communications Act of 1934, as
amended, 47 U.S.C. §§ 151, 152, 154(i), 155, 214, 254,
303(r), and section 1.106(a)(1) of the Commission’s
rules, 47 CFR § 1.106(a)(1), the Petition for Reconsideration filed by Blanca Telephone Company IS DENIED.
59. IT IS FURTHER ORDERED that, pursuant
to section 1.103 of the Commission’s rules, 47 CFR
§ 1.103, this Order SHALL BE EFFECTIVE upon release.
FEDERAL COMMUNICATIONS COMMISSION
Marlene H. Dortch
Secretary

App. 149
STATEMENT OF
COMMISSIONER MIGNON L. CLYBURN
Re: Blanca Telephone Company, Seeking Relief from
the June 22 [sic], 2016 Letter Issued by the Office
of the Managing Director Demanding Repayment
of a Universal Service Fund Debt Pursuant to the
Debt Collection Improvement Act, WC Docket No.
96-45
The FCC is about to confront what can best be described as an unfortunate situation: A company that
should have known better, and an agency that should
have figured it out sooner. Blanca Telephone Company
should have known that it was impermissible to claim
that costs for both their wireline and wireless network
were compensable. The FCC should have quickly discovered this wrongdoing, and addressed it with swift
enforcement action. Sadly, it was too little, too late, on
both accounts.
At least today we can make clear that at a minimum the Universal Service Fund (USF) is due the
money that was wrongfully spent. For that, I vote to
approve.
I remain fearful, however, about whatever else lies
beneath. As a consistent spokesperson on the need to
address waste, fraud, and abuse in our universal service outlays, I have seen too many instances—particularly during my time as a state commissioner—of
companies using the USF high-cost fund as a piggy
bank for all manner of inappropriate expenses. Unfortunately for the high-cost fund and for all of us, we remain slow in discovering wrongdoing and late in

App. 150
addressing it. As the agency considers further reforms
to our high-cost fund, I am hopeful that we will also
take a serious look at measures to stamp out waste,
fraud, and abuse wherever we find it.

STATEMENT OF
COMMISSIONER MICHAEL O’RIELLY
Re: Blanca Telephone Company, Seeking Relief from
the June 22 [sic], 2016 Letter Issued by the Office
of the Managing Director Demanding Repayment
of a Universal Service Fund Debt Pursuant to the
Debt Collection Improvement Act, WC Docket No.
96-45
As the steward of federal universal service funds
collected from American consumers and businesses,
the FCC must do everything within its authority to
root out waste, fraud, and abuse. Part of that responsibility is fulfilled by enacting clear rules and appropriate limits or “guardrails,” as I’ve called them, to ensure
that funds are being used as efficiently as possible for
their intended purposes. As the Commission has reformed parts of the high-cost program, I have worked
to improve oversight and accountability. Most recently,
I have been working with Commissioner Clyburn to
update the rate-of-return rules to delineate what types
of expenses cannot be funded through universal service or allowed in the rate base. For instance, I am
aware of no one that supports the notion that these
precious dollars could be used for such purposes as personal yachts or country club golf memberships. To be
clear, this is not an attempt to enact unnecessary

App. 151
micromanagement of private companies, but instead
reasonable limitations to prevent the most egregious
practices. Hopefully that effort will soon bear fruit.
The other key component is taking swift action to
recoup funding once the Commission becomes aware of
problems. I am concerned, therefore, that the troubling
conduct at issue here occurred between 2005 and 2010,
was not discovered until 2012, and is only now being
remedied. We must do better. The longer the delay, the
greater the risk that we will lack the evidence and ability to pursue even the most fraudulent of behavior. In
this instance, the rules were sufficiently clear, the misconduct was egregious, and the proof is adequately documented that I am willing to collect the overpayments,
notwithstanding the delay.
At the same time, I have heard complaints that
USAC has been attempting to recoup certain overpayments from a decade ago that reportedly resulted from
ministerial errors rather than fraud – the type of situation where the steps to obtain recovery at this point
may cost more than the funding at stake. Moreover, recipients that obtained funding that long ago may not
have been under an obligation to retain records for
that length of time, relevant personnel may no longer
be found, and rules now in place may not have been
applicable that far back in the past. Make no mistake:
I abhor any waste, fraud or abuse caused by wrongdoers and fully support the recoupment of such funds.
However, I am sympathetic to the view that the Commission generally should be required to recover funding within a defined timeframe, such as 7 years.

App. 152
Certain timing limitations imposed on the Commission, like those that exist in other areas, would not
wholly prevent the exercise of oversight or imposition
of enforcement actions when needed. To the extent that
would require clarification or direction by Congress,
that could be a welcome improvement.

App. 153
[SEAL]
Federal Communications Commission
Washington, D.C. 20554
June 2, 2016
By UPS Overnight
And E-Mail to alanwehe@fone.net
alanwehe@GoJade.Org
Mr. Alan Wehe
General Manager
Blanca Telephone Company
129 Santa Fe Ave.
Alamosa, CO 81101
Re: The Blanca Telephone Company
Demand for Repayment of USF High-Cost Funds
DO NOT DISCARD THIS IMPORTANT
NOTICE OF A DEMAND FOR PAYMENT
OF A DEBT OWED TO THE UNITED
STATES AND ORDER OF PAYMENT
Dear Mr. Wehe:
This letter is to notify you that the Federal Communications Commission (the “FCC”) has determined
that the Blanca Telephone Company (“Blanca” or the
“Company”) has received improper payments from the
Universal Service Fund’s (“USF”) high-cost program in
the amount of $6,748,280, which was paid between
2005 and 2010. Our determination follows an investigation by the FCC’s Office of Inspector General (OIG),
the Universal Service Administrative Company (USAC),
and the National Exchange Carrier Association (NECA).

App. 154
The determination of an overpayment also constitutes
a debt owed to the United States that must be recovered and is immediately due and payable without
further demand. Additionally, this is a Demand for
Payment which provides you with certain important
information including: (a) the fact that payment is
due immediately, in full, and without further demand,
(b) the background of the debt, (c) important rights,
and (d) instructions for payment.
Background
On March 17, 2008, KPMG LLP initiated an audit
of Blanca in connection with Blanca’s receipt of USF
high-cost program support. Thereafter, the OIG issued
five administrative subpoenas for, among other things,
reports, filings, and correspondence that Blanca filed
with NECA and USAC regarding USF high-cost support.
On August 24, 2012, NECA initiated a “Loop” and
“Non-Reg Review” focused on the underlying records
for Blanca’s 2011 Cost Study in the area of non-regulated
operations. NECA undertook the Loop review to provide assurance the loop counts used for the 2012-1 USF
filing (December 2011 loops) were properly counted
and categorized in accordance with FCC rules. NECA
provided Blanca with questionnaires to which Blanca
responded. NECA also conducted an on-site investigation of Blanca’s headquarters in Alamosa, CO. Based on
Blanca’s submission and NECA’s on-site inspection,
NECA issued a report on January 29, 2013, which

App. 155
concluded Blanca impermissibly received USF highcost support because its claims for support included
costs and facilities for a mobile wireless system.
NECA required Blanca to substantially and materially revise its high-cost support filings beginning
with the 2011 Cost Study. In response, Blanca retained
Moss Adams to review and revise Blanca’s submissions.1 These revisions were required because Blanca
did not track or allocate expenses associated with
providing local service to customers over its landline
and cellular systems or the expenses associated with
providing service to customers of other carriers roaming on Blanca’s cellular system. Blanca operated these
cellular stations and its Local Exchange Carrier (LEC)
telephone company under a single management structure without allocating costs and expenses between
regulated and non-regulated services. In particular,
1

In addition to the Report’s other findings, and in the section
of NECA’s report titled “Review Findings Report,” NECA directed
Blanca to remove from the 2011 cost study all costs and revenues
associated with the wireless service, including but not limited to,
towers, Blanca’s ZTE wireless switch and radio equipment, including associated depreciation and expense, as well as ICLS,
LLS and the 2012-1 cost loop filings. Additionally, Blanca was directed to remove all access lines and pool revenue associated with
the wireless service from settlements for all months remaining in
the pooling window (minutes, lines, SLCs, ARCS (starting July
2012), FUSC and switched access revenue). Blanca was also directed to remove 146 loops associated with the wireless service
from the 2011 cost study, the 2012-1 high cost loop filing, and the
January 2012 pool reporting. Additionally, 149 loops were to be
removed from 2010 for cost study averaging. Blanca Telephone
Company, 28th Access Year Review, Review Findings Report,
January 28, 2013.

App. 156
Blanca characterized its cellular stations as Basic Exchange Telephone Relay Service (BETRS) facilities in
its CPRs, and by including all costs attributable to its
mobile cellular system in its cost studies, failed to comply with Parts 64, 36 and 69 of the FCC’s rules. The
inclusion in cost studies of such cellular investment,
expenses, and costs that were not used and useful to
provide regulated telephone service is prohibited, and
resulted in inflated disbursements to Blanca from
ICLS, LSS, High Cost Loop Support, and Safety Net
Additive Support.
In Blanca’s responses to the OIG subpoenas and
during NECA’s investigation, Blanca claimed it was
providing fixed wireless service, i.e., BETRS, for which
it was entitled to receive high-cost support as a LEC.
This was not the case. In particular, NECA determined
that Blanca was not providing BETRS, and instead
was providing only mobile cellular service throughout
its entire Eligible Telecommunications Carrier (ETC)
study area. As such, Blanca improperly included costs
and facilities attributable to non-regulated mobile cellular service, as well as wireless loop counts, in its cost
studies that served as the basis for filing for USF highcost funds. Although not addressed in NECA’s report,
Blanca’s claims for USF support were also based in
part on its costs to provide cellular services outside of
its designated LEC study area, as demonstrated by a
comparison of Blanca’s LEC and cellular operating areas, a review of Blanca’s billing records, and as confirmed by testimony provided during interviews of
Blanca personnel as discussed below. Blanca therefore

App. 157
received USF high-cost support to which it was not entitled as a LEC because it submitted claims for support
based upon the provision of mobile cellular service
both within and outside of its LEC study area.
By correspondence to you on January 28, 2013,
NECA directed Blanca to remove all costs attributable
to its wireless service and provide documentation of
the adjustments to NECA no later than February 22,
2012. Specifically, NECA directed Blanca to refile its
cost study for 2011, removing all costs attributable to
the wireless system, as well as revised Interstate Common Line Support (ICLS), Local Switching Support
(LSS), and the 2012-1 High Cost loop filings. Blanca
completed these revisions in a series of filings with
NECA and USAC, and the funds for USF high-cost
support for the post-2011 period have been recovered
through charge backs and recoupments. Any improperly received USF high-cost support for periods prior
to 2011 have not been recouped.
Findings
Since as early as 2003, Blanca has claimed reimbursement from the high-cost program for the costs of
providing telephone service as a rate of return, landline carrier. Blanca is authorized to provide landline
telephone service as a LEC in portions of Alamosa and
Costilla Counties, CO.2 As a rural LEC, and based on

2

Blanca was designated as an ETC by the Colorado Public
Utilities Commission on December 17, 1997, which entitled it to

App. 158
the services Blanca provided during the relevant period, the Company could be reimbursed from the highcost program for only the costs of providing regulated
local exchange service within its authorized ETC study
area. However, our investigation found that from at
least 2005, Blanca claimed all of the costs it incurred
to provide telephone service as a LEC were for landline
and fixed wireless service, i.e., BETRS, within its authorized study area even though Blanca was providing
only mobile cellular service. In other words, the conduct that led Blanca to repay USF high-cost support
payments after 2011 began as early as 2005. As such,
Blanca received improper payments from the USF
high-cost support program beginning in at least 2005.
A BETRS system, whatever the frequency utilized, must be dedicated to the end user and fixed at a
customer’s premises in order to qualify for high-cost
support as a regulated local exchange service.3 The definition of BETRS specifically excludes the provision of
cellular mobile telephone service as was provided by
receive federal universal service support in accordance with 47
U.S.C. § 254 and implementing regulations by the FCC.
3
“BETRS is provided so that radio loops can take the place
of (expensive) wire or cable to remote areas. It is intended to
be an extension of intrastate basic exchange service.” Basic Exchange Telecommunications Radio Service, Report and Order, 3
FCC Rcd. 214, 217 (1988). In the 1988 Order, the Commission
made clear that it intended “that wire and radio basic exchange
service [would] be treated similarly with regard to eligibility for
high cost assistance.” Id. at note 10. We also note that BETRS is
treated the same as landline basic exchange facilities and service,
rather than cellular or another mobile service, for purposes of the
FCC’s Uniform System of Accounts.

App. 159
Blanca.4 In so concluding, we find unavailing your argument that for the purposes of receiving high cost
support as an incumbent landline carrier, “the definition of ‘fixed’ includes wireless service that is provided
to a defined, limited geographic area where it can be
received by a device that is not nailed or screwed
down.”5
In particular, your argument misreads NECA’s
Paper 4.9, Use of Wireless Technology to Provide Regulated Local Exchange Service (“NECA Paper”) as applied to Blanca’s cellular system. There is nothing
in the FCC’s regulations or precedents, or in the
4

The Commission recognized the use of cellular frequencies
on a fixed basis to provide BETRS was appropriate and “in the
public interest since it is intended to be an extension of basic exchange service in areas where there is inadequate or no basic exchange telephone service offered.” In the Matter of Amendment
of Parts 2 and 22 of the Commission’s Rules to Permit Liberalization of Technology and Auxiliary Service Offerings in the Domestic Public Cellular Radio Telecommunications Service in
GEN. Docket No. 87-390, 3 FCC Rcd. 7033 (1988); Reconsideration Granted in Part by In the Matter of Amendment of Parts 2
and 22 of the Commission’s Rules to Permit Liberalization of Technology and Auxiliary Service Offerings in the Domestic Public Cellular Radio Telecommunications Service, 5 FCC Rcd. 1138 (1990)
(BETRS is a radio service that can be used to provide local exchange service in rural areas. It has no specified technology, but
involves the use of mobile frequencies in radio loops between a
basic exchange telephone subscriber and a telephone company
central office.). Id. at note 2.
5
Letter from Richard L. Tegtmeier, counsel for Blanca Telephone Company, dated October 30, 2015 in response to J. Chris
Larson, Assistant United States Attorney, letter of August 10,
2015 regarding 408 Rule of Evidence Settlement Communication
(“Settlement Letter”).

App. 160
Communications Act of 1934, as amended, (the “Act”)
to support Blanca’s position. Whether Blanca’s service is “mobile” or “fixed” is not determined based on
whether Blanca’s LEC customers’ signals are automatically handed off to other carriers in adjoining cellular
service areas, and the NECA Paper makes no such distinction. Nor does the NECA Paper suggest that “fixed
wireless’ service may provide for geographic mobility
to wireless subscribers within a broadcast area, as long
as this mobility is not as extensive as the ‘full’ mobility provided by mobile wireless services.”6 While the
NECA Paper notes that one of the characteristics of
new wireless technology is that the subscriber “may
have some degree of ‘portability’ within the broadcast
area,”7 the Paper in no way equates that “portability”
to a cellular company’s entire cellular service area.
Instead, the NECA Paper makes it clear, among
other requirements, that a wireless system must be
fixed, not mobile,8 in order to qualify for high cost support as a rate of return company and that the LEC’s
radio equipment at the customer site must be a fixed
radio station.9 While explaining that wireless technology can be an effective means to provide a supported
service to telephone customers where it is cost prohibitive or impractical over wireline facilities, NECA explicitly cautions its member companies that the costs
6
7
8
9

Settlement Letter at 2.
NECA Paper at 9.
Id. at n.11.
Id. at 10.

App. 161
for a system to provide mobile services are outside the
scope of Title II and cannot be reported to the NECA
pool or recognized in USF loop cost reporting,10 which
is exactly what Blanca did, contrary to NECA’s admonitions.
As noted below, Blanca customers purchase service
that allows them to use their cell phones throughout
Blanca’s cellular service area with handoff between
multiple Blanca cell sites. They also can continue to
use their phones by redialing and roaming on other cellular systems, and customers from other carriers have
the ability to roam on Blanca’s system when they make
or receive calls in Blanca’s cellular service area.11 Thus,
NECA’s conclusion in its January 29, 2013 report (the
“NECA Report”), that “[i]n order to include these costs
in further filings Blanca would need to provide a wireless service that is fixed to the customer location in

10

Id. at 10.
At one point Blanca conducted testing of its system because Verizon customers were having difficulty making and receiving calls within Blanca’s service area. Deposition of A. Wehe
in Cellular Network Inc. Corporation, individually and derivatively on behalf of Colorado 7-Saguache Limited Partnership vs.
Sand Dunes Cellular of Colorado Limited Partnership, Colorado
7-Saguache Limited Partnership (Nominal Defendant) and Cellco
Partnership and Comnet Cellular (Additional Counterclaim Defendants), Case No. 03CV4096, District Count, Arapahoe County,
Colorado, October 26, 2006, at 124. Wehe also provided oral testimony that Blanca obtained roaming revenue from other carriers
for their customers roaming on Blanca’s system. Id. at 211.
11

App. 162
accordance with the cost issue,12 was consistent with
the NECA Paper.
Our review of Blanca’s operations further makes
clear that Blanca was not providing BETRS or fixed
telephone service to its customers over its cellular facilities. Blanca operates pursuant to two mobile cellular licenses, KNKQ427 serving CMA356- Colorado 9 –
Costilla and KNKR288, serving CMA354 - Colorado 7
– Saguache, which provide mobile cellular service to
Blanca’s own customers as well as customers roaming
on its cellular system serving Costilla, Alamosa, and
Conejos Counties. Blanca provides mobile cellular service to customers via five cell sites which hand off to
each other.13 The nature of the cellular service Blanca
12

Cover letter to the NECA Report, at 1. This conclusion is
also consistent with the discussion of new wireless technologies
in the NECA Paper. While these new technologies allow for some
mobility within the range of their antennas, the operator can prevent mobile operations by fixing the receiver at the customer’s
location. (“Use of a permanently installed transceiver at the customer premises by the telephone company or by the customer can
be effective at disabling or significantly limiting any portable or
mobile capability of the radio system.”) Id. at 9. And, when the
NECA Paper referred to Commercial Mobile Radio Service
(CMRS) leased capacity to provide regulated exchange telephone
service by local exchange carriers, such as Blanca, NECA conditioned the service being fixed without regard to any “broadcast
area.” Id. at 8.
13
According to Keith Hazlett, a Blanca engineer, Blanca’s
cellular system had five cell sites which handed off to each other,
and there was no requirement to his knowledge that a cellular
customer be located at a fixed location. Oral testimony of Keith
Hazlett, Civil Investigative Demand, Tr., at 11. Blanca did not
have any restriction in its application for wireless service or on its
company website that a customer be located at a fixed location as

App. 163
provides and the scope of the stations’ operations are
documented in the series of applications Blanca filed
with the Commission, the FCC-issued authorizations
to provide cellular mobile service and by other representations made to the Commission.14
a condition of receiving cellular service. Alan Wehe also testified
that a customer could use his or her cellular phone to make a call
throughout Blanca’s cellular network as well as roam on other
carriers’ systems with which Blanca had a roaming agreement.
Oral testimony of Alan Wehe, Civil Investigative Demand, Tr. At
68-69.
14
That Blanca’s cellular system was designed and operated
to provide cellular mobile service to its customers and those traveling through Blanca’s cellular service area is evident from the
application filed for a new cellular station at Antonito, CO. On
November 20, 1995, Colorado RSA 7(B)(2) Limited Partnership
(the “Partnership”), filed an application seeking to construct a
new cellular system at Antonito. When the application was filed,
Blanca owned 50% of the Partnership and later acquired the remainder partnership interests on September 11, 2000. The Partnership represented the station, later licensed under call sign
KNKR288, would be operated in conjunction with Blanca’s adjacent cellular station KNKQ427, Costilla, CO. The application proposed to cover more than 50 square miles of unserved areas in
Conejos County in southeastern RSA No. 354B, and Costilla
County in southwestern RSA No. 2356B, which was outside of
Blanca’s study area. The application represented that the cellular
system would provide direct dial mobile and portable service to
the public. “The cellular system will be interconnected so that local customers and roamers are able to place and receive calls to
and from any telephone or terminal connected to the public
switched telephone network, and to and from networks on other
cellular or interconnected mobile systems. (Application, Exhibit
VI, Colorado RSA 7B(2) Limited Partnership, Antonito, Colorado.) The Service Proposal noted that “[c]ustomers with complaints relating to their mobile or portable unit will be able to take
it to the applicant’s service facility for repairs or call for a repairman to service it in the system’s service area where it is located.”

App. 164
Blanca has participated in Commission proceedings as a mobile cellular carrier in WT Docket No.
05-265. In a Petition for Reconsideration, Blanca described itself as a “wireline company . . . which expanded its operations to provide mobile wireless
service.”15 As Blanca explained, it was having difficulty
obtaining roaming agreements for voice and data services from national wireless carriers so it could provide
seamless coverage for its customers who traveled
outside of its service areas. Consistent with Blanca’s
representations in its Reconsideration Petition, records obtained from Blanca demonstrate the Company
has negotiated dozens of roaming agreements. These
agreements provided Blanca with revenues from other
carriers’ customers roaming on its cellular system and
also enabled Blanca’s mobile cellular customers to
travel to other areas of the country and use their mobile cellular phones.
Although during NECA’s investigation Blanca
professed to provide service to 146 customers who could
not receive landline service because “many of BTC’s customers lack[ed] access to commercial power,”16 Blanca’s
Exhibit VI, Service Proposal, at 2. The application proposed to use
Blanca’s cellular switch (Station KNQ427) and represented that
the switching expenses would therefore be nominal. Exhibit IX,
Construction Costs & First Year Operating Expenses. Blanca represented it “[had] the ability to construct and to operate the proposed system.” Id.
15
Petition for Reconsideration filed by Blanca Telephone
Company in WT Docket No 05-265, at 1 (June 6, 2011).
16
NECA Report, Wireless Service Section at 1. Blanca also
claimed that “[t]he Blanca Telephone Company has been using

App. 165
operations as a cellular carrier were substantially
more extensive than the representations made in the
Settlement Letter that wireless service was provided
to “remote” customers. Blanca provided its wireless
service to any customer who requested it, whether or
not the customer could receive wireline service or was
located within an area where there was a source of
electrical power, as Blanca represented to NECA. And,
Blanca proactively upgraded its system and coordinated with other operators in the area to enable system handoff.17

wireless technology since 1982 to provide basic service to approximately 150 customers in an unserved area (there are no land-line
facilities available due to not being feasible and the installation
would be cost prohibitive) and the area is sparsely populated.” Response of A. Wehe to OIG Subpoena dated October 23, 2012, Questions 26 & 27.
17
In this regard, Blanca also took measures to ensure that
its cellular system would be compatible with other systems.
Blanca installed Evolution Data Only (EVDO) equipment for its
cellular system in 2007, which Blanca described as “BETRS
EVDO” in its cumulative property record (CPR), to add at its five
cell sites. Blanca coordinated installation of the EVDO equipment
with the adjoining cellular system in which Wehe and Verizon
Wireless hold ownership interests. “Verizon Wireless suggests
that Blanca move to a 41 channel spacing configuration to enable
inter-system hand-off. If you have any questions, let us know.
Please reply with your concurrence to the plan above and dates
for implementation.” (Email from M. Sandoval, Director-System
Performance, Mountain Region, Verizon Wireless to T. Welch,
Blanca’s FCC counsel; cc to A. Wehe, and L. Stevens, D. Sisneros,
and M. Skelton of Verizon Wireless, dated July 5, 2007.)

App. 166
Additionally, Blanca claimed USF high-cost support to provide service outside of its study area.18 Section 214(e)(5) of the Act defines a service area as a
geographic area established by a state commission for
the purpose of determining universal service obligations and support mechanisms. In the case of a service
area served by a rural telephone company, service area
means a company’s “study area.” Only two of Blanca’s
cellular towers are located within Blanca’s study
area.19 As a LEC, Blanca did not have authority to
claim high-cost support for any costs to provide service
for any of its cellular customers served outside of its
study area or for customers of other cellular carriers
roaming on Blanca’s cellular system. Any costs and expenses attributable to such cellular services were disallowed.
As discussed above, NECA determined, and we
agree, that the costs and line counts Blanca was utilizing to claim high-cost support were attributable to
Blanca’s non-regulated cellular operations, rather than
to a BETRS fixed service and were therefore not entitled to High-Cost support. NECA’s investigation resulted in the recoupment of USF high-cost support
18

Blanca provided cellular service to customers outside of
Blanca’s LEC study area. For example, a review of billing records
provided by Blanca reflects that customers received what it called
its BETRS service in the city of Alamosa, outside of Blanca’s LEC
study area, as well as in areas in which Blanca was not authorized
to provide telephone service as a LEC. Response of A. Wehe to
OIG Subpoena dated November 12, 2009, Question 24.
19
Fort Garland KNKQ427 Location 1 and Blanca KNKQ427
Location 4 are situated within Blanca’s authorized study area.

App. 167
only after 2011, which is only a small portion of the
period during which Blanca improperly received these
funds. Based on a review of Blanca’s books and records
obtained during the OIG investigation and Blanca’s
own revision of its cost study and other filings for the
post 2011 period, we have determined Blanca owes the
Fund an additional $6,748,280 (the “Debt”). Further
details of the Debt may be found on Attachment A
hereto.
Accordingly, this letter has notified you of the Debt
and it demands payment, in full, and without further
demand, in accordance with the Notice Information
provided below and Payment Instructions at Attachment B. Furthermore, you are notified that the Commission may reduce the Debt by:
(1) Making a recoupment or offset20 against
other requests for claims for USF minutes
of use,
(2) Withholding payments otherwise due to
Blanca, and
(3) Other action permitted by law.

20

An offset or recoupment means when any high-cost claim
payment is due to you, the money will first be applied to any open
debt followed by the pay out of any remaining balance. Such offset
or recoupment does not stop interest, penalties, or other collection
charges from accruing under 31 U.S.C. § 3717 and 31 C.F.R.
§ 901.9.

App. 168
Important Notice Information
The following provides notification of procedures
and information required by the Debt Collection Improvement Act of 1996.21 The Debt is owed to the
United States. It is payable (the date of this letter is
the Due Date) immediately, in full and without further
demand. The Commission may apply any amount of
undisbursed USF payments for minutes of use to offset
or recoup the Debt.22 Any portion of the Debt unpaid at
the end of the Due Date is Delinquent on that date
(“Date of Delinquency”) and administrative charges,23
interest, and penalties will accrue thereafter.24 The
amount of interest that accrues25 from the Date of Delinquency and the administrative charges are waived
if the complete amount of the Debt is paid within 30
days of the Due Date.26 Additionally, a penalty of six
percent per annum accrues from the Date of Delinquency on any portion of the Debt that remains unpaid 90 days after the Due Date.27 Furthermore, the
21

See 31 U.S.C. §§ 3716, et seq.; 47 C.F.R. §§ 1.1911 and
1.1901, et seq.
22
United States v. Munsey Trust Co., 332 U.S. 234, 239, 108
S.Ct. 1599, 91 L.Ed. 2022 (1947) (“The government has the same
right ‘which belongs to every creditor, to apply the unappropriated moneys of his debtor, in his hands, in extinguishment of the
debts due him.’ ”).
23
47 C.F.R. § 1.1940(c).
24
Public Law 104-134, 110 Stat. 1321, 1358 Apr. 26, 1996).
See also 31 C.F.R. § 900.1, et seq.; 47 C.F.R. § 1.1901, et seq.
25
31 U.S.C. § 3717(a)-(c).
26
31 U.S.C. § 3717(d) and 47 C.F.R. § 1.1940(g).
27
31 U.S.C. § 3717(e)(2).

App. 169
Commission may refer a delinquent Debt to the United
States Treasury or the Department of Justice for further collection action.28 The United States Treasury
will impose an additional administrative collection
charge,29 and it may commence administrative offset.30
An additional surcharge may be imposed in connection
with certain judicial actions to recover judgment.31
If you have evidence establishing that you do not
owe the Debt, or if you have further verified evidence
to substantiate your entitlement to receive payment
for the disallowed USF payments, provide such evidence to the Commission within 14 days of the Due
Date. Because our determination is based on the information you either provided or were unable to provide,
there is no apparent reason for you to inspect and copy
those same records. Finally, you may request the opportunity to repay the debt under the terms of a written agreement; however, such request must be made
with 14 days of the date of this notice, and you must
execute the Commission’s form of the agreement
within thirty days of the date of this notice.
This letter is sent by overnight delivery service
and by e-mail.

28

31 U.S.C. §§ 3711(g); 3716; 28 U.S.C. § 3001, et seq.; 47
C.F.R. § 1.1912.
29
31 U.S.C. § 3717(e); 31 C.F.R. § 285.12( j).
30
31 U.S.C. § 3716.
31
8 U.S.C. § 3011.

App. 170
The points of contact on this letter are Neil Dellar,
who may be reached at (202) 418-8214 and Thomas
Buckley, who can be reached at (202) 418-0725.
Sincerely,
/s/ Dana Shaffer
Dana Shaffer
Deputy Managing Director
Copies:
Jonathan Sallet – General Counsel
Richard L. Tegtmeier, Esq.
Enclosures: Attachments A & B

App. 171
Attachment A

FUND

HCL

LSS

ICLS

(1)
(2)
(3)=(1)-(2)

BLANCA TELEPHONE COMPANY: HIGH COST ANALYSIS
HIGH COST SUPPORT 2005 - 2010
SUPPORT PAID VS. CORRECTED SUPPORT
YEAR
SCENARIO
2005
2006
2007
2008
2009
$802,620
$787,644
$751,512
$837,624
$860,916
Support Actually Paid
Government Calculation $575,225
$595,364
$628,352
$729,442
$709,817
Difference
$227,395
$192,280
$123,160
$108,182
$70,099

(4)
(5)
(6)=(4)-(5)

Support Actually Paid
Government Calculation
Difference

$946,136
$116,660
$829,476

$868,296
$150,261
$718,035

$954,312
$170,321
$783,991

$983,088
$171,884
$811,204

$832,868
$166,471
$766,397

$696,891
$225,558
$471,333

$5,381,591 USAC Disbursement Records
$1,001,155 Gov’t. Study Calculations
$4,380,436

(7)
(8)
(9)=(7)-(8)

Support Actually Paid
Government Calculation
Difference

$437,352
$235,616
$201,736

$421,224
$217,450
$203,774

$472,206
$275,442
$196,764

$520,236
$297,493
$222,743

$545,652
$308,808
$236,844

$593,280
$323,503
$269,777

$2,989,950 USAC Disbursement Records
$1,658,312 Gov’t. Study Calculations
$1,331,638

ROW

(10)
Support Actually Paid
$19,164
$19,164
$19,164
$19,164
$12,444
(11)
Government Calculation
$0
$0
$0
$0
$0
(12)=(10)-(11)
Difference
$19,164
$19,164
$19,164
$19,164
$12,444
TOTAL (3)+(6)+(9)+(12) Total Overpayment $1,277,771 $1,133,253 $1,123,079 $1,161,293 $1,085,784
SNA

(USAC Confidential - Contains Investigatory Information)

TOTAL

2010
$993,096
$779,550
$213,546

$5,033,412 USAC Disbursement Records
$4,098,750 Gov’t. Study Calculations
$934,662

$12,444
$101,544 USAC Disbursement Records
$0
$0 Totally Unregulated
$12,444
$101,544
$967,100 $6,748,280

App. 172
ATTACHMENT B
Payment Instructions
The following information is being provided to assist
you in making your payment.
All payments must be made in U.S. currency in the
form of a wire transfer. No personal checks, cashier’s
checks or other forms of payment will be accepted. Payment should be wired, pursuant to the following instructions:
ABA Routing Number: 021030004
Receiving Bank: TREAS NYC
33 Liberty Street
New York, NY 10045
ACCOUNT NAME: FCC
ACCOUNT NUMBER: 27000001
OBI Field: USF – High Cost Program
APPLICANT FRN:

(Blanca Telephone Company)

DEBTOR NAME: (same as FCC Form 159, Block 2)
LOCKBOX NO.: #979088
Please fax a completed remittance advice (Form 159)
to U.S. Bank, St. Louis, Missouri at (314) 418-4232 at
least one hour before initiating the wire transfer (but
on the same business day).

App. 173
For questions regarding the submission of payment, contact Gail Glasser, Office of the Managing Director, Financial Operations, at (202) 418-0578.

App. 174
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
-----------------------------------------------------------------------

BLANCA TELEPHONE
COMPANY,
Petitioner,

No. 20-9510
(FCC
No. FCC 17-162)
v.
(Federal CommuniFEDERAL COMMUNICATIONS
cations Commission)
COMMISSION; UNITED
STATES OF AMERICA,
Respondents.
BLANCA TELEPHONE
COMPANY,
No. 20-9524
(FCC No. FCC 17-162)
v.
(Federal CommuniFEDERAL COMMUNICATIONS cations Commission)
COMMISSION; UNITED
STATES OF AMERICA,
Petitioner,

Respondents.
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

(Filed May 6, 2021)
Before TYMKOVICH, Chief Judge, BRISCOE, and
BACHARACH, Circuit Judges.
-----------------------------------------------------------------------

App. 175
Petitioner’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT,
Clerk

App. 176
47 U.S.C. § 503. Forfeitures
(a) Rebates and offsets. Any person who shall deliver
messages for interstate or foreign transmission to any
carrier, or for whom as sender or receiver, any such carrier shall transmit any interstate or foreign wire or radio communication, who shall knowingly by employee,
agent, officer, or otherwise, directly or indirectly, by or
through any means or device whatsoever, receive or accept from such common carrier any sum of money or
any other valuable consideration as a rebate or offset
against the regular charges for transmission of such
messages as fixed by the schedules of charges provided
for in this Act, shall in addition to any other penalty
provided by this Act forfeit to the United States a sum
of money three times the value of any other consideration so received or accepted, to be ascertained by the
trial court; and in the trial of said action all such rebates or other considerations so received or accepted
for a period of six years prior to the commencement of
the action, may be included therein, and the amount
recovered shall be three times the total amount of
money, or three times the total value of such consideration, so received or accepted, or both, as the case may
be.
(b) Activities constituting violations authorizing imposition of forfeiture penalty; amount of penalty; procedures applicable; persons subject to penalty; liability
exemption period.
(1) Any person who is determined by the Commission, in accordance with paragraph (3) or (4) of
this subsection, to have—

App. 177
(A) willfully or repeatedly failed to comply
substantially with the terms and conditions of
any license, permit, certificate, or other instrument or authorization issued by the Commission;
(B) willfully or repeatedly failed to comply
with any of the provisions of this Act or of any
rule, regulation, or order issued by the Commission under this Act or under any treaty,
convention, or other agreement to which the
United States is a party and which is binding
upon the United States;
(C) violated any provision of section 317(c)
or 508(a) of this Act [47 USCS § 317(c) or
509(a)]; or
(D) violated any provision of section 1304,
1343, 1464, or 2252 of title 18, United States
Code [18 USCS § 1304, 1343, 1464, or 2252];
shall be liable to the United States for a forfeiture
penalty. A forfeiture penalty under this subsection
shall be in addition to any other penalty provided
for by this Act; except that this subsection shall
not apply to any conduct which is subject to forfeiture under title II, part II or III of title III, or section 506 of this Act [47 USCS §§ 201 et seq., 351 et
seq., 381 et seq., or 507].
(2) (A) If the violator is (i) a broadcast station
licensee or permittee, (ii) a cable television operator, or (iii) an applicant for any broadcast
or cable television operator license, permit,
certificate, or other instrument or authorization issued by the Commission, the amount of

App. 178
any forfeiture penalty determined under this
section shall not exceed $ 25,000 for each violation or each day of a continuing violation,
except that the amount assessed for any continuing violation shall not exceed a total of
$ 250,000 for any single act or failure to act
described in paragraph (1) of this subsection.
(B) If the violator is a common carrier subject to the provisions of this Act or an applicant for any common carrier license, permit,
certificate, or other instrument of authorization issued by the Commission, the amount of
any forfeiture penalty determined under this
subsection shall not exceed $ 100,000 for each
violation or each day of a continuing violation,
except that the amount assessed for any continuing violation shall not exceed a total of
$ 1,000,000 for any single act or failure to act
described in paragraph (1) of this subsection.
(C) Notwithstanding subparagraph (A), if
the violator is –
(i)(I) a broadcast station licensee or permittee; or (II) an applicant for any broadcast license, permit, certificate, or other
instrument or authorization issued by
the Commission; and
(ii) determined by the Commission under paragraph (1) to have broadcast obscene, indecent, or profane language, the
amount of any forfeiture penalty determined under this subsection shall not exceed $ 325,000 for each violation or each
day of a continuing violation, except that

App. 179
the amount assessed for any continuing
violation shall not exceed a total of
$ 3,000,000 for any single act or failure to
act.
(D) In any case not covered in subparagraph
(A), (B), or (C), the amount of any forfeiture
penalty determined under this subsection
shall not exceed $ 10,000 for each violation or
each day of a continuing violation, except that
the amount assessed for any continuing violation shall not exceed a total of $ 75,000 for any
single act or failure to act described in paragraph (1) of this subsection.
(E) The amount of such forfeiture penalty
shall be assessed by the Commission, or its designee, by written notice. In determining the
amount of such a forfeiture penalty, the Commission or its designee shall take into account
the nature, circumstances, extent, and gravity
of the violation and, with respect to the violator, the degree of culpability, any history of
prior offenses, ability to pay, and such other
matters as justice may require.
(F) Subject to paragraph (5) of this section,
if the violator is a manufacturer or service
provider subject to the requirements of section 255, 716, or 718 [47 USCS § 255, 617, or
619], and is determined by the Commission to
have violated any such requirement, the manufacturer or provider shall be liable to the
United States for a forfeiture penalty of not
more than $ 100,000 for each violation or each
day of a continuing violation, except that the

App. 180
amount assessed for any continuing violation
shall not exceed a total of $ 1,000,000 for any
single act or failure to act.
(3) (A) At the discretion of the Commission, a
forfeiture penalty may be determined against
a person under this subsection after notice
and an opportunity for a hearing before the
Commission or an administrative law judge
thereof in accordance with section 554 of title
5, United States Code. Any person against
whom a forfeiture penalty is determined under this paragraph may obtain review thereof
pursuant to section 402(a) [47 USCS
§ 402(a)].
(B) If any person fails to pay an assessment
of a forfeiture penalty determined under subparagraph (A) of this paragraph, after it has
become a final and unappealable order or after the appropriate court has entered final
judgment in favor of the Commission, the
Commission shall refer the matter to the Attorney General of the United States, who shall
recover the amount assessed in any appropriate district court of the United States. In such
action, the validity and appropriateness of the
final order imposing the forfeiture penalty
shall not be subject to review.
(4) Except as provided in paragraph (3) of this
subsection, no forfeiture penalty shall be imposed
under this subsection against any person unless
and until –

App. 181
(A) the Commission issues a notice of apparent liability, in writing, with respect to such
person;
(B) such notice has been received by such
person, or until the Commission has sent such
notice to the last known address of such person, by registered or certified mail; and
(C) such person is granted an opportunity to
show, in writing, within such reasonable period of time as the Commission prescribes by
rule or regulation, why no such forfeiture penalty should be imposed.
Such a notice shall (i) identify each specific
provision, term, and condition of any Act, rule,
regulation, order, treaty, convention, or other
agreement, license, permit, certificate, instrument, or authorization which such person apparently violated or with which such person
apparently failed to comply; (ii) set forth the
nature of the act or omission charged against
such person and the facts upon which such
charge is based; and (iii) state the date on
which such conduct occurred. Any forfeiture
penalty determined under this paragraph
shall be recoverable pursuant to section
504(a) of this Act [47 USCS § 504(a)].
(5) No forfeiture liability shall be determined under this subsection against any person, if such person does not hold a license, permit, certificate, or
other authorization issued by the Commission,
and if such person is not an applicant for a license,
permit, certificate, or other authorization issued
by the Commission, unless, prior to the notice

App. 182
required by paragraph (3) of this subsection or the
notice of apparent liability required by paragraph
(4) of this subsection, such person (A) is sent a citation of the violation charged; (B) is given a reasonable opportunity for a personal interview with
an official of the Commission, at the field office of
the Commission which is nearest to such person’s
place of residence; and (C) subsequently engages
in conduct of the type described in such citation.
The provisions of this paragraph shall not apply,
however, if the person involved is engaging in activities for which a license, permit, certificate, or
other authorization is required, or is a cable television system operator, if the person involved is
transmitting on frequencies assigned for use in a
service in which individual station operation is authorized by rule pursuant to section 307(e) [47
USCS § 307(e)], or in the case of violations of section 303(q) [47 USCS § 303(q)], if the person involved is a nonlicensee tower owner who has
previously received notice of the obligations imposed by section 303(q) [47 USCS § 303(q)] from
the Commission or the permittee or licensee who
uses that tower. Whenever the requirements of
this paragraph are satisfied with respect to a particular person, such person shall not be entitled to
receive any additional citation of the violation
charged, with respect to any conduct of the type
described in the citation sent under this paragraph.
(6) No forfeiture penalty shall be determined or
imposed against any person under this subsection
if—

App. 183
(A) such person holds a broadcast station license issued under title III of this Act [47
USCS §§ 301 et seq.] and if the violation
charged occurred—
(i) more than 1 year prior to the date of issuance of the required notice or notice of apparent liability; or (ii) prior to the date of
commencement of the current term of such license, whichever is earlier; or
(B) such person does not hold a broadcast station license issued under title III of this Act
[47 USCS §§ 301 et seq.] and if the violation
charged occurred more than 1 year prior to
the date of issuance of the required notice or
notice of apparent liability.
For purposes of this paragraph, “date of commencement of the current term of such license” means the date of commencement of
the last term of license for which the licensee
has been granted a license by the Commission. A separate license term shall not be
deemed to have commenced as a result of continuing a license in effect under section 307(c)
[47 USCS § 307(c)] pending decision on an application for renewal of the license.

47 C.F.R. § 1.1910 Effect of insufficient fee payments, delinquent debts, or debarment.
(a) (1) An application (including a petition for reconsideration or any application for review of a fee determination) or request for authorization subject

App. 184
to the FCC Registration Number (FRN) requirement set forth in subpart W of this chapter will be
examined to determine if the applicant has paid
the appropriate application fee, appropriate regulatory fees, is delinquent in its debts owed the
Commission, or is debarred from receiving Federal
benefits (see, e.g., 31 CFR 285.13; 47 CFR part 1,
subpart P).
(2) Fee payments, delinquent debt, and debarment will be examined based on the entity’s taxpayer identifying number (TIN), supplied when
the entity acquired or was assigned an FRN. See
47 CFR 1.8002(b)(1).
(b) (1) Applications by any entity found not to have
paid the proper application or regulatory fee will
be handled pursuant to the rules set forth in 47
CFR part 1, subpart G.
(2) Action will be withheld on applications, including on a petition for reconsideration or any application for review of a fee determination, or
requests for authorization by any entity found to
be delinquent in its debt to the Commission (see
§ 1.1901(i)), unless otherwise provided for in this
regulation, e.g., 47 CFR 1.1928 (employee petition
for a hearing). The entity will be informed that action will be withheld on the application until full
payment or arrangement to pay any non-tax delinquent debt owed to the Commission is made
and/or that the application may be dismissed. See
the provisions of §§ 1.1108, 1.1109, 1.1116, and
1.1118. Any Commission action taken prior to the
payment of delinquent non-tax debt owed to the
Commission is contingent and subject to

App. 185
rescission. Failure to make payment on any delinquent debt is subject to collection of the debt, including interest thereon, any associated penalties,
and the full cost of collection to the Federal government pursuant to the provisions of the Debt
Collection Improvement Act, 31 U.S.C. 3717.
(3) If a delinquency has not been paid or the
debtor has not made other satisfactory arrangements within 30 days of the date of the notice provided pursuant to paragraph (b)(2) of this section,
the application or request for authorization will be
dismissed.
(i) The provisions of paragraphs (b)(2) and
(b)(3) of this section will not apply if the applicant has timely filed a challenge through an
administrative appeal or a contested judicial
proceeding either to the existence or amount
of the non-tax delinquent debt owed the Commission.
(ii) The provisions of paragraphs (b)(2) and
(b)(3) of this section will not apply where more
restrictive rules govern treatment of delinquent debtors, such as 47 CFR 1.2105(a)(2)(xi)
and (xii).
(c) (1) Applications for emergency or special temporary authority involving safety of life or property
(including national security emergencies) or involving a brief transition period facilitating continuity of service to a substantial number of
customers or end users, will not be subject to the
provisions of paragraphs (a) and (b) of this section.
However, paragraphs (a) and (b) will be applied to
permanent authorizations for these services.

App. 186
(2) The provisions of paragraphs (a) and (b) of
this section will not apply to applications or requests for authorization to which 11 U.S.C. 525(a)
is applicable.

App. 187
31 U.S.C. § 3712. Time limitations for presenting certain claims of the Government
(a) Claims over forged or unauthorized endorsements.
(1) Period for claims. If the Secretary of the
Treasury determines that a Treasury check has
been paid over a forged or unauthorized endorsement, the Secretary may reclaim the amount of
such check from the presenting bank or any other
endorser that has breached its guarantee of endorsements prior to
(A) the end of the 1-year period beginning
on the date of payment; or
(B) the expiration of the 180-day period beginning on the close of the period described in
subparagraph (A) if a timely claim is received
under section 3702 [31 USCS § 3702].
(2)

Civil action.
(A) Except as provided in subparagraph (B),
the United States may bring a civil action to
enforce the liability of an endorser, transferor,
depository, or fiscal agent on a forged or unauthorized signature or endorsement on, or a
change in, a check or warrant issued by the
Secretary of the Treasury, the United States
Postal Service, or any disbursing official or
agent not later than 1 year after a check or
warrant is presented to the drawee for payment.
(B) If the United States has given an endorser written notice of a claim against the

App. 188
endorser within the time allowed by subparagraph (A), the 1-year period for bringing a
civil action on that claim under subparagraph
(A) shall be extended by 3 years.
(3) Effect on agency authority. Nothing in this
subsection shall be construed to limit the authority of any agency under subchapter II of chapter
37 of this title [31 USCS §§ 3711 et seq.].
(b) Notwithstanding subsection (a) of this section, a
civil action may be brought within 2 years after the
claim is discovered when an endorser, transferor, depositary, or fiscal agent fraudulently conceals the claim
from an officer or employee of the Government entitled
to bring the civil action.
(c) The Comptroller General shall credit the appropriate account of the Treasury for the amount of a
check or warrant for which a civil action cannot be
brought because notice was not given within the time
required under subsection (a) of this section if the failure to give notice was not the result of negligence of
the Secretary.
(d) The Government waives all claims against a person arising from dual pay from the Government if the
dual pay is not reported to the Comptroller General for
collection within 6 years from the last date of a period
of dual pay.
(e)

Treasury check offset.
(1) In general. To facilitate collection of amounts
owed by presenting banks pursuant to subsection
(a) or (b), upon the direction of the Secretary, a

App. 189
Federal reserve bank shall withhold credit from
banks presenting Treasury checks for ultimate
charge to the account of the United States Treasury. By presenting Treasury checks for payment a
presenting bank is deemed to authorize this offset.
(2) Attempt to collect required. Prior to directing
offset under subsection (a)(1), the Secretary shall
first attempt to collect amounts owed in the manner provided by sections 3711 and 3716 [31 USCS
§§ 3711 and 3716].

28 U.S.C. § 2462. Time for commencing proceedings
Except as otherwise provided by Act of Congress, an
action, suit or proceeding for the enforcement of any
civil fine, penalty, or forfeiture, pecuniary or otherwise,
shall not be entertained unless commenced within five
years from the date when the claim first accrued if,
within the same period, the offender or the property is
found within the United States in order that proper
service may be made thereon.

